<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                       WEDNESDAY, APRIL 13, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:10 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Johnson (SD), Landrieu, Reed, 
Lautenberg, Harkin, Tester, Alexander, Cochran, Collins, 
Murkowski, and Graham.

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

STATEMENT OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY 
            OF THE ARMY (CIVIL WORKS)


             opening statement of senator dianne feinstein


    Senator Feinstein. The hearing will come to order.
    I would like to apologize for being late. I thought I would 
tune in to the President's address, that there would be some 
specifics and after a while I thought uh-oh, I better go to the 
hearing. So here I am, and I want to thank everybody here for 
being patient.
    I want to welcome our witnesses. I happen to be a big fan 
of the Army Corps of Engineers (COE), and particularly all the 
dredging, the levee protection, the river protection, 
everything that you do in California to enable us to exist is 
critical.
    Mike Connor, who is the Commissioner of the Bureau of 
Reclamation (BOR) has done excellent work. I am a big fan in 
what is a tough area in California. No adage has ever been 
truer than ``whiskey is for drinking and water is for 
fighting'', and California puts that into action every year. So 
I thank you for being a problem-solver rather than a problem-
maker.
    We all recognize, I think, the difficult fiscal environment 
we are in. However, we also realize that our economy is 
fragile, still recovering, and could turn the wrong way, so we 
want to do our very best to see that those agencies that 
stimulate economic and job growth and protect the safety of our 
communities are themselves protected.
    COE and BOR are the agencies we depend on to build the 
water infrastructure that moves our Nation's cargo, protects 
our cities from flooding, provides irrigation water and 
hydropower, and facilitates much needed environmental 
restoration. Not only does the work of these agencies provide 
jobs now, the infrastructure that is constructed continues to 
benefit the economy for decades. It is amazing.
    Unfortunately, the budget request reflects the consistent 
underfunding that we have seen in prior years, and I must say I 
am very disappointed in our part of the continuing resolution 
which takes another whack at COE.
    The President's fiscal year 2012 budget for COE is $4.6 
billion. That is 15 percent below the 2010 enacted amount. Two 
major project accounts for the Department of the Interior under 
the jurisdiction of this subcommittee are proposed at $1.05 
billion, which is 7 percent below the fiscal year 2010 enacted 
amount. That is a lot. So this is a tough budget for both 
agencies.
    For COE, the top six construction projects account for $737 
million of the $1.48 billion requested for construction work. 
That is 51.8 percent of the total. The other 79 construction 
projects--79--compete for the remaining 48 percent of funds.
    In the general investigation account, 75 percent of the 
funding is directed to national programs and two individual 
studies. The other 63 studies proposed will have to compete for 
25 percent of the funds.
    In BOR's budget, I am pleased to see the administration 
propose a new account for the San Joaquin River restoration. 
The $9 million in discretionary funding, along with the 
mandatory funding under the joint settlement agreement between 
the Federal Government, the State, and the water contractors 
will assure that water impacts are reduced or avoided while 
maintaining the San Joaquin River ecosystem.
    Rural water projects are funded in both the water and 
related resources account and the proposed new Indian water 
rights account for fiscal year 2012. There are seven ongoing 
rural water projects proposed at $35.5 million from the water 
and related resources account for 2012. All of these benefit 
various tribes. The new Indian water rights account proposes 
$51.5 million for four similar new projects. One has to wonder 
whether these funds can be effectively used for these new rural 
water systems in fiscal year 2012. That will be something for 
us to look into.
    So I want to welcome Jo-Ellen Darcy, the Assistant 
Secretary of the Army (Civil Works), Lieutenant General Robert 
L. Van Antwerp, the Chief of Engineers for the United States 
Corps of Engineers. And from the Department of the Interior, we 
will hear from Anne Castle, the Assistant Secretary for Water 
and Science, and the wonderful Mike Connor, Commissioner of the 
Bureau of Reclamation.
    Now before formally introducing you, I would like to 
indicate my great pleasure in introducing my ranking member for 
this. We worked together on the Interior Committee and it was 
very easy to do. We were able to work out any issue, and you 
are really a gentleman, Lamar, and in this arena that is doubly 
appreciated. You get double points. So I thank you for being 
you, and I am delighted to recognize you for your remarks.


                  STATEMENT OF SENATOR LAMAR ALEXANDER


    Senator Alexander. Thank you, Madam Chairman. It is a treat 
to work with you. Thank you for the compliment. What I 
especially like about Senator Feinstein is she was a mayor. She 
can make decisions and she speaks with precision. So it is easy 
to work with her. And we have many of the same values and 
judgments about the future of our country.
    Senator Feinstein said that whiskey is for drinking and 
water is for fighting in the West, and all across our country, 
I think all of us are here today because we know that inland 
waterways and locks are for creating private sector jobs. And 
that is really the number one goal we have got in this country 
no matter where we are from.
    I want to thank the chair for holding this hearing and 
thank all the distinguished leaders of the Departments for 
coming. COE has been around since the Revolutionary War. It 
touches the lives of every American, keeps our inland waterways 
open and running, manages our drinking water, provides 
emission-free electricity, looks after recreational waters, and 
as Tennesseans found out last year during our flood, helps us 
manage river levels during serious flooding. It does many 
things well, but we want to be in a position to help COE do 
things even better and jobs are a good place to start.
    The Nation's inland waterways do not get on the front pages 
as much, but they keep trucks off our highways. They result in 
lower fuel costs at a time when fuel is going up. They reduce 
the cost of repairing roads. Barges can carry a ton of freight 
576 miles on a gallon of fuel compared to the 150 miles per 
gallon a truck can carry a ton of freight. And one barge of dry 
cargo can displace as many as 70 trucks, putting that freight 
on our waterway and taking it off our crowded interstate.
    We think of the Chickamauga Lock in the Chattanooga area of 
Tennessee. If it were to close, which it has a real risk of 
doing if it is not replaced, it would put 100,000 big trucks on 
I-75. If COE is committed to mothball projects, it would expand 
the amount of freight on our waterways. In fact, the only 
inland waterways project COE has prioritized is years past its 
planned completion date, hundreds of millions of dollars over 
budget, with still no end in sight. We have to find a solution 
that expands our current locks and gets new ones built.
    One of the things that I want to talk about today when my 
question time comes is that industry, commercial users, came to 
COE in good faith in 2008, attempted to find a solution to put 
more money in the Inland Waterways Trust Fund, only to have COE 
appear to walk away from the documented help draft and condemn 
the report's findings. I would like to have some answers about 
why that happened. What could have been a great example about 
how industry and Government could work together turned out to 
be a cautionary tale about a fickle Government dealing with an 
industry.
    So the questions, Madam Chair, that I will be asking are 
how do we fix the trust fund and make sure that projects like 
Chickamauga Lock get built. Are we doing all we can to utilize 
our ports and harbors? We need to examine how we are managing 
the Harbor Maintenance Trust Fund. The President said his goal 
in the State of the Union Address was to double exports. It is 
going to be hard to do unless we provide adequate funding for 
dredging our ports and harbors. And then what are the specific 
factors driving decisionmaking on COE projects? We need to ask 
for detailed examinations and explanations of how decisions are 
made and the process by which certain projects are deemed 
priorities.
    This is an important hearing. I am glad to be a part of it. 
And I look forward to hearing from the witnesses.
    Thank you, Madam Chair.
    Senator Feinstein. And I thank you, Senator.
    From the Department of the Interior, we will hear from Anne 
Castle, the Assistant Secretary for Water and Science.
     General Antwerp, it is my understanding that this is going 
to be your last appearance before the subcommittee as you will 
be retiring next month. So you can give us the true, 
unvarnished truth, as you see it.
    We will expect nothing less. I want to thank you for your 
many years of service to our Nation. I look forward to working 
with your successor, General Bostick, once he is confirmed.
    I want to remind the witnesses that your full statements 
will be in the record, and I hope you will just provide a brief 
summary of what you are saying. And then we will go the early 
bird rule, and I will alternate sides in recognizing Senators.
    Senator Cochran. Madam Chairman, could I ask unanimous 
consent that a statement appear at this point in the record?
    Senator Feinstein. You certainly may, and all statements 
will be put in the record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Madam Chairman, thank you for convening this hearing to review the 
administration's fiscal year 2012 budget request for the Army Corps of 
Engineers (COE) and Bureau of Reclamation. I am pleased to join you in 
welcoming the panel for attending today's hearing.
    My State is fortunate to border such prominent bodies of water as 
the Mississippi River and the Gulf of Mexico, which are both vital to 
our domestic economy for shipping and travel. Our relationship with the 
Corps of Engineers has enabled Mississippi and its neighboring States 
to benefit from access to these waters while also benefiting from COE-
built levees, dams, and locks which safeguard against floods. COE has 
also been very helpful over the years in helping Mississippi address 
many of its aging wastewater infrastructure issues throughout our 
State. Flood control, port dredging, and environmental infrastructure 
projects are very important to our State, and we appreciate your 
responding to these needs.
    The fiscal year 2012 proposal for the Mississippi River and its 
tributaries has caused concern among commodity exporters who worry 
about COE's ability to maintain the Mississippi River channel at 
authorized depths. The Mississippi River System enables more than $100 
billion in exports to traverse its waters annually. Thousands of jobs 
rely on a fully functioning river system, and I hope COE will continue 
to respond to these national and local interests.
    I look forward to your testimony, and to working with you during 
the coming year.

    Senator Feinstein. Secretary Darcy, would you begin please?

                  SUMMARY STATEMENT OF JO-ELLEN DARCY

    Ms. Darcy. Madam Chairman and distinguished members of the 
subcommittee, thank you for the opportunity to present the 
President's fiscal year 2012 budget for the civil works program 
of COE.
    The budget requires new appropriations of $4.631 billion. 
In keeping with the administration's program to put the Nation 
on a sustainable fiscal path, this is $836 million, or about 15 
percent, below the 2010 enacted amount of $5.445 billion. It is 
about a 6 percent reduction from the 2011 budget for the civil 
works program.
    The budget concentrates funding primarily in the three 
civil works program areas: commercial navigation, flood and 
coastal storm damage reduction, and aquatic ecosystem 
restoration.
    The 2012 budget continues the Army's commitment to a 
performance-based approach to budgeting in order to provide the 
best overall return from available funds in achieving economic, 
environmental, and public safety objectives.
    The budget provides $50 million for a comprehensive levee 
safety initiative to help ensure that Federal levees are safe 
and to assist non-Federal entities as they address safety 
issues with their own levees.
    The operation and maintenance program also includes a new 
environmental and energy sustainability program to reduce 
energy consumption at COE projects and buildings.
    The 2012 budget places priority on collaboration with other 
Federal agencies in the development of funding allocations for 
aquatic ecosystem restoration. For 2012, this collaboration is 
reflected in five major ecosystems:
  --the California Bay-Delta;
  --Chesapeake Bay;
  --the Everglades;
  --the Great Lakes; and
  --the gulf coast.
    The budget provides for use of $758 million from the Harbor 
Maintenance Trust Fund to maintain coastal commercial 
navigation channels and harbors.
    The administration plans to develop legislation to expand 
the authorized uses of the Harbor Maintenance Trust Fund so 
that its receipts are available to finance the Federal share of 
other efforts in support of commercial navigation through our 
Nation's ports. No decisions have been made yet on what 
additional costs would be proposed to be paid from this Harbor 
Maintenance Trust Fund.
    Inland waterways capital investments are funded in the 
budget at $166 million, of which $77 million is financed from 
the Inland Waterways Trust Fund. This is the total amount that 
is affordable in 2012 with the current level of revenue coming 
into the trust fund. The administration will work with the 
Congress and stakeholders to authorize a new mechanism to 
increase the revenue paid by commercial navigation users of the 
inland waterways.
    The administration also plans to work with the Congress and 
stakeholders to explore ways to support broader 
recapitalization of COE's aging infrastructure, modification of 
its operations, or deauthorization as appropriate, consistent 
with our modern day water resources principles and priorities.
    Last year, President Obama established the America's Great 
Outdoors initiative to promote innovative community-level 
efforts to conserve outdoor spaces and to reconnect Americans 
to the outdoors. The Civil Works recreation program is closely 
aligned with the goals of the America's Great Outdoors 
initiative and includes a variety of activities to reconnect 
Americans, especially our young people, with the Nation's 
outdoor resources.
    We continue to strengthen COE's planning expertise, 
including through greater support for our planning centers of 
expertise and continued support for the development of revised 
water project planning principles and guidelines.
    A number of lower-priority programs and activities receive 
reduced or no funding in our 2012 budget. For example, funding 
for maintenance of navigation harbors and waterway segments 
that support little or no commercial use is reduced by about 
one-half. Also, no funding is provided for small projects in 
several of the continuing authorities programs. The budget 
proposes to reprogram $25 million of prior year funds from 
these lower-priority programs to finance ongoing phases of 
projects in higher-priority continuing authorities programs.
    In summary, the President's budget for 2012 for the Army 
Civil Works program is a performance-based budget. It supports 
water resources investments that will yield long-term returns 
for the Nation.
    Madam Chairman and members of the subcommittee, I look 
forward to working with you in support of the President's 
budget.

                           PREPARED STATEMENT

    And if you would indulge me for about 30 seconds, I would 
like to personally thank General Van Antwerp for his years of 
service. I came into this job a year and a half ago and I could 
not have asked for a better partner and a better leader for 
COE, and he will be sorely missed. So thank you.
    [The statement follows:]

                  Prepared Statement of Jo-Ellen Darcy

    Madam Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to present the President's budget for the Civil 
Works program of the Army Corps of Engineers (COE) for fiscal year 
2012.

                       <GREEK-L>COE DEG.OVERVIEW

    The fiscal year 2012 budget for the Civil Works program reflects 
the administration's priorities through targeted investments in the 
Nation's infrastructure that help restore the environment and 
revitalize the economy, while also reflecting the need to put the 
country on a fiscally sustainable path. With those tenets in mind, the 
primary objectives of the budget are as follows:
  --Focus funding on water resources infrastructure projects that 
        produce high economic and environmental returns to the Nation 
        and those that address public safety needs.
  --Restore high-priority ecosystems such as the California Bay-Delta, 
        Chesapeake Bay, the Everglades, the Great Lakes, and the gulf 
        coast.
  --Support a comprehensive levee safety initiative to help ensure that 
        Federal levees are safe and to enhance efforts to assist non-
        Federal parties to address safety issues with their levee 
        systems.
  --Provide priority funding to the maintenance of high-performing 
        projects.
  --Propose changes in the way Federal activities in support of 
        commercial navigation through the Nation's ports are funded, 
        and support increases in inland waterways receipts.
  --Improve the way in which COE addresses the Nation's most pressing 
        water resources challenges.
  --Increase the organizational efficiency and improve the management, 
        oversight, and performance of ongoing programs.
    The budget concentrates funding for development and restoration of 
the Nation's water and related resources within the three main Civil 
Works program areas:
  --commercial navigation;
  --flood and coastal storm damage reduction; and
  --aquatic ecosystem restoration.
    Additionally, the budget supports hydropower, recreation, 
environmental stewardship, and water supply services at existing water 
resources projects owned or operated by COE. Finally, the budget 
provides for protection of the Nation's regulated waters and wetlands; 
cleanup of sites contaminated as a result of the Nation's early efforts 
to develop atomic weapons; and emergency preparedness. The budget does 
not fund work that should be the responsibility of non-Federal 
interests or other Federal agencies, such as water and wastewater 
treatment projects.

     <GREEK-L>COE DEG.FISCAL YEAR 2012 DISCRETIONARY FUNDING LEVEL

    The budget provides gross new discretionary funding of $4.631 
billion, which will keep the Civil Works program moving forward to help 
revitalize the economy, and provide for restoration and stewardship of 
the environment. The budget also proposes cancellation of the $57 
million in unobligated funding previously provided in the Mississippi 
River and Tributaries account for construction of the Yazoo Backwater 
Pumps, Mississippi project. This cancellation would achieve $57 million 
in real savings for the American taxpayer. Of the amount proposed to be 
cancelled, $22 million is an offset to fiscal year 2012 gross 
appropriations, for a net request of $4.609 million. (The Congress 
appropriated the remaining $35 million to ``restore'' funds that COE 
had ``borrowed'' under the Stafford Act while responding to a natural 
disaster at another project. Because the Congress restored these funds 
in an emergency supplemental appropriation, their cancellation does not 
``score'' as an offset to our discretionary funding request.)
    In keeping with the administration's program to put the Nation on a 
sustainable fiscal path, the funding for Civil Works in the 2012 budget 
is $836 million, or about 15 percent, below the enacted amount of 
$5.445 billion in fiscal year 2010. It is about 6 percent below the 
fiscal year 2011 budget level. The fiscal year 2012 funding level 
reflects a considered, practical, effective, and sound use of available 
resources, focusing on those investments that are in the best interest 
of the Nation.
    Within the $4.631 billion recommended gross appropriations, $1.48 
billion is for projects in the Construction account, and $2.314 billion 
is for activities funded in the Operation and Maintenance (O&M) 
account. The budget also includes $104 million for Investigations; $210 
million for Mississippi River and Tributaries; $27 million for Flood 
Control and Coastal Emergencies; $196 million for the Regulatory 
Program; $109 million for the Formerly Utilized Sites Remedial Action 
Program; $185 million for the Expenses account; and $6 million for the 
Office of the Assistant Secretary of the Army (Civil Works). Attachment 
1 shows this funding by account and by program area.

                                        ATTACHMENT 1.--FISCAL YEAR 2012 BUDGET--BUSINESS LINE/ACCOUNT CROSS-WALK
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Funding Categories
                                    --------------------------------------------------------------------------------------------------------------------
                                                                               MR&T
           Business Lines                                      ------------------------------------                                       OASA
                                        I        C       O&M                                TOTAL    FUSRAP    FCCE     REG       E       (CW)    TOTAL
                                                                   I        C       O&M      MRT
--------------------------------------------------------------------------------------------------------------------------------------------------------
Flood and Coastal Storm Damage            48      721      523        1       63       91      155  .......  .......  .......  .......  .......    1,447
 Reduction.........................
    Coastal........................        7       23        8  .......  .......        3        3  .......  .......  .......  .......  .......       41
    Inland.........................       41      698      515        1       63       88      152  .......  .......  .......  .......  .......    1,406
Hydropower.........................  .......        6      176  .......  .......  .......  .......  .......  .......  .......  .......  .......      182
Navigation.........................       18      283    1,237  .......       13       24       37  .......  .......  .......  .......  .......    1,575
    Coastal........................        7      117      706  .......  .......        2        2  .......  .......  .......  .......  .......      832
    Inland.........................       11      166      531  .......       13       22       35  .......  .......  .......  .......  .......      743
Environment:
    Aquatic Ecosystem Restoration..       38      470       23  .......        2  .......        2  .......  .......  .......  .......  .......      533
    Stewardship....................  .......  .......       96  .......  .......        4        4  .......  .......  .......  .......  .......      100
    FUSRAP.........................  .......  .......  .......  .......  .......  .......  .......      109  .......  .......  .......  .......      109
Regulatory.........................  .......  .......  .......  .......  .......  .......  .......  .......  .......      196  .......  .......      196
Recreation.........................  .......  .......      247  .......  .......       12       12  .......  .......  .......  .......  .......      259
Emergency Management (incl. NEPP)..  .......  .......        7  .......  .......  .......  .......  .......       27  .......  .......  .......       34
Water Supply.......................  .......  .......        5  .......  .......  .......  .......  .......  .......  .......  .......  .......        5
Expenses...........................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......      185  .......      185
OASA(CW)...........................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......        6        6
                                    --------------------------------------------------------------------------------------------------------------------
      TOTAL........................      104    1,480    2,314        1       78      131      210      109       27      196      185        6    4,631
--------------------------------------------------------------------------------------------------------------------------------------------------------
I=Investigations; C=Construction; O&M=Operation and Maintenance; MR&T=Flood Control, Mississippi River and Tributaries; FUSRAP=Formerly Utilized Sites
  Remedial Action Program; FCCE=Flood Control and Coastal Emergencies; REG=Regulatory Program; NEPP=National Emergency Preparedness Program; E=Expenses;
  OASA (CW)=Office of the Assistant Secretary of the Army (Civil Works).

    The fiscal year 2012 budget continues the Army's commitment to a 
performance-based approach to budgeting to provide the best overall 
return from available funds from a national perspective in achieving 
economic, environmental, and public safety objectives. Competing 
investment opportunities for studies, design, construction, and 
operation and maintenance were evaluated using multiple metrics, and 
objective performance criteria guided the allocation of funds.
    The fiscal year 2012 budget supports investments in flood and storm 
damage reduction, commercial navigation, environmental restoration, and 
other programs. The distribution of funding among these programs is 
similar to the distribution in the fiscal year 2011 budget, except that 
environmental restoration received a slightly lower proportion of 
overall funding. Of the total in the fiscal year 2012 budget, 31 
percent is allocated to flood and storm damage reduction; 34 percent is 
allocated to commercial navigation; 18 percent is allocated to 
environmental restoration and protection; and 17 percent is allocated 
among other program areas.

          <GREEK-L>COE DEG.NEW INVESTMENTS IN FISCAL YEAR 2012

    The Civil Works budget includes funding for two construction new 
starts and several other new initiatives, as described below.
    In the Construction account, the budget includes $8 million for a 
new start for the Hamilton City project in California, which provides 
environmental restoration and flood damage reduction benefits. The 
budget also includes $3 million to initiate a storm damage reduction 
project along the New Jersey coast between Raritan Bay and Sandy Hook 
Bay in the Port Monmouth area.
    There are four new study starts in the Investigations account: Fish 
Passage at Englebright and Daguerre Point Dams on the Yuba River in 
California for $100,000; environmental restoration and flood damage 
reduction at Cano Martin Pena in Puerto Rico for $100,000; the 
Chesapeake Bay Comprehensive Plan for $250,000; and the Louisiana 
Coastal Area Comprehensive Plan for $100,000.
    The O&M program includes $12.3 million for a new environmental and 
energy sustainability program. This will involve developing tools to 
enable COE to meet Federal sustainability goals and implementing 
energy-saving measures at COE projects and buildings. The 38 Civil 
Works COE districts will compete for these funds by proposing specific 
measures to conserve energy. Lessons learned from this competition will 
inform future investments to increase environmental and energy 
sustainability of the Civil Works program.
    The budget provides $50 million for a comprehensive levee safety 
initiative. This initiative includes $46 million in the O&M account to 
continue and expand activities to help ensure that Federal levees are 
safe and to assist non-Federal entities to address safety issues with 
their levees. The levee safety initiative also includes $4 million in 
the Flood Control and Coastal Emergencies account. These funds will be 
used for COE participation in the expansion of interagency teams, known 
as Silver Jackets, to include every State, and to provide unified 
Federal assistance in implementing flood risk management solutions.

             <GREEK-L>COE DEG.AQUATIC ECOSYSTEM RESTORATION

    The fiscal year 2012 budget places priority on collaboration with 
other Federal agencies in the development of funding allocations for 
aquatic ecosystem restoration. Attachment 2 provides a list of the 
ecosystems and funding amounts budgeted on this basis.

              FISCAL YEAR 2012 PRIORITY ECOSYSTEMS FUNDING
                        [In millions of dollars]
------------------------------------------------------------------------
 Ecosystem
  account               Projects and studies                  Amount
------------------------------------------------------------------------
           California Bay Delta:
     I \1\     Yuba River Fish Passage (new recon)                0.10
         I     San Pablo Bay Watershed Study                      0.50
     C \2\     Hamilton City (new start)                          8.00
   I/C/O&M     Additional studies and projects in                49.00
                Navigation and Flood Damage Reduction
                Pro-  grams
                                                       -----------------
                   Total, California Bay Delta                   58.00
                                                       =================
           Chesapeake Bay:
         I     Chesapeake Bay Comprehensive Study (new            0.25
                recon)
         C     Poplar Island                                     12.00
         C     Chesapeake Bay Oysters                             5.00
                                                       -----------------
                 Total, Chesapeake Bay                           17.00
                                                       =================
           Everglades:
         C     Continuing projects and activities               163.00
   O&M \3\     Continuing projects and activities                 5.00
                                                       -----------------
                 Total, Everglades                              168.00
                                                       =================
           Great Lakes:
         I     Interbasin control--(Great Lakes-Ms R              3.00
                Nuisance Species)
         C     Chicago sanitary and ship canal                   13.50
       O&M     Chicago sanitary and ship canal                   10.50
                                                       -----------------
                 Total, Great Lakes                              27.00
                                                       =================
           Gulf coast:
        GI     Louisiana coast comprehensive study                0.10
                (new recon)
        GI     LCA studies                                       16.00
        CG     LCA projects                                      10.60
                                                       -----------------
                 Total, Gulf coast                               27.00
------------------------------------------------------------------------
           \1\ I=Investigation
           \2\ C=Construction
           \3\ O&M=Operation and Maintenance.

    In connection with this effort, the budget provides $168 million 
for COE for the ongoing South Florida Everglades Restoration Program, 
consisting of $163 million for Construction and $5 million for O&M. The 
budget supports the continued construction of five ongoing aquatic 
ecosystem restoration projects in south Florida:
  --Picayune Strand;
  --Site One Impoundment;
  --Indian River Lagoon South;
  --Kissimmee River; and
  --the C-111 (South Dade) project.
    The budget also supports work on other major ecosystem-wide 
initiatives, such as $58 million for studies and projects in the 
California Bay-Delta, including an important new reconnaissance study 
for fish passage at Englebright and Daguerre Point Dams on the Yuba 
River; an ongoing feasibility study for the Sacramento-San Joaquin 
Delta Islands and Levees; an ongoing comprehensive feasibility study 
for the Sacramento-San Joaquin River Basins; and a new construction 
project at Hamilton City for ecosystem restoration and flood damage 
reduction.
    The budget includes $128 million for the Columbia River Fish 
Mitigation program, an ongoing effort to reduce the adverse impacts of 
a series of COE dams on migrating salmon. Funds will be used to 
construct juvenile fish bypass facilities, improve adult fish ladders 
and conduct other activities that support salmon habitat. The budget 
also provides $73 million for ongoing work under the Missouri River 
fish and wildlife recovery program to construct shallow water habitat 
and undertake other activities to recover and protect federally listed 
species, such as the pallid sturgeon.

            <GREEK-L>COE DEG.INFRASTRUCTURE RECAPITALIZATION

    The administration plans to work with the Congress and stakeholders 
to explore ways to support recapitalization of aging COE 
infrastructure, modification of its operations, or de-authorization, 
consistent with modern-day water resources principles and today's and 
tomorrow's water resources priorities. Under these principles, direct 
beneficiaries would be asked to pay a significant share of the costs to 
rehabilitate, expand or replace projects, as they would for a new 
project, commensurate with the benefits they receive. Options such as 
direct financing will be considered as part of this effort, where 
appropriate.
    The aging of infrastructure affects all of our activities. For 
example, with regard to the production of hydropower, the fiscal year 
2012 budget provides $176 million to operate and maintain COE 
hydropower facilities. In order to decide how best to use the available 
funding, COE has been working under its Hydropower Modernization 
Initiative (HMI) to develop a long-term capital investment strategy. 
One significant feature of the HMI is the Asset Investment Planning 
Tool, which was designed to:
  --analyze the condition of critical components and the consequences 
        of failure;
  --determine the value of additional hydropower and its cost; I14  --
        quantify risk exposure for capital investments; and
  --create 20-year funding scenarios to allow for timely and cost-
        effective rehabilitation or replacement of hydropower 
        facilities and their components.
    To assist the Federal Government in rehabilitating aging equipment, 
COE also is pursuing increased use of non-Federal funds.

             <GREEK-L>COE DEG.HARBOR MAINTENANCE TRUST FUND

    The budget provides for use of $758 million from the Harbor 
Maintenance Trust Fund to maintain coastal channels and harbors. 
Despite an overall Civil Works reduction of 15 percent below the 
enacted fiscal year 2010 level, the amount recommended in the fiscal 
year 2012 budget for harbor maintenance and related work is essentially 
unchanged from the 2 prior years. The administration also plans to 
develop legislation to expand the authorized uses of the Trust Fund, so 
that its receipts are available to finance the Federal share of other 
efforts in support of commercial navigation through the Nation's ports. 
No decisions have been made yet on what additional costs would be 
proposed to be paid from receipts into the Harbor Maintenance Trust 
Fund. Development of proposed legislation will proceed in the coming 
months.

              <GREEK-L>COE DEG.INLAND WATERWAYS TRUST FUND

    Inland waterways capital investments are funded in the budget at 
$166 million, of which $77 million is financed from the Inland 
Waterways Trust Fund. This is the total amount that is affordable in 
fiscal year 2012 with the current level of revenue coming into the 
Trust Fund. The administration will work with the Congress and 
stakeholders to revise the laws that govern the Trust Fund, to include 
increasing the revenue paid by commercial navigation users of the 
inland waterways to meet their share of the costs of activities 
financed from this trust fund.

 <GREEK-L>COE DEG.AMERICA'S GREAT OUTDOORS INITIATIVE AND CIVIL WORKS 
                               RECREATION

    On April 16, 2010 President Obama signed a Presidential Memorandum 
establishing the America's Great Outdoors (AGO) initiative to promote 
and support innovative community-level efforts to conserve outdoor 
spaces and to reconnect Americans to the outdoors. This initiative was 
celebrated at several events around the country, including a public 
``listening'' event the Secretary of the Interior and I held in August 
2010 at a Civil Works project near St. Louis, Missouri.
    COE has been actively involved with the AGO initiative, working in 
concert with its partners to leverage financial and human resources so 
the public can continue to enjoy water-based recreation opportunities 
at COE lakes. The Civil Works recreation program and activities are 
closely aligned with the goals of the initiative and include a variety 
of measures to reconnect Americans, especially young people, with the 
Nation's outdoor resources.
    COE manages 12 million acres of lands and waters supporting water-
based recreation and environmental stewardship. The Civil Works program 
is particularly well-suited to support the AGO initiative, given that 
90 percent of COE projects are within 50 miles of metropolitan areas. 
Camping, hiking, swimming, boating, and other water-oriented recreation 
opportunities attract 370 million visits a year to 422 COE projects. In 
addition, COE has active programs to conserve and protect lands and 
waters for wildlife, fisheries, endangered species and open space.

                 <GREEK-L>COE DEG.PLANNING IMPROVEMENTS

    Working through the Chief of Engineers, the Army continues to 
strengthen and improve the planning expertise of COE, including greater 
support for planning Centers of Expertise, better integration of 
project purposes, greater reliability of cost estimates and schedules 
in planning and programming, and continued support for the development 
of revised water project planning Principles and Guidelines. Also, the 
Army has initiated a pilot program to identify means of enabling 
studies to reach decisions more efficiently.

               <GREEK-L>COE DEG.VETERANS CURATION PROJECT

    The fiscal year 2012 budget includes $2 million to continue the 
Veterans Curation Project, which provides vocational rehabilitation and 
innovative training for wounded and disabled veterans, while achieving 
historical preservation responsibilities for archaeological collections 
administered by COE. The project supports work by veterans at curation 
laboratories located in Augusta, Georgia; St. Louis, Missouri; and 
Washington, DC.

                <GREEK-L>COE DEG.LOWER-PRIORITY PROGRAMS

    Funding of $76 million is provided in the fiscal year 2012 budget 
for maintenance of navigation harbors and waterway segments that 
support low commercial use. This is a reduction of $64 million from the 
fiscal year 2011 budget. The Estuary Restoration Program is funded at 
$2 million, compared to $5 million in the fiscal year 2011 budget.
    No funding is provided for small projects in 4 of the 9 Continuing 
Authorities Programs (CAPs):
  --section 14 (emergency streambank and shoreline protection);
  --section 103 (shore protection);
  --section 107 (navigation); and
  --section 208 (snagging and clearing).
    The budget proposes to reprogram $23 million of CAP funds carried 
over from prior years from these four CAPs to finance ongoing phases of 
projects in 4 of the remaining 5 CAPs:
  --section 111 (mitigation of shoreline damages caused by navigation 
        projects);
  --section 204 (beneficial use of dredged material);
  --section 206 (aquatic ecosystem restoration); and
  --section 1135 (modification of completed projects for the benefit of 
        the environment).
    Section 205 (flood damage reduction) also is supported, and has 
sufficient carryover within it to finance the fiscal year 2012 program 
without a reprogramming.
    No funding is provided for the Aquatic Plant Control program, nor 
is specific line item funding provided for coordination activities 
associated with the National Estuary Program and the North American 
Waterfowl Management Program. Coordination activities will take place, 
as appropriate, in connection with separately funded programs and 
projects.
    Funding under the Formerly Utilized Sites Remedial Action Program 
(FUSRAP) is reduced by $21 million, from $130 million in the fiscal 
year 2011 budget to $109 million in the fiscal year 2012 budget.

     <GREEK-L>COE DEG.AMERICAN RECOVERY AND REINVESTMENT ACT (ARRA)

    COE continues the work funded in ARRA. The act provided $4.6 
billion for the Civil Works program. That amount includes $2 billion 
for Construction; $2.075 billion for O&M; $375 million for Mississippi 
River and Tributaries; $25 million for Investigations; $25 million for 
the Regulatory Program; and $100 million for the Formerly Utilized 
Sites Remedial Action Program. The ARRA funds were allocated to more 
than 800 projects in 49 States, the District of Columbia, and Puerto 
Rico, and 400 of those projects have been completed.
    Nearly all of the $4.6 billion of these funds have been obligated, 
leaving only a small amount, as authorized, for contract supervision 
and administration, as well as known contract claims and modifications. 
As of last month, more than $3.1 billion of the total had been 
expended, primarily payments to contractors for work already completed. 
Of the more than 2,100 recipients of the COE ARRA funds, 99.8 percent 
submitted a report last quarter as required under the act and 
provisions of ARRA contracts.
    The projects funded by ARRA provide important support to the 
Nation's small businesses in their economic recovery. Of the total ARRA 
funds, small business awards account for about 51 percent of the ARRA 
funds obligated and about 72 percent of the total contract actions.
    COE achievements to date with ARRA funds include improvement of 28 
important commercial navigation harbors and channels; repair or 
improvement of dozens of hydropower projects; accelerated completion of 
site cleanup at 9 FUSRAP sites; completion of 822 periodic inspections 
of federally constructed levee systems, including both systems 
maintained by COE and those maintained by local sponsors; and 
completion of important work to restore 57 aquatic ecosystems.

                               CONCLUSION

    In summary, the President's fiscal year 2012 budget for the Army 
Civil Works program is a performance-based budget that supports water 
resources investments that will yield long-term returns for the Nation.
    Madam Chairman and members of the subcommittee, I look forward to 
working with this subcommittee in support of the President's budget. 
Thank you.

    Senator Feinstein. Thank you very much for those words.
    General Van Antwerp, would you like to make some comments?

STATEMENT OF LIEUTENANT GENERAL ROBERT L. VAN ANTWERP, 
            CHIEF OF ENGINEERS
    General Van Antwerp. Madam Chairman and distinguished 
members of the subcommittee, the budget this year funds 92 
construction projects, 55 in the flood-storm-damage reduction. 
Three are budgeted for completion. We have 16 commercial 
navigation projects in this budget and 19 aquatic ecosystem 
projects. Two of these are scheduled as new starts.
    The budget supports our continued stewardship of water-
related infrastructure. The operation and maintenance program 
for the fiscal year 2012 budget includes $2.314 billion and an 
additional $131 million under the Mississippi River and 
Tributaries program.
    COE teammates continue to respond wherever and whenever 
needed to help during major floods and other national 
emergencies. As you can imagine, we are gearing up right now. 
The budget provides $27 million for the preparation for floods, 
hurricanes, and other natural disasters, to include $4 million 
to support the levee safety initiatives in States known as 
``silver jackets.''
    I would like to just provide a quick update on preparations 
as we look forward--not really look forward to, but as we 
anticipate potential spring flood events. We are working with 
the Federal Emergency Management Agency (FEMA) and the National 
Weather Service to monitor the high probability of spring 
flooding in the north central United States, a lot of which is 
already happening out there, specifically the Red River and the 
upper Mississippi River and the Minnesota River. Based on our 
projections, our Commanders have requested the advance planning 
and advance measures funding needed to flood fight. We are out 
there on the ground right now. And I guess in three words I 
would say we are ready.
    On the international front, although not covered 
specifically by this subcommittee, I am proud to tell you a 
little bit about our work in Iraq and Afghanistan, if you will 
indulge me that. We have 1,168 COE members, largely civilians, 
right now deployed overseas. Every day they put on their battle 
armor and they work on the projects that we have asked them to 
do. They have completed more than 6,000 infrastructure and 
water-related projects. We have a lot of our Civil Works 
members that work in COE over there deployed on this military 
mission.
    Last month, Ms. Darcy and I traveled to Afghanistan with my 
counterparts from the other services and witnessed this amazing 
work and had a chance to praise them for their efforts and 
thank them.
    On the 21st and 22d of March, we traveled down to New 
Orleans. We wanted to visit all the major projects in our 
Hurricane Storm Damage Risk Reduction System and make sure that 
the system was ready to defend against the 100-year event by 
June 1 and I am proud to say and happy to say that we are 
ready. It has just been amazing what work has been done down 
there.

                           PREPARED STATEMENT

    Finally, I would like to just say that we are committed to 
staying on the leading edge of service to our Nation in these 
water-related issues, and I look forward to your questions. 
Thank you.
    [The statement follows:]

     Prepared Statement of Lieutenant General Robert L. Van Antwerp

    Chairman Feinstein and distinguished members of the subcommittee: I 
am honored to be testifying before your subcommittee today, along with 
the Assistant Secretary of the Army (Civil Works), the Honorable Jo-
Ellen Darcy, on the President's fiscal year 2012 budget for the Civil 
Works Program of the United States Army Corps of Engineers (COE).
    My statement covers the following 12 topics:
  --Summary of fiscal year 2012 program budget;
  --Direct program;
  --Investigations program;
  --Construction program;
  --Operation and maintenance program;
  --Reimbursable program;
  --Proposed legislation;
  --Planning program modernization;
  --Efficiency and effectiveness of COE operations;
  --Value of the Civil Works Program to the Nation's economy and 
        defense;
  --Research and development; and
  --National defense;

      <GREEK-L>COE DEG.SUMMARY OF FISCAL YEAR 2012 PROGRAM BUDGET

    COE is fully committed to supporting the President's priorities to 
reduce the deficit, revitalize the economy and restore and protect the 
environment. The fiscal year 2012 Civil Works budget is a performance-
based budget that reflects a focus on the projects and activities that 
provide the highest net economic and environmental returns on the 
Nation's investment or address significant risks to human safety. The 
budget also proposes cancellation of the unobligated balance of funding 
in the Mississippi River and Tributaries account that was previously 
provided for construction of the Yazoo Backwater Pumps, Mississippi 
project. The reimbursable Interagency and International Services 
Program is projected to involve an additional $1.6 billion.

                    <GREEK-L>COE DEG.DIRECT PROGRAM

    The budget includes $4.6 billion, including funding for the 
operation and maintenance of more than 600 flood and storm damage 
reduction projects, 143 commercial coastal navigation projects, and 51 
commercial navigation projects on the inland waterways. It also funds 
continuing construction of 90 construction projects and 2 new 
construction starts. The budget includes funds for 58 studies already 
underway and 4 new study starts. It will enable COE to process 
approximately 70,000 permit requests and to operate 75 hydropower 
plants with 350 generating units that produce about 24,000 megawatts 
per year. The budget will enable about 370 million outdoor recreational 
visits to COE projects and will provide water supply storage for about 
14 percent of the Nation's municipal water needs. The budget will 
sustain COE's preparedness to respond to natural disasters that we may 
experience. Finally, the budget also proposes to reduce Federal costs 
through a reduction in funding in lower-priority programs.

                <GREEK-L>COE DEG.INVESTIGATIONS PROGRAM

    The budget for the Investigations program will enable COE to 
evaluate and design future projects that are most likely to be 
highperforming within COE three main mission areas:
  --commercial navigation;
  --flood and storm damage reduction; and
  --aquatic ecosystem restoration.
    The budget includes $104 million for these and related activities 
in the Investigations account and $1 million in the Mississippi River 
and Tributaries account. It funds 58 continuing studies (1 
reconnaissance and 57 feasibility) and 4 new studies:
  --Englebright and Daguerre Point Dams (Yuba River) Fish Passage, 
        California;
  --Cano Martin Pena, Puerto Rico;
  --the Chesapeake Bay Comprehensive Plan; and
  --the Louisiana Coastal Area Comprehensive Study.
    Funding is also included for the Water Resources Priorities Study, 
a high-priority evaluation of the Nation's vulnerability to inland and 
coastal flooding, as well as the effectiveness, efficiency, and 
accountability of existing water resource programs and strategies.

                 <GREEK-L>COE DEG.CONSTRUCTION PROGRAM

    The goal of the construction program is to deliver as high a value 
as possible to the Nation from the overall available funding through 
the construction of new water resources projects and the replacement, 
rehabilitation, and expansion of existing water resources projects in 
the three main Civil Works missions (flood and storm damage reduction, 
aquatic ecosystem restoration, and commercial navigation) and related 
projects (principally hydropower). The fiscal year 2012 budget includes 
$1.48 billion in the Construction account and $78 million in the 
Mississippi River and Tributaries account to further this objective. 
Consistent with this goal, the budget also gives priority to projects 
that address a significant risk to human safety.
    The budget funds 92 construction projects, including:
  --55 Flood and Storm Damage Reduction projects (3 budgeted for 
        completion);
  --16 Commercial Navigation projects (including 5 continuing 
        mitigation items and 4 dredged material placement areas);
  --19 Aquatic Ecosystem Restoration projects (including 3 projects to 
        meet Biological Opinions); and
  --mitigation associated with 2 Hydropower projects.
    Two of these construction projects are new starts. In the 
construction program, the aquatic ecosystem restoration mission also 
includes significant environmental mitigation work in the Columbia 
River Basin and the Missouri River Basin needed to support the 
continued operation of COE multi-purpose projects, which improves 
habitat and migration pathways for endangered and threatened species.
    Performance measures, which COE uses to establish priorities among 
projects, include the benefit-to-cost ratios for projects with economic 
outputs and the most cost-effective restorations of significant aquatic 
ecosystems. The selection process also gives priority to dam safety 
assurance, seepage control, static instability correction work, and to 
projects that address a significant risk to human safety. These 
performance measures maximize benefits to the Nation from the Civil 
Works construction program by focusing on the projects that will 
provide the best net returns for each dollar invested.

           <GREEK-L>COE DEG.OPERATION AND MAINTENANCE PROGRAM

    The facilities owned and operated by, or on behalf of, COE of 
Engineers are aging. As stewards of this infrastructure, we are working 
to ensure that its key features continue to provide an appropriate 
level of service to the Nation. Sustaining such service poses a 
technical challenge in some cases, and proper maintenance is becoming 
more expensive at many of our projects as infrastructure ages.
    The Operation and Maintenance (O&M) program for the fiscal year 
2012 budget includes $2.314 billion and an additional $131 million 
under the Mississippi River and Tributaries program with a focus on the 
maintenance of key commercial navigation, flood and storm damage 
reduction, hydropower, and other facilities. Specifically, the O&M 
program supports completed works owned or operated by the Corps of 
Engineers, including administrative buildings and laboratories. Work to 
be accomplished includes:
  --operation of the locks and dams of the inland waterways;
  --dredging of inland and coastal Federal commercial navigation 
        channels;
  --operating multiple purpose dams and reservoirs for flood damage 
        reduction, aquatic ecosystem restoration, hydropower, 
        recreation, and other related purposes;
  --maintenance and repair of these facilities;
  --monitoring of completed storm damage reduction projects along our 
        coasts; and
  --general management of facilities and the lands associated with 
        these purposes.

                 <GREEK-L>COE DEG.REIMBURSABLE PROGRAM

    Through the Interagency and Intergovernmental Services Program, we 
help non-DOD Federal agencies, State, local and tribal governments, and 
other countries with timely, cost-effective implementation of their 
programs. Rather than develop their own internal workforce to oversee 
design and construction of projects, these agencies can turn to COE , 
which has these capabilities. Such intergovernmental cooperation is 
effective for agencies and the taxpayer by using the skills and talents 
that we bring to our Civil Works and Military Program missions. The 
work is principally technical oversight and management of engineering, 
environmental, and construction contracts performed by private sector 
firms, and is totally financed by the agencies we serve. We only accept 
agency requests that we can execute without impacting our Civil Works 
or Military Programs missions, are consistent with our core technical 
expertise, and are in the national interest.
    Currently, we provide reimbursable support for about 70 other 
Federal agencies and several State and local governments. Total 
reimbursement for such work in fiscal year 2012 is projected to be $1.6 
billion, reflecting completion of most ARRA work and a general 
reduction in budget capability for most of our other agency customers. 
The exact amount will depend on requests from the agencies.

                 <GREEK-L>COE DEG.PROPOSED LEGISLATION

    The budget includes several legislative proposals that will improve 
operations or enable execution of important national programs. The 
budget proposes to extend the authority to implement measures to 
prevent the migration of invasive aquatic species into the Great Lakes, 
to transfer funds between accounts to enable completion of the New 
Orleans perimeter protection by June 2017, to purchase the property 
that houses the Cold Regions Research Engineering Laboratory in 
Hanover, New Hampshire, and to make a minor modification to existing 
law that will enable us to serve in an official capacity in meetings of 
the Permanent International Association of Navigation Congresses. As 
included in the testimony of Assistant Secretary of the Army (Civil 
Works) Jo-Ellen Darcy, the budget also discusses two other important 
legislative initiatives, concerning the way in which Federal navigation 
activities are funded.

            <GREEK-L>COE DEG.PLANNING PROGRAM MODERNIZATION

    COE will continue to implement actions to improve its Civil Works 
Planning Program performance through a planning modernization effort. 
This effort focuses on how best to organize, manage, operate, and 
oversee the planning program to more effectively address 21st century 
water resources challenges, including:
  --improved project delivery that yields smarter outcomes;
  --improved technical capability of our planners;
  --enhanced collaboration with Federal, State, local, and 
        nongovernmental partners;
  --evaluating and enhancing Corps Planning Centers of Expertise 
        production capability and staffing; and
  --strengthening the objectivity and accountability of our planning 
        efforts.
    Our improved planning performance will include:
  --updated planning guidance and policy;
  --streamlined, adaptable planning processes to improve effectiveness, 
        efficiency, accuracy, and responsiveness; and
  --enhanced technical capabilities.
    In fiscal year 2011, COE launched a 2-year National Planning Pilot 
Program to test the concepts of this approach within our current policy 
and to develop and refine methodologies and processes for planning 
studies across all business lines in a manner that is sustainable and 
replicable and that will inform future Civil Works guidance. We expect 
to conduct approximately 7 to 9 pilot studies over the course of the 
National Planning Pilot Program.

    <GREEK-L>COE DEG.EFFICIENCY AND EFFECTIVENESS OF COE OPERATIONS

    COE always strives to continually improve the efficiency and 
effectiveness of its investigations, construction, and operation and 
maintenance programs. In fiscal year 2012, COE will further expand the 
implementation of a modern asset management program; increase its focus 
on the most important maintenance work; implement an energy 
sustainability program; pursue major efficiencies in the acquisition 
and operations of its information technology assets; and complete the 
ongoing reorganization of its acquisition workforce.

                  <GREEK-L>COE DEG.EMERGENCY RESPONSE

    From across the Nation, the people who work for COE continue to 
respond whenever needed to the call to help during major floods and 
other national emergencies. The critical work they are doing reduces 
the risk of damage to people and communities. The budget provides $27 
million for preparedness for floods, hurricanes, and other natural 
disasters, including $4 million in support of the levee safety 
initiative for COE participation in the expansion of interagency teams 
known as Silver Jackets, to include every State, and provide unified 
Federal assistance in implementing flood and storm damage reduction 
solutions.

               <GREEK-L>COE DEG.RESEARCH AND DEVELOPMENT

    Civil Works Program research and development provides the Nation 
with innovative engineering products, some of which can have 
applications in both civil and military infrastructure spheres. By 
creating products that improve the efficiency and competitiveness of 
the Nation's engineering and construction industry and by providing 
more cost-effective ways to operate and maintain infrastructure, Civil 
Works program research and development contributes to the national 
economy.

                   <GREEK-L>COE DEG.NATIONAL DEFENSE

    Internationally, COE continues to support the mission to help Iraq 
and Afghanistan build foundations for democracy, freedom, and 
prosperity.
    We are proud to serve this great Nation and our fellow citizens, 
and we are proud of the work COE does to support America's foreign 
policy, particularly with our ongoing missions in Afghanistan and Iraq. 
Men and women from across the COE--all volunteers and many of whom have 
served on multiple deployments--continue to provide critical support to 
our military missions there and humanitarian support to the citizens of 
those nations. Currently, 1,168 COE employees (civilian and military) 
are deployed in Iraq and Afghanistan, where they have completed a total 
of more than 6,000 infrastructure and water resources projects.
    Ms. Darcy and I traveled to Afghanistan last month. As with every 
opportunity that I've had to travel to that theater, I continue to be 
amazed--but not surprised--by the progress being made. It was truly a 
privilege to visit with the outstanding COE men and women who are 
making this happen, and to see their dedication and commitment.
    In Afghanistan, the COE is spearheading a comprehensive 
infrastructure program for the Afghan national army, and is also aiding 
in critical public infrastructure projects.

                               CONCLUSION

    COE is committed to staying at the leading edge of service to the 
Nation. We are committed to change that ensures an open, transparent, 
and performance-based Civil Works Program.
    Thank you, Chairman Feinstein and members of the subcommittee. This 
concludes my statement.

    Senator Feinstein. Thank you very much, General.
    Secretary Castle, would you like to begin?

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

STATEMENT OF HON. ANNE CASTLE, ASSISTANT SECRETARY FOR WATER AND SCIENCE
ACCOMPANIED BY REED MURRAY, PROGRAM DIRECTOR, CENTRAL UTAH PROJECT 
            COMPLETION ACT OFFICE

    Ms. Castle. Yes. Thank you, Madam Chair, Senator Alexander, 
and members of the subcommittee. Thank you for inviting me here 
to discuss the President's 2012 budget request with you today. 
You have noted Commissioner Connor's presence. With me also is 
Reed Murray who is the Director of the Central Utah Project 
Completion Act (CUPCA) should you have any specific questions 
about that program.
    Interior's mission is essential to our American way of 
life. We protect our natural resources and our cultural 
heritage. We honor our Nation's trust responsibilities to 
American Indians and Alaska Natives. We supply water to lands 
and people throughout the West. We provide energy to power our 
future. Our Interior Department people and programs touch 
virtually every single American.
    The Interior 2012 budget funds our primary mission areas, 
and we have done that by eliminating and reducing lower-
priority programs, by streamlining and gaining efficiencies, 
and by deferring some projects.
    The 2012 combined budget request for BOR and the CUPCA 
program is $1.1 billion. As you said, Madam Chair, that is a 
$78.3 million reduction, 7 percent, from the 2010 enacted 
level.
    One of the highest priorities that we have in the 
Department of the Interior is to address water challenges by 
providing Federal leadership on the path to a sustainable water 
future. We are doing that through our WaterSMART initiative, 
and we are trying to address the 21st century pressures on our 
Nation's water supplies. The 2012 budget request by Interior 
for the WaterSMART initiative is $70 million. That is 
distributed between BOR and the U.S. Geological Survey (USGS).
    Of that request, $59 million is for BOR programs. That 
includes three ongoing BOR programs, the title 16 Water 
Recycling and Reuse Grant Program, the Basin Studies Program, 
and the WaterSMART cost share grant funding.
    Two additional programs are being added to the WaterSMART 
initiative this year. One already existed within BOR. That is 
the Water Conservation Field Services program. The other is the 
Cooperative Watershed Management program which is a new program 
authorized under the Secure Water Act, and we have seed money 
in the BOR budget for that in 2012.
    USGS has requested funding to undertake a multiyear 
nationwide water availability and use assessment that was also 
authorized by the Secure Water Act, and that is what its 
funding is in the WaterSMART program.
    I want to briefly highlight just a few of BOR's other 
significant efforts. BOR just released its hydropower resource 
assessment that takes a look at the potential to add hydropower 
capacity to existing BOR facilities. The next phase of that 
assessment will look at adding hydropower capacity to canals 
and conduits. So we are trying to assess the potential for 
additional renewable energy at existing facilities.
    We are currently in a dialogue with Mexico on the 
management of the Colorado River, and we have ongoing efforts 
to improve our water operations on the Colorado River--from 
looking at renewable energy projects in the headwaters all the 
way down to desalination efforts near the Mexican border.
    We are actively pursuing solutions to the ongoing water 
challenges in the California Bay-Delta. Our efforts there are 
focused on co-leading with the Council on Environmental Quality 
(CEQ) an interagency effort to implement the December 2009 
Interim Federal Action Plan.
    Our 2012 budget includes funding for the initial 
implementation of four Indian water rights settlements that 
were authorized in the Claims Resolution Act at the end of last 
year. And in addition to those four settlements, BOR's budget 
includes funding for the Navajo-Gallup Water Supply Project, an 
ongoing project.
    With respect to CUPCA, the 2012 budget request is for $33 
million. That includes $28.5 million to design, construct and 
provide land acquisition for the Utah lake system, which is the 
last remaining component of the Central Utah Project. That 
amount includes full funding for the construction of the Provo 
River Canal Enclosure Project, which will provide 8,000 acre-
feet of saved water to benefit endangered species and 30,000 
acre-feet, when completed, to municipalities in Salt Lake and 
Utah Counties in Utah.
    This budget was constructed, as has been said, in the 
context of very difficult economic times. We took a hard look 
at our existing programs. We made some very, very tough calls, 
and we made some reductions in order to shoulder our share of 
responsibility to reduce the deficit. We think we have done 
that in a way that adequately protects water and power 
deliveries, protects the ecosystems that are affected by those 
delivery systems so that we can ensure reliability of supplies 
in the future, and makes appropriate investments in our 
infrastructure.

                           PREPARED STATEMENT

    I look forward to your questions. I appreciate and thank 
you for your support, and this subcommittee's support of the 
missions within the Department of the Interior. I look forward 
to discussing this budget with you.
    [The statement follows:]

                   Prepared Statement of Anne Castle

    Madam Chair, Senator Alexander, and members of this subcommittee, I 
am pleased to appear before you today to discuss the President's fiscal 
year 2012 budget for the Department of the Interior. I would also like 
to thank the members of this subcommittee for your ongoing support for 
our initiatives over the last 2 years.
    The 2012 budget builds on that strong foundation with $12.2 billion 
requested for the Department of the Interior. The budget demonstrates 
that we can responsibly cut the deficit, while investing to win the 
future and sustain the national recovery. Our budget promotes the 
actions and programs that America told us are important in 50 listening 
sessions across the country. In response, we developed a new 21st 
century conservation vision--America's Great Outdoors. The budget 
continues to advance efforts that you have facilitated in renewable 
energy and sustainable water conservation, cooperative landscape 
conservation, youth in the outdoors, and reforms in our conventional 
energy programs.
    I will also discuss the President's fiscal year 2012 budget request 
for implementation of the Central Utah Project Completion Act, and I 
thank the subcommittee for your continued support of the Central Utah 
Project Completion Act Program as well.

                              INTRODUCTION

    Interior's mission--to protect America's natural resources and 
cultural heritage and honor the Nation's trust responsibilities to 
American Indians and Alaska Natives--is profound. Interior's people and 
programs impact all Americans.
    The Department is the steward of 20 percent of the Nation's lands 
including national parks, national wildlife refuges, and the public 
lands. Interior manages public lands and the Outer Continental Shelf, 
providing access for renewable and conventional energy development and 
overseeing the protection and restoration of surface-mined lands. 
Through the Bureau of Reclamation (BOR), Interior is the largest 
supplier and manager of water in the 17 Western States and provides 
hydropower resources used to power much of the country. The Department 
supports cutting edge research in the earth sciences--geology, 
hydrology, and biology--to inform resource management decisions at 
Interior and improve scientific understanding worldwide. The Department 
of the Interior also fulfills the Nation's unique trust 
responsibilities to American Indians and Alaska Natives, and provides 
financial and technical assistance for the insular areas.
    The Department of the Interior makes significant contributions to 
the Nation's economy. It supports more than 1.3 million jobs and more 
than $370 billion in economic activity each year. Parks, refuges, and 
monuments generate more than $24 billion in economic activity from 
recreation and tourism. Conventional and renewable energy produced on 
Interior lands and waters results in about $295 billion in economic 
benefits and the water managed by Interior supports more than $25 
billion in agriculture. The American outdoor industry estimates 6.5 
million jobs are created every year from outdoor activities.

                 <GREEK-L>BOR DEG.2010 ACCOMPLISHMENTS

    At the start of the administration, Interior set on a course to 
create a comprehensive strategy to advance a new energy frontier; 
tackle the impacts of a changing landscape; improve the sustainable use 
of water; engage youth in the outdoors; and improve the safety of 
Indian communities. These priority goals integrate the strengths of the 
Department's diverse bureaus and offices to address key challenges of 
importance to the American public. Interior has been making progress in 
these areas, including:
    Approving 12 renewable energy projects on public lands that when 
built, will produce almost 4,000 megawatts of energy, enough energy to 
power close to 1 million American homes, and create thousands of 
construction and operational jobs.
    Designating more than 5,000 miles of transmission corridors on 
public lands to facilitate siting and permitting of transmission lines 
and processing more than 30 applications for major transmission 
corridor rights-of-way.
    Establishing 3 of 8 planned regional Climate Science Centers and 9 
of 21 Landscape Conservation Cooperatives.
    Issuing grants to water districts and other water delivery 
authorities resulting in the conservation of 150,000 acre-feet of 
water.
    Increasing the number of youth employed in conservation through 
Interior or its partners by 45 percent more than 2009 levels.
    Reducing overall crime in four Indian communities as a result of a 
concerted effort to increase law enforcement officers, conduct training 
in community policing techniques, and engage the communities in law 
enforcement efforts.
    The Department advanced key priorities and strategic goals that 
will improve the conservation and management of natural and cultural 
resources into the future.
    Interior, along with the Department of Agriculture, the 
Environmental Protection Agency, and the Council on Environmental 
Quality, participated in the White House Conference on America's Great 
Outdoors and held 50 public listening sessions across the Country that 
have helped shape a conservation vision and strategy for the 21st 
century. We have released a report, America's Great Outdoors: A Promise 
to Future Generations that lays out a partnership agenda for 21st 
century conservation and recreation.
    In the spirit of America's Great Outdoors, we welcomed new national 
wildlife refuges in Kansas and Colorado and proposed a new conservation 
area in Florida at the headwaters to the Everglades. These refuges mark 
a new era of conservation for the Department, one that is community-
driven, science-based, and takes into account entire ecosystems and 
working landscapes.
    The Department worked with others to develop an action plan to help 
address water supply and environmental challenges in the California 
Bay-Delta area, invested more than $500 million in major water projects 
over the past 2 years, and moved forward on long-standing water 
availability issues in the Colorado River Basin.
    In December, the Secretary issued a recommendation to the Congress 
to undertake an additional 5.5 miles of bridging on the Tamiami Trail 
in the Everglades above and beyond the 1-mile bridge now under 
construction. When combined with other planned work in the Everglades 
Agricultural Area and water conservation areas, this project should 
restore 100 percent of historic water quantity and flow to Everglades 
National Park.
    With the help of the Congress, we brought about resolution of the 
Cobell v. Salazar settlement and resolved four Indian water rights 
issues through enactment of the Claims Resolution Act of 2010. We also 
completed negotiation of a new Compact of Free Association with the 
island of Palau which awaits congressional approval.
    In December of last year, the President hosted the second White 
House Tribal Nations Conference bringing together tribal leaders from 
across the United States; we are improving the Nation-to-nation 
relationship with 565 tribes.

                 <GREEK-L>BOR DEG.FISCAL RESPONSIBILITY

    Interior's 2012 budget must be viewed in the context of the 
difficult fiscal times facing the Nation and the President's freeze on 
discretionary funding. The 2012 budget reflects many difficult budget 
choices, cutting worthy programs and advancing efforts to shrink 
Federal spending. The budget contains reductions totaling $1.1 billion 
or 8.9 percent of the 2010 enacted level. Staffing reductions are 
anticipated in some program areas, which will be achieved through 
attrition, outplacement, and buy-outs to minimize the need to conduct 
reductions in force to the greatest extent possible. These reductions 
are a necessary component of maintaining overall fiscal restraint while 
allowing us to invest additional resources in core agency priorities.
    This budget is responsible. Interior's $12.2 billion budget funds 
important investments by eliminating and reducing lower-priority 
programs, deferring projects, reducing redundancy, streamlining 
management, and capturing administrative and efficiency savings. It 
maintains funding levels for core functions that are vital to uphold 
stewardship responsibilities and sustain key initiatives. The 2012 
request includes $11.2 billion for programs funded by the Interior, 
environment, and related agencies appropriation. The 2012 request for 
BOR and the Central Utah Project Completion Act, funded in the Energy 
and Water Development Appropriations Act, is $1.1 billion in current 
appropriations, $78.3 million or 7 percent below the 2010 enacted 
level.

                <GREEK-L>BOR DEG.INVESTING IN THE FUTURE

    America's Great Outdoors.--Last year, the administration initiated 
a national dialogue at the White House Conference on America's Great 
Outdoors. In 50 listening sessions held across the Country, the public 
communicated their conservation and recreation priorities, and the 
result is a report to the President, ``America's Great Outdoors: A 
Promise to Future Generations''. The report outlines how the Federal 
Government can support a renewed and refreshed conservation vision by 
working in collaboration with communities, farmers and ranchers, 
businesses, conservationists, youth, and others who are working to 
protect the places that matter to them and by engaging people across 
the country in conservation and recreation.
    The 2012 America's Great Outdoors initiative focuses on investments 
that will lead to healthy lands, waters and resources while stimulating 
the economy--goals that are complementary. Through strategic 
partnerships, Interior will support and protect historic uses of lands, 
restore lands and resources, protect and interpret historic and 
cultural resources, and expand outdoor recreation opportunities. All of 
these activities have significant economic benefits in rural and urban 
communities.
    Youth.--Furthering the youth and conservation goals of the 
America's Great Outdoors initiative, the 2012 budget proposes to 
continue engaging youth by employing and educating young people from 
all backgrounds.
    Interior is uniquely qualified to engage and educate young people 
in the outdoors and has programs that establish connections for youth 
ages 18 to 25 with natural and cultural resource conservation. These 
programs help address unemployment in young adults and address health 
issues by encouraging exercise and outdoor activities. For example, 
Interior is taking part in the First Lady's Let's Move initiative to 
combat the problem of childhood obesity. Interior has long-standing 
partnerships with organizations such as the 4-H, the Boy Scouts, the 
Girl Scouts, the Youth Conservation Corps, and the Student Conservation 
Association. These programs leverage Federal investments to put young 
people to work and build a conservation ethic.
    Cooperative Landscape Conservation.--Interior's 2012 budget 
realigns programs and funding to better equip land and resource 
managers with the tools they need to effectively conserve resources in 
a rapidly changing environment. Significant changes in water 
availability, longer and more intense fire seasons, invasive species 
and disease outbreaks are creating challenges for resource managers and 
impacting the sustainability of resources on public lands. These 
changes result in bark beetle infestations, deteriorated range 
conditions, and water shortages that negatively impact grazing, 
forestry, farming, as well as the status of wildlife and the condition 
of their habitats. Many of these problems are caused by or exacerbated 
by climate change.
    Interior's 2012 budget includes $175.0 million for cooperative 
landscape conservation, an increase of $43.8 million. The budget funds 
the completion of the Climate Science Centers and Landscape 
Conservation Cooperatives, the organizing framework for the 
Department's efforts to work collaboratively with others to understand 
and manage these changes. These efforts will allow the Department to 
meet its priority goal to identify resources vulnerable to climate 
change and implement coordinated adaptation response actions for 50 
percent of the Nation by the end of 2012.
    Water Challenges.--Interior is working to address the 21st century 
pressures on the Nation's water supplies. Population growth, aging 
water infrastructure, changing climate, rising energy demands, impaired 
water quality and environmental needs are among the challenges. Water 
shortage and water use conflicts have become more commonplace in many 
areas of the United States, even in normal water years. As competition 
for water resources grows, the need for information and tools to aid 
water resource managers also grows. Water issues and challenges are 
increasing across the Nation, but particularly in the West and 
Southeast due to more prolonged droughts than we have experienced 
historically. Traditional water management approaches no longer meet 
today's needs.
    BOR proposes to fund the rebased WaterSMART at $58.9 million, $11 
million below 2011 levels. The three ongoing WaterSMART programs 
include:
  --the WaterSMART Grant program funded at $18.5 million;
  --Basin Studies funded at $6 million; and
  --the title XVI Water Reclamation and Reuse program funded at $29 
        million.
    The rebasing adds the existing Water Conservation Field Services 
program, funded at $5.1 million, and participation by BOR in the 
Cooperative Watershed Management program, funded at $250,000. 
WaterSMART is a joint effort with USGS. USGS will use $10.9 million, an 
increase of $9 million, for a multi-year, nationwide water availability 
and use assessment program.
    Other significant programs and highlights specific to BORinclude:
    In 2010, the Secretary issued a Secretarial Order establishing the 
WaterSMART program which embodies a new water sustainability strategy. 
WaterSMART coordinates Interior's water sustainability efforts, creates 
a clearinghouse for water conservation best practices and implements a 
department-wide water footprint reduction program to reduce consumption 
of potable water by 26 percent by 2020.
    We are in dialogue with Mexico on the management of the Colorado 
River. We have ongoing efforts to improve our management of resources 
on the Colorado River, from renewable hydropower development near the 
headwaters to a pilot program of desalination near the Mexican border.
    We are actively pursuing workable solutions to regional issues such 
as in the California Bay-Delta. The Bay-Delta is a source of drinking 
water for 25 million Californians and sustains about $400 billion in 
annual economic activity, including a $28 billion agricultural industry 
and up until recently supported a thriving commercial and recreational 
fishing industry. Our efforts in the Bay-Delta are focused on co-
leading an inter-agency effort with the Council on Environmental 
Quality (CEQ) to implement the December 2009 Interim Federal Action 
Plan for the California Bay-Delta Conservation Plan. In coordination 
with five other Federal agencies, we are leveraging our activities to 
address California water issues, promote water efficiency and 
conservation, expand voluntary water transfers in the Central Valley, 
fund drought relief projects, and make investments in water 
infrastructure. Over the past 2 years, we have invested more than $500 
million in water projects in California. We have also, in close 
coordination with NOAA and the State of California, worked on the 
California Bay-Delta Conservation Plan, a long-term plan aimed at 
restoring both reliable water supplies and a healthy Bay-Delta 
ecosystem.
    On March 22 we announced an update to the Water Supply Allocation 
for Central Valley Project (CVP) water users for 2011. This updated 
allocation reflects improved precipitation and snowpack in the Sierra 
Nevada Mountains in the last month. We are pleased to report that the 
current allocation for most CVP contractors is 100 percent of their 
contract supply. Agricultural water service contractors South-of-Delta 
allocations have been increased from 50 percent to 65 percent and 
municipal and industrial contracts from 75 percent to 90 percent. These 
allocations represent good news given recent years, but many challenges 
remain. We will continue to work with our Federal, State, and local 
partners to improve water supply reliability while addressing 
significant ecological issues. BOR is continuing to update the forecast 
to provide the most current information to its stakeholders.

                      <GREEK-L>BOR DEG.HYDROPOWER

    Hydropower is a very clean and efficient way to produce energy and 
is a renewable resource. Each kilowatt-hour of hydroelectricity is 
produced at an efficiency of more than twice that of any other energy 
source. Further, hydropower is very flexible and reliable when compared 
to other forms of generation. BOR has nearly 500 dams and 10,000 miles 
of canals and owns 58 hydropower plants, 53 of which are operated and 
maintained by BOR. On an annual basis, these plants produce an average 
of 40 million megawatt (MW) hours of electricity, enough to meet the 
entire electricity needs of more than 9 million people on average.
    BOR and the Federal Energy Regulatory Commission (FERC) have an 
existing MOU, signed in 1992, that addresses the establishment of 
processes for early resolution of issues related to the timely 
development of non-Federal hydroelectric power at BOR facilities. BOR 
and FERC recently met to discuss how to improve the timeliness of the 
processes developed in that MOU and resolution of authority issues.
    BOR is assessing the potential for developing low-head 
hydroelectric generating capacity on federally owned canals and 
conduits.
    Overall, the Department shares the subcommittee's view that 
interagency coordination can leverage Federal and private sector 
investment in additional hydropower development. This consideration was 
foremost in the Department's signing a Memorandum of Understanding with 
the Department of Energy and COE on March 24, 2010 to increase 
communication between Federal agencies and strengthen the long-term 
relationship among them to prioritize the generation and development of 
sustainable hydropower. This administration is committed to increasing 
the generation of environmentally sustainable, affordable hydropower 
for our national electricity supplies in as efficient a manner as 
possible.
    Indian Land and Water Settlements.--Interior's 2012 budget includes 
$84.3 million in BOR and Bureau of Indian Affairs (BIA) to implement 
land and water settlements.
    BOR's budget includes $51.5 million for the initial implementation 
of four settlements authorized in the Claims Resolution Act of 2010. 
The legislation included water settlements for the Taos Pueblo of New 
Mexico and Pueblos of New Mexico named in the Aamodt case, the Crow 
Tribe of Montana, and the White Mountain Apache Tribe of Arizona. BOR's 
contribution to the Navajo-San Juan settlement is also included in the 
account.
    The Claims Resolution Act of 2010 establishes trust funds for 
tribes to manage water systems and settlement funds to develop 
infrastructure. The primary responsibility for constructing these water 
systems was given to BOR, while BIA is responsible for the majority of 
the trust funds, which includes $207.2 million in mandatory funding in 
2011.
    These settlements will deliver clean water to the Taos Pueblo and 
the Pueblos of Nambe, Pojoaque, San Ildefonso, and Tesuque in New 
Mexico, the Crow Tribe of Montana, and the White Mountain Apache Tribe 
of Arizona. In addition to funding for the initial implementation of 
these four settlements, BOR's budget includes $24.8 million for the 
Navajo-Gallup Water Supply project. In the 2012 budget, BORis 
establishing an Indian Water Rights Settlements account to assure 
continuity in the construction of the authorized projects and to 
highlight and enhance transparency. Both BOR and BIA are working 
cooperatively to implement the settlements.

      <GREEK-L>BOR DEG.CENTRAL UTAH PROJECT COMPLETION ACT (CUPCA)

    I am pleased to provide the following information about the 
President's fiscal year 2012 budget request for implementation of 
CUPCA.
    CUPCA, titles II-VI of Public Law 102-575, provides for completion 
of the Central Utah Project (CUP) by the Central Utah Water Conservancy 
District. The act also authorizes funding for fish, wildlife, and 
recreation mitigation and conservation; establishes an account in the 
Treasury for deposit of these funds and other contributions; 
establishes the Utah Reclamation Mitigation and Conservation Commission 
to coordinate mitigation and conservation activities; and provides for 
the Ute Indian Rights Settlement.
    The 2012 request for the Central Utah Project Completion Account 
provides $33 million for use by the District, the Mitigation 
Commission, and the Department to implement titles II-IV of the act, 
which is $9 million less than the 2010 enacted level. The decrease in 
funding for the 2012 budget is due in part to accelerated funding 
provided in 2009 through the American Recovery and Reinvestment Act and 
in part to the administration's effort to reduce the deficit.
    The request for the District includes $28.5 million to fund the 
designs, specifications, land acquisition, and construction of the Utah 
Lake System ($18.5 million). This includes full funding ($10 million) 
for construction of the Provo River Canal Enclosure Project, which when 
completed will provide 8,000 acre-feet of conserved water for 
endangered fish and convey 30,000 acre-feet of CUP water.
    The request includes $2 million for the Mitigation Commission to 
implement the fish, wildlife, and recreation mitigation and 
conservation projects authorized in title III ($1.8 million) and to 
complete mitigation measures committed to in pre-1992 BOR planning 
documents ($200,000), all of which are necessary to allow CUP 
operations.
    Finally, the request includes $2.5 million for the program office 
for endangered species recovery and operation and maintenance costs 
associated with instream flows and fish hatchery facilities ($954,000) 
and for program administration ($1.6 million).

                               CONCLUSION

    Thank you for the opportunity to testify on behalf of the 
President's fiscal year 2012 budget request for the Department of the 
Interior. I want to reiterate my appreciation for the long-standing 
support of this subcommittee. This budget has fiscal discipline and 
restraint, but it also includes forward looking investments. We have a 
tremendous opportunity to improve the future for all generations with 
wise investments in healthy lands, clean waters and expanded energy 
options.
    I look forward to working with you to implement this budget. This 
concludes my overview of the fiscal year 2012 budget request for the 
Department of the Interior. I am happy to answer any questions that you 
may have.

    Senator Feinstein. Thank you very, very much.
    General, I would like to begin with the Harbor Maintenance 
Trust Fund if I might. It is my understanding that this fund 
has a significant surplus and that the budget request states 
that the administration will be making a proposal concerning 
the fund. As I understand it, this proposal will allow other 
agencies that are conducting port-related activities to charge 
those activities to the trust fund. Is that correct? Could you 
explain this proposal?
    General Van Antwerp. Senator, I will take a stab at that 
and then turn to my policy partner here to address the other 
part.
    First of all, you are absolutely correct that there is a 
large amount in the fund, probably estimated at around $6 
billion.
    Senator Feinstein. Excuse me.
    General Van Antwerp. Yes, ma'am.
    Senator Feinstein. I left out Commissioner Connor, and it 
was truly an oversight. Why do you not finish with that, if it 
is agreeable? Then, Commissioner Connor, I really apologize.
    General Van Antwerp. We were smiling at each other. I 
thought you let him off the hook. We want to hear from him. I 
will just conclude this one part about the Harbor Maintenance 
Trust Fund.
    Generally in a given year, we get about $1.4 billion in 
receipts, and we have budgeted this year along the lines of 
$750 million from the trust fund.
    And I will let Ms. Darcy take the policy part of this, if 
that is okay.
    Senator Feinstein. Okay, fine.
    Ms. Darcy. Would you like me to finish now, Senator?
    Senator Feinstein. Well, where I am going is whether or not 
this rapidly depletes the trust fund.
    Ms. Darcy. Well, the trust fund, as the General said, gets 
about $1.4 billion annually; those funds currently are in the 
Treasury even though all of the funds that come in must be 
appropriated. And for COE, we get about $783 million 
appropriated from that annual revenue stream in our annual 
appropriations. So the balance is in the Treasury and the rest 
of its use is determined by the administration and by the 
Congress.
    Senator Feinstein. It is my understanding that the budget 
proposal does not provide for full authorized widths and depths 
to be maintained at any harbor handled by COE. Maybe you would 
like to come back to this, but my concern is that you will eat 
up the trust fund with other activities. The dredging gets done 
partially and we have some real impediment to trade and 
commerce in our country. So we will come back to that.
    Commissioner Connor.

STATEMENT OF HON. MICHAEL L. CONNOR, COMMISSIONER
    Mr. Connor. Thank you, Madam Chair. I took no offense. If I 
have learned nothing else in this job, it is sometimes the less 
said the better.
    So I thank you for your kind words and I thank you and the 
members of the subcommittee for your support of BOR, and I 
appreciate the opportunity to discuss the President's 2012 
request.
    Overall, BOR's budget reflects a comprehensive set of 
actions and initiatives that support BOR's mission. The budget 
continues to emphasize working smarter to address the water 
needs of a growing population. Certainty and sustainability are 
primary goals with respect to the use of water resources that 
require BOR to take action on many fronts, and our budget 
proposal was developed with that principle in mind.
    I should note that our efforts to work smarter include an 
array of partnerships with COE, from the Joint Dam Safety and 
Flood Protection Project at Folsom Dam to our sustainable 
hydropower initiative. In these tight budget times, combining 
our resources with those of COE will help bring value to the 
American taxpayer.
    The fiscal year 2012 budget request for BOR focuses on six 
priorities which I want to touch briefly on in my remaining 
time, and I will avoid those areas already discussed.
    Number 1, infrastructure. Overall, our budget continues to 
support the need to maintain infrastructure in a safe operating 
condition while addressing the myriad of challenges facing 
water users in the West. Approximately 51 percent of our water 
and related resources budget, or $407 million, is dedicated to 
operation, maintenance, and rehabilitation activity. These 
activities include the dam safety program, site security 
program, and RAX, which is shorthand for replacements, 
additions, and extraordinary maintenance.
    As already noted, a second priority is the WaterSMART 
program. A specific aspect that I want to highlight is that we 
have established a priority goal for approving and funding 
actions to increase the available water supply for 
agricultural, municipal, industrial, and environmental uses in 
the Western United States by 490,000 acre-feet by the end of 
2012. WaterSMART concentrates on expanding and stretching 
limited water supplies in the West to reduce conflict, 
facilitate solutions to complex water issues, and meet the 
needs of expanding municipalities, the environment, and 
agriculture. Conservation and efficient management are central 
to the creative solutions needed in the arid West.
    Ecosystem restoration is the third priority area. In order 
to meet BOR's mission goals of sustainably producing power and 
delivering water, we must continue to focus on the protection 
and restoration of the aquatic and riparian ecosystems affected 
by our operations. Ecosystem restoration involves a large 
number of activities, including our Endangered Species Recovery 
programs.
    Twenty to 25 percent of BOR's 2012 budget is allocated to 
activities in support of ecosystem restoration. This amount 
includes the request for operating, managing, and improving 
California's Central Valley Project, or CVP. CVP-related 
funding will support completion of the Red Bluff pumping plant 
and fish screen project on the Sacramento River, the Trinity 
River, and the San Joaquin River restoration programs, and 
other actions to protect and enhance California's Bay-Delta 
region.
    Our budget request also supports ongoing implementation of 
the Lower Colorado River Multi-species Program, the Platte 
River Endangered Species Recovery Program, the Upper Colorado 
and San Juan River Endangered Fish Programs.
    In addition, funding requested for the Columbia and Snake 
River Salmon Recovery Program will implement required 
biological opinion actions associated with the Federal Columbia 
River power system.
    Finally, funding is also sought for the Klamath, Middle Rio 
Grande, and Yakima projects to support extensive initiatives to 
address the competing demands in those basins.
    Cooperative landscape conservation and renewable energy 
production, a fourth area of focus, are departmental 
initiatives in which BORis actively engaged. As a threshold 
matter, we are developing and implementing approaches to 
understand and effectively adapt to the risks and impacts of 
climate change on western water. As you know, Madam Chair, 
better than anybody, the future protections of decreasing flows 
in the Colorado River and reduced snowpack in the Sierra Nevada 
Mountains have already caused Californians to actively begin 
implementing local and regional solutions to the threats to 
their water supplies and the environment. Other areas of the 
country are starting to follow suit.
    Through our Basin Studies program and implementation of the 
Secure Water Act, BOR is aggressively trying to assist in 
acquiring the data and improving the science related to future 
projections of water supplies so that effective adaptation 
strategies can be developed and implemented. In 2012, the Basin 
Studies program will continue west-wide risk assessments 
focusing on the threats to water supplies from climate change 
and other sources and will coordinate responsive actions with 
the Department's Landscape Conservation Cooperatives.
    BOR's science and technology program will also continue 
research that targets improved capability for managing water 
resources in the face of climate change, invasive species 
issues, as well as integrating renewable energy and energy-
efficiency activities into our water operations.
    A fifth initiative is very important to the administration 
and that is our longstanding commitment to the Secretary's goal 
to strengthen tribal nations. Assistant Secretary Castle has 
already mentioned our support for the Indian water rights 
programs. BOR is going to begin a number of implementation 
activities this year in support of the recently enacted four 
settlements, as well as continuing activities with respect to 
other Indian water rights settlements.
    I should note that we have requested $36 million for rural 
water projects which also support a number of tribal nations.

                           PREPARED STATEMENT

    Madam Chair, in conclusion, we appreciate again your 
support for BOR and the support of the subcommittee, and I will 
answer questions at the appropriate time.
    [The statement follows:]

                Prepared Statement of Michael L. Connor

    Thank you Madam Chair, Senator Alexander, and members of this 
subcommittee for the opportunity to discuss with you the President's 
fiscal year 2012 budget request for the Bureau of Reclamation (BOR). 
With me today is Bob Wolf, Director of Program and Budget.
    I appreciate the time and consideration this subcommittee gives to 
reviewing and understanding BOR's budget and its support for the 
program. BOR works hard to prioritize and define our program in a 
manner that serves the best interest of the public.
    Our fiscal year 2012 request continues support for activities that, 
both now and in the future, will deliver water and generate hydropower, 
consistent with applicable State and Federal law, in an environmentally 
responsible and cost-effective manner. Overall, our goal is to promote 
certainty, sustainability, and resiliency for those who use and rely on 
water resources in the West. Success in this approach will help ensure 
that BOR is doing its part to support the basic needs of communities, 
as well as providing for economic growth in the agricultural, 
industrial, and recreational sectors of the economy. In keeping with 
the President's pledge to freeze spending and focus on deficit 
reduction, this budget reflects reductions and savings where possible. 
Although the 2012 budget request allows BOR to fulfill its core 
mission, essential functions have been trimmed and economized wherever 
possible.
    The budget continues to emphasize working smarter to address the 
water needs of a growing population and assisting States, tribes, and 
local entities in solving contemporary water resource challenges. It 
also emphasizes the operation and maintenance of BOR facilities in a 
safe, efficient, economic, and reliable manner; assuring systems and 
safety measures are in place to protect the public and BOR facilities. 
Funding for each program area down to the individual projects within 
BOR's request is based upon adherence to administration, departmental, 
and BOR priorities. BOR is responsible for the oversight, operation, 
and maintenance of major Federal infrastructure that is valued at $87.7 
billion in current dollars. Key areas of focus for fiscal year 2012 
include Water Conservation, Landscape Conservation Cooperatives and 
Renewable Energy, Ecosystem Restoration, Youth Employment, supporting 
tribal nations and maintaining infrastructure. Recognizing the budget 
challenges facing the Federal Government as a whole, BOR will continue 
its efforts to partner with other Federal agencies such as the U.S. 
Army Corps of Engineers (COE), Department of Energy (DOE), and the 
Natural Resources Conservation Service, to maximize the efficiency by 
which we implement our programs.
    BOR's 2012 budget request is $1 billion, which includes $53.1 
million for the Central Valley Project Restoration Fund (CVPRF). This 
request is offset by discretionary receipts in the CVPRF, estimated to 
be $52.8 million. The request for permanent appropriations in 2012 
totals $194.5 million. Overall, BOR's 2012 budget is a responsible one 
and consistent with the administration's goal of fiscal sustainability. 
BOR will still be making strategic investments that provide a strong 
foundation to meet water resources challenges across the West.

              <GREEK-L>BOR DEG.WATER AND RELATED RESOURCES

    The 2012 budget request for Water and Related Resources, BOR's 
principal operating account, is $805.2 million, a decrease of $108.4 
million from the 2011 request.
    The request includes a total of $398.5 million for water and 
energy, land, and fish and wildlife resource management and development 
activities. Funding in these activities provides for planning, 
construction, water conservation activities, management of BOR lands 
including recreation, and actions to address the impacts of BOR 
projects on fish and wildlife.
    The request also provides a total of $406.7 million for water and 
power facility operations, maintenance, and rehabilitation activities. 
BOR emphasizes safe, efficient, economic and reliable operation of 
facilities, ensuring systems and safety measures are in place to 
protect the facilities and the public. Providing the funding needed to 
achieve these objectives continues to be one of BOR's highest 
priorities.

 <GREEK-L>BOR DEG.HIGHLIGHTS OF THE FISCAL YEAR 2012 REQUEST FOR WATER 
                         AND RELATED RESOURCES

    I would like to share with the subcommittee several highlights of 
the BOR budget including an update on the WaterSMART (Sustain and 
Manage America's Resources for Tomorrow) Program and Interior's 
establishment of a Priority Goal target to enable capability to 
increase available water supply for agricultural, municipal, 
industrial, and environmental uses in the Western United States by 
490,000 acre-feet by the end of 2012.
    WaterSMART Program.--The request focuses resources on the 
Department of the Interior's WaterSMART program. The program 
concentrates on expanding and stretching limited water supplies in the 
West to reduce conflict, facilitate solutions to complex water issues, 
and to meet the growing needs of expanding municipalities, the 
environment, and agriculture.
    BOR proposes to fund the rebased WaterSMART program at $58.9 
million, $11 million below 2011 levels. The three ongoing WaterSMART 
programs include:
  --the WaterSMART Grant program funded at $18.5 million;
  --Basin Studies funded at $6 million; and
  --the title XVI Water Reclamation and Reuse program funded at $29 
        million.
    The rebased program adds the existing Water Conservation Field 
Services program, funded at $5.1 million, and participation by BOR in 
the Cooperative Watershed Management program, funded at $250,000. This 
is a joint effort with the USGS.
    Other significant programs and highlights include:
      Ecosystem Restoration.--In order to meet BOR's mission goals of 
        securing America's energy resources and managing water in a 
        sustainable manner for the 21st century, a part of its programs 
        must focus on the protection and restoration of the aquatic and 
        riparian environments affected by its operations. Ecosystem 
        restoration involves a large number of activities, including 
        BOR's Endangered Species Act recovery programs, which are 
        required in order to continue project operations and directly 
        address the environmental aspects of the BOR mission.
    The 2012 request provides $154.6 million for operating, managing 
and improving California's Central Valley Project (CVP). This amount 
supports Ecosystem Restoration including $34.8 million for the Red 
Bluff Pumping Plant and Fish Screen within the CVP, Sacramento River 
Division, which will be constructed to facilitate passage for 
threatened fish species, as well as providing water deliveries. The 
funding for the CVP also includes $10.5 million for the Trinity River 
Restoration program and $3 million from the CVP Restoration Fund which 
includes development of a comprehensive monitoring and adaptive 
management program for fishery restoration and construction of channel 
rehabilitation projects at various sites along the Trinity River.
    The request includes $26 million for Lower Colorado River 
Operations to fulfill the role of the Secretary as water master for the 
Lower Colorado River and implementation of the Lower Colorado River 
Multi-Species Conservation (MSCP) program which provides long-term 
Endangered Species Act compliance for the operations. Of this amount, 
$18.3 million for the MSCP program will provide quality habitat to 
conserve populations of 26 species.
    The budget requests $20 million for other Endangered Species Act 
Recovery Implementation programs, including $11 million in the Great 
Plains Region to implement the Platte River Endangered Species Recovery 
Implementation program. It also includes $6.2 million for the Upper 
Colorado and San Juan River Endangered Fish Recovery programs. This 
funding will continue construction of a system that automates canal 
operations to conserve water by matching river diversions with actual 
consumptive use demands and redirecting the conserved water to improve 
instream flows. Additionally, the Columbia/Snake River Salmon Recovery 
program funding of $17.8 million will be used for implementation of 
required Biological Opinion actions including extensive hydro actions, 
plus tributary habitat and hatchery initiatives.
    The 2012 budget includes $18.6 million for the Klamath project, 
which supports studies and initiatives to improve water supplies to 
meet the competing demands of agricultural, tribal, wildlife refuge, 
and environmental needs in the Klamath River Basin.
    No funding is requested for the Klamath Dam Removal and 
Sedimentation Studies. These studies are being completed with funds 
previously appropriated and will be used to inform a Secretarial 
Determination in 2012 as to whether removing PacifiCorp's four dams on 
the Lower Klamath River is in the public interest and advances 
restoration of the Klamath River fisheries. The studies and Secretarial 
Determination are being carried out pursuant to an agreement with 
PacifiCorp and the States of California and Oregon.
    The 2012 budget includes $23.6 million for the Middle Rio Grande 
project. Funds support the acquisition of supplemental non-Federal 
water for Endangered Species Act efforts and low flow conveyance 
channel pumping into the Rio Grande during the irrigation season. 
Further, funding is used for recurring life cycle river maintenance 
necessary to ensure uninterrupted, efficient water delivery to Elephant 
Butte Reservoir, reduced risk of flooding, as well as delivery 
obligations to Mexico.
    The Yakima River Basin Water Enhancement Project request is $8.9 
million, which will continue funding grants to the Benton and Roza 
Irrigation Districts and Sunnyside Division Board of Control, to 
implement conservation measures and monitor the effects of those 
measures on the river diversions.
    Cooperative Landscape Conservation and Renewable Energy.--BOR is 
actively engaged in developing and implementing approaches to 
understand, and effectively adapt to, the risks and impacts of climate 
change on western water management. The Basin Studies Program is part 
of Interior's integrated strategy to respond to climate change impacts 
on the resources managed by the Department, and is a key component of 
the WaterSMART Program. In 2012, the Basin Studies Program will 
continue West-wide risk assessments focusing on the threats to water 
supplies from climate change and other factors and will be coordinated 
through the Department's Landscape Conservation Cooperatives (LCCs). 
BOR will take the lead responsibility for establishing and coordinating 
work at the Desert and Southern Rockies LCCs. Included within BOR's 
Science and Technology program is water resources research targeting 
improved capability for managing water resources under multiple drivers 
affecting water availability, including climate change. This research 
agenda will be collaborated and leveraged with capabilities of the 
Interior Climate Science Centers.
    BOR is also working in partnership with DOE and COE in identifying 
opportunities to address the President's clean-energy goals through the 
development of new sustainable hydropower capacity as well as 
integrating renewable energy in our operations. The partnership with 
DOE and its Power Marketing Administrations will also assess climate 
change impacts on hydropower generation.
    Supporting Tribal Nations.--BOR has a long-standing commitment to 
realizing the Secretary's goal to strengthen tribal nations. Fiscal 
year 2012 continues support through a number of BOR projects ranging 
from endangered species restoration to rural water and implementation 
of water rights settlement actions.
    The request includes $12.8 million for the Animas-La Plata project 
to continue constructing components of the Navajo Nation Municipal 
Pipeline and filling Lake Nighthorse as the project nears completion.
    The 2012 BOR budget requests $35.5 million for on-going authorized 
rural water projects. The projects that benefit tribal nations include 
Mni Wiconi, the rural water component of the Garrison Diversion Unit, 
Fort Peck Reservation/Dry Prairie, Jicarilla Apache Reservation, and 
Rocky Boys/North Central Montana. One other rural water project that 
does not directly affect tribes is the Lewis and Clark Project. Funding 
for the Perkins County Project is complete. The first priority for 
funding rural water projects is the required O&M component, which is 
$15.3 million for fiscal year 2012. For the construction component, BOR 
allocated funding based on objective criteria that gave priority to 
projects nearest to completion and projects that serve on-reservation 
needs.
    The request includes $7 million for the Native American Affairs 
program to provide technical support for Indian water rights 
settlements and to assist tribal governments to develop, manage and 
protect their water and related resources. The Columbia/Snake River 
Salmon Recovery, Klamath, Central Valley Project Trinity River 
Restoration, Yakima and Yakima River Basin Water Enhancement Projects 
mentioned above under Ecosystem Restoration benefit tribal nations. 
Also, the newly established Indian Water Rights Settlement Account 
discussed below supports tribal nations.
    Youth Employment.--To meet the Secretary's challenge to achieve the 
Priority Goal for youth employment, BOR is working hard to engage, 
educate, and employ our Nation's youth in order to help develop the 
future stewards of our lands. Secretary Salazar challenged the Interior 
Bureaus to increase employment of youth between the ages of 15 and 25 
in natural and cultural resource positions. Last year, BOR began 
working with youth conservation corps to hire youth and expose them to 
the great work that it does. We continue to use all hiring authorities 
available to bring young people in through internships, crew work, and 
full time positions.
    Aging Infrastructure.--Through BOR's continued emphasis on 
preventive maintenance and regular condition assessments (field 
inspections and reviews), the service life of many BOR assets and 
facilities have been extended, thereby delaying the need for 
significant replacements and rehabilitation efforts, including the 
related funding needs. Although BOR and its project beneficiaries have 
benefited greatly from this preventive maintenance, we recognize that 
as assets and facilities age, they require an increased amount of 
maintenance. Sometimes this requires more frequent preventive 
maintenance, and, in other situations, significant extraordinary 
maintenance, rehabilitations, or replacements may be required.
    It is important to note that much of the Operation and Maintenance 
(O&M) funding responsibilities of BOR's assets lies with our project 
beneficiaries and those operating entities that operate and maintain 
federally owned transferred works. For some operating entities and 
project beneficiaries, rehabilitation and replacement needs may exceed 
available resources. In particular, many smaller irrigation or water 
conservancy districts are unable to fund these needs in the year 
incurred absent long-term financing assistance. To address this issue, 
the administration is currently exploring strategies for helping these 
entities to rehabilitate these facilities. We are also exploring 
potential utilization of the authority provided under Public Law 111-11 
that would allow extended repayment of extraordinary (nonroutine) 
maintenance costs on project facilities. Water users are currently 
required by Federal reclamation law to pay these costs, which are often 
substantial, in advance.
    BOR's fiscal year 2012 proposed budget is $40.8 million in 
appropriations for various projects for Replacements, Additions, and 
Extraordinary Maintenance (RAX) activities where BOR is directly 
responsible for daily O&M. This request is central to mission 
objectives of operating and maintaining projects to ensure delivery of 
water and power benefits. BOR's RAX request is part of its overall 
Asset Management Strategy that relies on condition assessments, 
condition/performance metrics, technological research and deployment, 
and strategic collaboration to continue to improve the management of 
its assets and deal with its aging infrastructure challenges. This 
amount represents only the fiscal year 2012 request for discretionary 
appropriations. Additional RAX items are directly funded by revenues, 
customers, or other Federal agencies.
    The Bonneville Power Administration will continue to provide up-
front financing of power operation and maintenance and for major 
replacements and additions for the power plants at the Boise, Columbia 
Basin, Hungry Horse, Minidoka, Rogue River, and Yakima projects. In the 
Great Plains (GP) Region, BOR, Western Area Power Administration, and 
COE have entered into an agreement which enables the customers to 
voluntarily direct fund power RAX items. A long-term funding agreement 
with the customers for the Parker-Davis Project on the Colorado River 
was executed in fiscal year 1999. Fiscal year 2012 costs of operation, 
maintenance and replacement for this project will be 100 percent up-
front funded by the customers. To date, the Central Valley Project 
power O&M program is funded 100 percent by the customers, in addition 
to funding selected RAX items. BOR will continue to explore ways to 
reduce the Federal cost of its projects and programs.
    A total of $83.7 million is requested for BOR's Safety of Dams 
program, which includes $63.6 million directed to dam safety corrective 
actions; of that, $27.5 million is for work at Folsom Dam. Funding also 
includes $18.5 million for safety evaluations of existing dams and $1.6 
million to oversee the Interior Department's Safety of Dams program.
    BOR's request for Site Security is $25.9 million to ensure the 
safety and security of the public, BOR's employees, and key facilities. 
This funding includes $6.9 million for physical security upgrades at 
high-risk critical assets and $19.1 million to continue all aspects of 
bureauwide security efforts including law enforcement, risk and threat 
analysis, personnel security, information security, risk assessments 
and security-related studies, and guards and patrols.
    BOR continues efforts to reach agreements with non-Federal and 
Federal partners to share in the cost of water resource management and 
development. Cost-sharing of 50 percent for construction and 
rehabilitation of recreation facilities at various BOR reservoirs will 
continue. Additionally, BOR's current planning program seeks 50 percent 
cost-sharing on most studies. This reflects BOR's emphasis on 
partnerships for water management initiatives.

            <GREEK-L>BOR DEG.INDIAN WATER RIGHTS SETTLEMENTS

    On December 8, 2010 the President signed the Claims Resolution Act 
of 2010 that included four water settlements. These settlements resolve 
longstanding and disruptive water disputes, provide for the 
quantification and protection of tribal rights, and will deliver clean 
water to the Pueblos of Taos, Nambe, Pojoaque, San Ildefonso, and 
Tesuque in New Mexico, the Crow Tribe of Montana, and the White 
Mountain Apache Tribe of Arizona. In order to accomplish this, the act 
provides various mechanisms and funding structures designed for both 
construction and for the tribes to use to manage water systems 
following construction. The primary responsibility for developing water 
infrastructure under these settlements was given to BOR. Mandatory 
funding was provided to both BIA and BOR in 2011 for a portion of the 
funds established under the act. We anticipate that BOR will begin 
expending some of this mandatory funding to work with all parties to 
begin implementing these settlements.
    The four Indian water rights settlements will provide water 
supplies and offer economic security for the tribes and pueblos 
described above. The agreements will build and improve reservation 
water systems, rehabilitate irrigation projects, construct a regional 
multi-pueblo water system, and codify water-sharing arrangements 
between Indian and neighboring communities. Construction will take 
place over time and annual funding requirements will vary from year to 
year. Notwithstanding the availability of some level of mandatory 
funding, discretionary appropriations will still be necessary. BOR is 
requesting $26.7 million in 2012 for the initial implementation of 
these four settlements.
    BOR is establishing the Indian Water Rights Settlements account to 
assure continuity in the construction of the authorized projects and to 
highlight and enhance transparency in handling these funds. In 
establishing this account, BOR will also request $24.8 million for the 
Navajo-Gallup Water Supply project (title X of Public Law 111-11) in 
order to have major current funding for BOR's Indian Water Rights 
Settlements treated in the Claims Resolution Act in a single account.
    The Navajo-Gallup Water Supply Project will provide reliable and 
sustainable municipal, industrial, and domestic water supplies from the 
San Juan River to the Navajo Nation including:
  --the Window Rock, Arizona area;
  --the city of Gallup, New Mexico; the Navajo Agricultural Products 
        Industry; and
  --the southwest portion of the Jicarilla Apache Nation Reservation.
    The total request for BOR for Indian Water Rights Settlements in 
2012 is $51.5 million in discretionary funding and $60 million in 
permanent funds.

               <GREEK-L>BOR DEG.POLICY AND ADMINISTRATION

    The 2012 budget request for the Policy and Administration 
appropriation account, the account that finances BOR's central 
management functions, is $60 million or 6 percent of the total request, 
a reduction of $1.2 million from the 2011 request. This reduction 
reflects the impact of the pay freeze and the Administrative Cost 
Savings discussed below.

      <GREEK-L>BOR DEG.ADMINISTRATIVE COST SAVINGS AND MANAGEMENT 
                              EFFICIENCIES

    The 2012 budget request includes reductions that reflect the 
Accountable Government Initiative to curb nonessential administrative 
spending in support of the President's commitment on fiscal discipline 
and spending restraint. In accordance with this initiative, BOR's 
budget includes $5.8 million in savings in 2012 against actual 2010 
expenditures in the following activities: travel and transportation of 
persons, transportation of things, printing and reproduction, and 
supplies and materials. Actions to address the Accountable Government 
Initiative and reduce these expenses build upon management efficiency 
efforts proposed in 2011 totaling $3.9 million in travel and 
relocation, Information Technology, and strategic sourcing and bureau-
specific efficiencies totaling $1.3 million.

        <GREEK-L>BOR DEG.CENTRAL VALLEY PROJECT RESTORATION FUND

    The 2012 budget includes a request of $53.1 million for the CVPRF. 
This budget request is offset by collections estimated at $52.8 million 
from mitigation and restoration charges authorized by the Central 
Valley Project Improvement Act. The request considers the effects of 
the San Joaquin River Restoration Settlement Act (Public Law 111-11, 
March 30, 2009) which (beginning in 2010) redirects certain fees, 
estimated at $5.6 million in fiscal year 2012, collected from the 
Friant Division water users to the San Joaquin River Restoration Fund.

          <GREEK-L>BOR DEG.SAN JOAQUIN RIVER RESTORATION FUND

    The 2012 budget also reflects the settlement of Natural Resources 
Defense Council v. Rodgers. BOR proposes $9 million in discretionary 
funds into this account, which was established by the San Joaquin River 
Restoration Settlement Act. Under the Settlement, the legislation also 
provides for approximately $2 million in annual appropriations for the 
Central Valley Project Restoration Fund for this purpose, as well as 
mandatory funds. The Fund seeks to provide a variety of physical 
improvements within and near the San Joaquin River within the service 
area of the Friant Division long term contractors to achieve the 
restoration and water management goals. These funds are important for 
BOR to meet various terms of the settlement that brought water 
contractors, fishery advocates, and other stakeholders together to 
bring to an end 18 years of contentious litigation.

         <GREEK-L>BOR DEG.CALIFORNIA BAY-DELTA RESTORATION FUND

    The 2012 budget requests $39.7 million for CALFED, pursuant to the 
CALFED Bay-Delta Authorization Act. The request focuses on the Bay-
Delta Conservation Plan and interagency science efforts to address 
short- and long-term water resource issues. Other activities include a 
renewed Federal/State partnership, Smarter Water Supply and Use, and 
addressing the degraded Bay-Delta Ecosystem actions which include 
Federal participation in the Bay Delta Conservation Plan and 
interagency science efforts to address short- and long-term water 
resource issues based on the Interim Federal Action Plan. The CALFED 
Bay-Delta Program was established in May 1995 to develop a 
comprehensive long-term plan to address the complex and interrelated 
problems in the Delta region, tributary watersheds, and delivery areas. 
The Program's focus is on conserving and restoring the health of the 
ecosystem and improving water management, including Federal 
participation in the Bay Delta conservation Plan.

          <GREEK-L>BOR DEG.FISCAL YEAR 2012 PLANNED ACTIVITIES

    BOR's fiscal year 2012 goals are directly related to fulfilling 
contractual requests to deliver water and power. Our goals also address 
a range of other water supply needs in the West, playing a significant 
role in restoring and protecting freshwater ecosystems consistent with 
applicable State and Federal law, enhancing management of our water 
infrastructure while mitigating for any harmful environmental effects, 
and understanding and responding to the changing nature of the West's 
limited water resources. It should be emphasized that in order to meet 
BOR's mission goals of securing America's energy resources and managing 
water in a sustainable manner for the 21st century, a part of BOR's 
programs must focus on the protection and restoration of freshwater 
ecosystems.
    By the end of fiscal year 2012, BOR will enable capability to 
increase available water supply for agricultural, municipal, 
industrial, and environmental uses in the Western United States by 
490,000 acre feet through its conservation-related programs, such as 
water reuse and recycling (title XVI), and WaterSMART grants. BOR will 
maintain dams and associated facilities in good condition to ensure the 
reliable delivery of water. It will maximize the percent of time that 
its hydroelectric generating units are available to the inter-connected 
western electrical system during daily peak demand periods.
    Moreover, the fiscal year 2012 budget request demonstrates BOR's 
commitment to meeting the water and power needs of the West in a 
fiscally responsible manner. This budget continues BOR's emphasis on 
managing those valuable public resources. BOR is committed to working 
with its customers, States, tribes, and other stakeholders to find ways 
to balance and provide for the mix of water resource needs in 2012 and 
beyond.

                               CONCLUSION

    Madam Chair, please allow me to express my sincere appreciation for 
the continued support that this subcommittee has provided BOR. This 
completes my statement. I would be happy to answer any questions that 
you may have at this time.
    Senator Feinstein. Thank you very much.

             <greek-l>COE deg.HARBOR MAINTENANCE TRUST FUND

    I want to go back to the Harbor Maintenance Trust Fund 
because it seems to me that there is a catch 22, and that is 
that the trust fund is going to be used for other things and 
that there are no authorized widths or depths for dredging. 
Therefore, ports will be haphazardly dredged. I am sorry 
Senator Graham is not here because he was interested in the 
Port of Charleston. I do not know how you will select those 
ports that get dredging versus those that do not because there 
are no earmarks, and I think that is going to make it very 
difficult in the COE budget to know what you do and what you do 
not do. And so I am particularly disturbed by what I see coming 
to really handcuff the Harbor Maintenance Trust Fund.
    Could you respond to that?
    General Van Antwerp. First of all, Senator, I would like to 
say that the way that we prioritize our dredging is we look for 
a number of factors. We put them through a sieve of 
prioritization. What is the shoaling that happens in there? 
What is the commercial nature of that port or harbor?
    As kind of an overview, we have 59 ports and harbors that 
carry about 90 percent of the waterborne cargo of this country. 
It is about $1.4 trillion through our ports and harbors. So 
there are some that are what we call very high-commercial-use 
harbors.
    We take the navigation or the dredging dollars and spread 
them as well as possible over those with the highest traffic 
that we can. It is not haphazard in the sense that it does not 
have a prioritization scheme to it. It absolutely does. We do 
high use, medium use, and low use.
    Senator Feinstein. Right. You have 59 ports. You have a lot 
of work to do. Why would you want to have other activities take 
money from this trust fund, and what would those other 
activities be?
    Ms. Darcy. Senator, the proposal that is being developed 
within the administration is looking at a number of things. It 
has not been developed yet. Some examples of things that might 
be looked at to receive some of this funding would be increased 
security needs at ports. We are trying to look at the Nation's 
ports as a whole system and what commercial navigation needs 
there are and what can be provided through the Trust Fund.
    Also, the Trust Fund balance--as you noted, about $1.4 
billion comes in annually, and then that is appropriated. So if 
you were concerned about the depletion of the balance that can 
be managed by the appropriations process.
    Senator Feinstein. Well, let me just say I hope so. You 
know, we have the largest port in the Nation. Forty-five 
percent of the container traffic comes in and out of the Port 
of LA--Long Beach. If you are not dredging that port to its 
fullest, if you scrimp on that, the whole thing shuts down. And 
so I do not understand using this money for security dollars. 
It seems to me keeping these ports viable is really an 
important mission, and it in itself absorbs all the money.
    Ms. Darcy. When developing the proposal, all of those 
things will be considered. As I said, the proposal is still 
under development within the administration, and we will be 
considering these and many other factors.
    Also, whatever proposal we develop will have to be 
developed with all of you because it would require legislative 
changes. So the Finance Committee would have to be involved, as 
well as the authorizing and appropriations committees.
    Senator Feinstein. How much surplus is in the trust fund?
    Ms. Darcy. I think the current estimate is about $5.8 
billion.
    Senator Feinstein. Five point eight billion dollars. And 
how much will be used on port dredging this year?
    Ms. Darcy. The President's request is for $758 million.
    Senator Feinstein. That is all.
    Ms. Darcy. Yes.
    Senator Feinstein. I am glad Senator Graham just came back 
because what we just learned was that there are $7 billion in 
the port trust fund for dredging, but only $700 million-plus is 
being put forward by the administration for dredging.
    I guess what I am telling you as chairman--I do not know if 
others would agree with it--but that is not the right thing to 
do. You have to keep these ports viable. So if you have a 
response to that, I would appreciate it. If you do not, that is 
okay too.
    Ms. Darcy. The proposal that is being developed is looking 
at the commercial ports from all of the needs, including 
navigation and including keeping them dredged at a viable 
depth.
    Senator Graham. Madam Chairman, could I just----
    Senator Feinstein. Yes, please. Go ahead, Senator.
    Senator Graham. As I understand it, there is a difference 
between maintaining a port, dredging, and actually a new start 
where you would deepen the harbor. Is that correct?
    Ms. Darcy. Yes, sir.
    Senator Graham. So I think I understand a little bit about 
their dilemma. Once you get a harbor at a certain depth, there 
is a trust fund to keep it dredged at that depth. What we are 
talking about in Charleston and Savannah and other places is 
actually going lower than the approved level, which would 
probably be a different exercise financially, is that correct 
General.
    General Van Antwerp. That is correct.
    Senator Graham. I have learned more about this than I ever 
wanted to learn.
    General Van Antwerp. You know a lot about this, Senator.
    Senator Graham. Yes, the hard way. I just want 40,000 
bucks, $40,000. I am really cheap.
    General Van Antwerp. To go deeper in a port, it is largely 
based on the benefit-cost ratio, its commercial use, and its 
national economic benefit. This year, in new starts we are at 
2.5 benefit-to-cost ratio for inclusion in the budget.
    Senator Feinstein. Trust me. He will want more than 
$40,000. The $40,000 is just a study.
    All right, I think I have consumed enough time.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chair.
    I have actually learned a good bit about the Charleston 
Port as well over the last few days. And I know you have. We 
all feel very well educated about it. But it does not have a 
finer advocate than Senator Graham anywhere in the United 
States.

                   <greek-l>COE deg.CHICKAMAUGA LOCK

    Secretary Darcy, have you ever visited the Chickamauga 
Lock?
    Ms. Darcy. I have not, Senator.
    Senator Alexander. Are you aware of its current condition?
    Ms. Darcy. I have been briefed about its current condition. 
I know that the Chief and the Commanding General from the Great 
Lakes and Ohio River Division have been there, however.
    Senator Alexander. What are your projections about how long 
it can be reliably operated and maintained?
    Ms. Darcy. I am not sure that we have those. Do we, 
General?
    General Van Antwerp. Well, first of all, we think there is 
a low probability of failure right now, but we are watching it 
closely. We have gauges. We are watching that to give pre-
notification if there is going to be a failure. There is no 
question we are watching the maintenance curve on this and it 
grows and grows every year, and at some point it goes to the 
point that you have got to make the improvements and you must 
fix it.
    Senator Alexander. Well, is it not true that it is in 
danger of a catastrophic failure?
    General Van Antwerp. We feel the probability right now is 
low to moderate.
    Senator Alexander. How much maintenance funding will be 
needed to keep it open over the next 5 or 10 years?
    General Van Antwerp. I would say about $2 million to $3 
million every year. But I could see somewhere in the near term 
that it's going to be about $15 million per year because there 
are some things that are going to have to be done. That is if 
we just stay on the maintenance track, but $2 million to $3 
million probably for the next 5 years each year.
    Senator Alexander. Have you considered asking the Tennessee 
Valley Authority to contribute funds to the replacement of the 
lock?
    General Van Antwerp. Senator, I am not sure if we have had 
the discussion on whether they would want to provide funds for 
that.
    Senator Alexander. Finally, when is work scheduled to 
resume on the project?
    General Van Antwerp. Well, right now we are in the process 
of building the cofferdam. In the fiscal year 2012 budget there 
is zero funding for it. At some point the project would cease 
and we would button it up and then wait for future funding to 
continue.

              <greek-l>COE deg.INLAND WATERWAY TRUST FUND

    Senator Alexander. Secretary Darcy, we talked a moment ago 
about the Inland Waterway Trust Fund. It is in a little 
different shape, is it not? It does not have much money in it.
    Ms. Darcy. No, it does not.
    Senator Alexander. What does it have?
    Ms. Darcy. I think the current balance that we have in our 
budget request for 2012 coming from the Trust Fund is $77 
million.
    Senator Alexander. Is it true that that is about enough for 
one project this year?
    Ms. Darcy. It is about enough for maybe three.
    Senator Alexander. Maybe three.
    There was a plan that the commercial users of the Inland 
Waterway Trust Fund worked on and I believe worked on with the 
administration in which they basically worked out a proposal to 
increase the fuel tax on themselves on their own fuel in order 
to put more money into the Inland Waterway Trust Fund so that 
locks like the Chickamauga Dam and other needed projects could 
be done. But it is my understanding that you wrote a letter to 
Congressman Oberstar disagreeing with the plan last year.
    Does the administration have its own plan to enhance the 
revenues in the Inland Waterway Trust fund? And when will we 
see the plan if there is such one planned?
    Ms. Darcy. Senator, we are working with the Inland Waterway 
Users Board and the industry to develop a plan to increase the 
funding in the trust fund, as well as looking at ways to 
equitably charge the users in the future.
    Senator Alexander. Well, what was wrong with the plan that 
was rejected last year?
    Ms. Darcy. There were many recommendations and some of them 
shifted the cost share burden to the general Federal taxpayer 
and took it away from the user. So that was one of the major 
objections.
    Senator Alexander. Excuse me. I was talking and I did not 
hear your entire answer.
    Ms. Darcy. There were cost share changes developed that 
would shift a lot of the burden back to the general Federal 
taxpayer as opposed to the direct user.
    Senator Alexander. And when will your proposal be ready for 
us to see?
    Ms. Darcy. I do not know, Senator, hopefully soon.
    Senator Alexander. Well, does ``soon'' mean a matter of a 
few months or a few years or what?
    Ms. Darcy. I think it is in between. It is less than a few 
years and more than a few months.
    Senator Alexander. Well, there is a certain urgency to this 
when you have the users of the waterways, who are agreeable to 
contributing extra dollars to create projects that all of us 
believe are important for new jobs. I think the sooner, the 
better. So I would like to urge you to make it a priority and 
let us see it as soon as possible.
    Ms. Darcy. Yes, Senator.
    Senator Alexander. Thank you.
    Senator Feinstein. Thank you very much, Senator.
    I will read the list. It is Johnson, Landrieu, Cochran, 
Tester, Graham, Collins, Reed, Lautenberg and Murkowski, so 
Senator Johnson.
    Senator Johnson. Thank you, Madam Chairman.
    Commissioner Connor, I am extraordinarily concerned about 
inadequate funding request for ongoing congressionally 
authorized rural water projects. Two of these projects, Mni 
Wiconi and the Lewis and Clark regional water system, are vital 
infrastructure projects in South Dakota. In your budget 
request, the seven authorized drinking water projects would 
receive a total of just $35 million, with $15 million of that 
for operations and maintenance. That leaves about $20 million 
for construction for the projects. My understanding is that 
past BOR analysis shows that it would take $58 million per year 
in construction dollars just to keep up with inflation. The 
math here just does not work.
    Especially for Lewis and Clark, the States of South Dakota, 
Iowa, and Minnesota, as well as the 20 member-cities and rural 
water systems, have prepaid $153.5 million which represents 
99.7 percent of their cost share. They have prepaid their share 
in some cases a decade or more before they will receive water. 
The Federal Government has nearly one-half of its cost sharing 
remaining. The proposed fiscal year 2012 budget only includes 
$493,000 for Lewis and Clark which would not allow for any new 
construction.
    Can you assure these cities and rural water systems that 
the Federal Government is, indeed, committed to finishing this 
important water project in a reasonable time? What is the plan 
for funding authorized water projects beyond this budget, 
because this request takes us and the taxpayers backwards on 
our investment, could you respond to that?
    Mr. Connor. Yes, Sir, Senator Johnson.
    Without a doubt, the rural water program is the program in 
our budget that has taken the biggest decrease in funding this 
year.
    As to your specific question about whether the Federal 
Government is committed to these projects, we are, but it is 
going to be very tough in these tight fiscal times. I say we 
are because we invested more than $950 million in Recovery Act 
funds. We invested $200 million initially in these rural water 
projects, and then recognizing that they were a good 
investment, given ARRA parameters, we allocated another $32 
million toward, I think, five of those projects near the end of 
last year. So we were trying to use those resources as best as 
possible to continue to move those projects out and serve 
additional communities. But in the priority order that we look 
at our budget and the resources we have available this year--
they are good programs and good projects, but are just running 
short on the funds available.
    We are going to go back and take a look pursuant to the 
2006 Rural Water Act. We owe the Congress a report on the 
status of these projects and how we can look forward toward 
trying to complete them. We are going to get that done this 
summer. We will look at some additional criteria that we may 
want to add, and we will see what we can do as far as looking 
at the resources to try and make more progress in addition to 
the progress that we already made with ARRA funds.
    Senator Johnson. Do you have any suggestions for what the 
20 communities and rural water systems that exist and are using 
99.7 percent of the cost share will do in the future?
    Mr. Connor. Well, we will work with those communities and 
see how in these tight budget times we can make strategic 
investments and phase in incrementally those aspects of the 
project and serve additional people. I recognize that the Lewis 
and Clark project is having significant problems. Our primary 
focus, beyond once we address the operation and maintenance 
obligations that we have, is to try and complete projects, and 
we did complete the Perkins County project in South Dakota and 
we are trying to ensure we can complete the Mni Wiconi project 
in 2013.
    Senator Johnson. Mr. Commissioner, I too am eager to see 
this important project completed, the Mni Wiconi project, and I 
appreciate that BOR has placed a high priority on the project. 
Unfortunately, construction funds are still falling short of 
what is needed to keep the project on pace and overhead and 
contract costs have hindered construction. It is my 
understanding that reduced funding will have an impact on the 
ability to complete this and other projects within their 
statutory timeframes. Will you review the project authorization 
and recent funding levels and work with the Congress to ensure 
that this project is completed as envisioned?
    Mr. Connor. We will certainly work with you. With respect, 
the vast majority of our construction funds proposed for 2012 
are for Mni Wiconi, but we still think that puts us in the area 
of being able to complete our obligations by 2013. But we will 
review that and we will definitely work with you, Sir.
    Senator Johnson. My time has expired. Thank you.
    Senator Feinstein. Thank you very much, Senator Johnson.
    Senator Landrieu.
    Senator Landrieu. Thank you very much.
    Let me begin, Senator Feinstein and Senator Alexander, to 
tell you how much I look forward to working with you on this 
subcommittee. It is a very important subcommittee for our 
Nation and particularly for the State that I represent. In 
Louisiana, we have the opposite challenges of some of the West 
Coast States. We have too much water, not too little water, and 
we are struggling to manage that.
    Let me also add, General Van Antwerp, thank you for your 
leadership and for your guidance as we have designed and built 
some of the most sophisticated levee and flood control systems 
ever constructed in this Nation in the aftermath of the 
catastrophe, the biblical flood that we had when the Federal 
levee system collapsed 5\1/2\ years ago in and around the city 
of New Orleans, and we are on the back end of some of that.
    And for the subcommittee, I want to thank all of you who 
were on the subcommittee before and will continue to serve 
because the $2 billion surge barrier, which is the largest 
surge barrier ever constructed in this Nation's history, is now 
up and operational. And I think we are going to be down there 
celebrating this milestone sometime in June. And I am pleased 
that we took several trips to the Netherlands to see the model 
of some of this technology. And I am pleased to share with the 
subcommittee, that having walked over the surge barrier and 
seen the construction of it in a detailed brief, that you can 
be very proud of the engineering that has gone in.
    Having said all those good things, let me say that there 
are still extraordinary challenges that are reflected in this 
budget. And I know that you are dealing with very limited 
resources. But I want to add my concern. And I have a question 
about this interior waterway trust fund.
    Senator Levin and Senator Hutchison and myself and a few 
others have introduced a bill to attempt, Senator Feinstein and 
others, Senator Alexander, to capture the money coming into 
this trust fund so that it actually can be used for the 
processes in which it was intended, which is dredging and 
maintenance of these ports. I think the chairman is absolutely 
correct that for trade and for jobs, it is just critical.
    So, number one, are you aware of the legislation, Madam 
Secretary? Number 2, is the administration going to support the 
basically capturing of these revenues to maintain these very 
important ports and channels?
    Ms. Darcy. Senator, I am aware of the legislation to keep 
what is coming into the Trust Fund for the navigation purposes 
that it was intended. In our budget, the administration has 
proposed using some of those funds, as you know, for the 
continued maintenance of the navigation channels. However, we 
are looking at using that funding for some other----
    Senator Landrieu. Well, I just want to lay a warning that 
there is a growing number of Senators on both sides of the 
aisle that want the taxes paid by this industry to be used for 
the purposes in which they thought they were being taxed, which 
is the dredging and keeping open of these ports.

             <greek-l>COE deg.ALLOCATIONS WITHOUT EARMARKS

    I want to ask a question and also make a point that while 
90 percent of the cargo--and the question following up the 
chairman--how will you allocate now that there are no earmarks 
or directives from this subcommittee allowed? And you said we 
will go by a formula. The big cargo ports will get, you know, 
based on how much cargo comes in and out. I just want to remind 
everybody on the subcommittee for the record there are ports 
that are important to the Nation that are not cargo ports. We 
would call them ``energy ports.'' And if they do not stay open, 
nobody gets electricity, oil, gas, natural gas that comes into 
the ports along the gulf coast. The chairman might want to know 
we are not even included in the formula to begin with because 
unless you are a cargo port, you do not even get considered.
    I tried to change that legislatively. You can imagine with 
natural gas coming into the country that port cannot get 
dredging because it is light. It is not heavy and it is not 
cargo. It is gas. It is liquid gas that comes in.
    So this is a very interesting subject, and I just want to 
go on record. Senator Cochran knows some of this because, of 
course, he represents the State of Mississippi which has very 
similar concerns to the State of Louisiana. But that is one 
question.
    And on the second, when we have, General Van Antwerp--my 
last question--a 100-year flood protection which we are trying 
to achieve--the Netherlands protects their people 1 out of 
every 10,000 years. We are protecting our people 1 out of every 
100. So we on the international scale have a ways to go. And I 
know you cannot compare apples to apples there.
    But when we raise the levees to 100 years, my final 
question is, do you have money budgeted to maintain them at 
that, or what happens when there is settlement in those levees, 
because this is going to happen not just in south Louisiana 
along the gulf coast, but around the country. Is any of that 
budgeted in this budget to maintain those levees at the 100-
year protection?
    General Van Antwerp. Senator, for all the project features, 
once the ribbon is cut, it goes to local responsibility for the 
operation and maintenance of those levees and project features.
    We are considering subsidence and sea level rise over time. 
In fact, we know probably in the next 50 years, many of those 
levees will have to be raised, some due to sea level rise, some 
due to subsidence. So that is in the plan. Of course, that is 
not budgeted 25 years out. For that, we will have to cross that 
bridge when we come to it because of the way we do the 
budgeting. But it is planned for.
    And when we could, we purchased the real estate for, for 
instance, a wider base so that you could add to the height of 
that levee without having to get more real estate. If we could 
do that under the current funding, we did that. We are as ready 
as we can be, but we know we are going to have future 
maintenance of those facilities.
    Senator Landrieu. Thank you.
    Senator Feinstein. Thank you very much, Senator Landrieu.
    Senator Cochran.
    Senator Cochran. Madam Chairman, I am pleased to join you 
in welcoming the panel to our hearing to review the President's 
budget request for the subjects that we are discussing.
    I cannot help but wonder about how we reconcile the 
economic requirements of being a robust exporter of goods and 
services and commodities in the international marketplace with 
reducing the capacity to handle cargo on the Mississippi River 
in its ports and in other transportation modes which would get 
our goods and services to those who are buying what we are 
selling and what we are growing in terms of agriculture 
production in the lower Mississippi River Valley and way 
beyond.
    We have up-to-date information about the fact that $100 
billion in exports is traversing the Mississippi River 
annually. Industries in more than 30 States--we are not talking 
about just Mississippi and Louisiana. We have great interest in 
this subject. But industries in more than 30 States rely on COE 
to help maintain the river at authorized levels and depths. 
Insufficient dredging and an inadequacy of funding for these 
activities would inevitably result in restrictions on ship 
traffic and cargo travel. To put it in perspective, some 
shippers estimate that a 1-foot reduction in depth means a ship 
must reduce its cargo by 1,500 tons.

       <greek-l>COE deg.MISSISSIPPI RIVER AND TRIBUTARIES PROJECT

    The objective of the Mississippi River and Tributaries 
project was to uphold, maintain, and improve the Mississippi 
River system and its levees that contain it. And in face of 
those national interests, the President's budget request for 
the Mississippi River and Tributaries project is $210 million. 
That is $130 million below the fiscal year 2010 discretionary 
budget authority.
    How are you going to cope with that reality? May I ask the 
panel if anybody has any suggestion about what you are going to 
do?
    General Van Antwerp. Well, first of all, Senator, your 
observations are correct. We have 12,000 miles of inland 
waterways that are maintained by COE and it touches really 41 
States in our Union and is so incredibly important. We 
understand that.
    I think what you will see when we have to prioritize is we 
try and keep the depth. What normally happens is that you 
reduce the width first. It means that you cannot have ships 
passing and you have to stage them.
    The other part is to keep the locks open. We have 241 locks 
on our waterways. They are 58.3 years old on average. So the 
maintenance requirements are increasing. We prioritize those by 
the greatest risk. We do treat our waterways as a system. We 
have to keep the whole system open. If we have one lock go 
down, it can impact the whole waterway.
    Senator Cochran. May I also ask another question about the 
Mississippi Yazoo back water project. This is an issue that has 
been around since 1941. The Congress has authorized and funded 
these activities that are connected to this project in the 
lower Mississippi River delta. And we had a recent decision in 
Federal court that canceled a project, in effect, or a decision 
was made not to proceed with the project because of a decision 
made by a Federal court judge in Mississippi.
    This still remains a very troublesome issue to resolve, and 
I bring it up simply because I hope COE and others who are 
interested in this will work with the supporters of the project 
to try to reconcile differences and to come up with an 
alternative that would be satisfactory with COE . I do not have 
any magic solution to suggest. We would be glad to work and 
cooperate with the administration and with others in the 
Congress who are interested in this, but I raise the question 
so we have it as the beginning of another effort.
    Thank you.
    Senator Feinstein. Thank you very much, Senator Cochran.
    Senator Tester, you are next.
    Senator Tester. Yes, thank you, Madam Chair.
    First of all, I want to express my appreciation for you all 
folks being here today. Water is our most valuable resource and 
the management of it is critically important.
    As the questions and the comments have been expressed here 
today, I have got to tell you; you guys are in a tough 
position. I mean, since this Congress started, we have been 
talking about deficit and debt, and we are giving you hell 
because you are not spending enough money. And I think that 
there has to be an awakening here, if we are going to invest in 
infrastructure, that investment means spending money. And I 
will tell you that water, whether it is where it flows into the 
ocean or whether it is at the headwaters in a State like mine, 
is very, very important, and if we do not have the 
infrastructure to manage it, we will not manage it and the 
country will be poorer for it.
    Secretary Darcy, we have visited in the past about the 
great city of Great Falls in Cascade County and a couple levees 
that they have there that were built in 1975. COE has certified 
those levees up until 2009, and the Corps decided not to 
certify any more levees.
    When you were last before the Senate, you told my 
colleague--the senior Senator from Montana--Max Baucus, that 
you would immediately look into the policy whether it should be 
changed, and that is whether FEMA either could certify or COE 
could certify to FEMA standards, one or the other. What have 
you found out?

                  <greek-l>COE deg.LEVEE CERTIFICATION

    Ms. Darcy. You are correct, Senator. I did tell Senator 
Baucus we would look into the policy and we have begun doing 
that. In the past, as you said, we certified levees and used 
Federal funds for that, and since 2008 we have not budgeted for 
that certification. We are looking at whether that is a 
possibility for us in the future.
    Senator Tester. And I will tell you that FEMA gives out the 
Provisionally Accredited Levee agreement. Okay, and they told 
Great Falls here about a month--you either got to sign it or 
forget it. COE has inspected in the past. Is there any 
potential you could harmonize your criteria? Have you done any 
work on that at all?
    Ms. Darcy. We have done some work on it, but to be quite 
honest, it is not harmonized at this point.
    Senator Tester. I mean you fully understand the issue. You 
fully understand that there is not an engineering firm around 
that has an errors and omissions policy big enough that they 
will certify it. I mean, that is really what they have found 
out. And you know what? I think there are a lot of Great Falls, 
Montana up and down the different drainages in this country. 
And I will tell you that for that reason, Senator Baucus and I 
are dropping in legislation that gives COE not only the 
authority but the responsibility to certify those.
    Once again, it may or may not cost money. You may be able 
to do it within your budget. You may need additional funds, but 
the fact is it has got to be done or folks are going to be put 
in flood plains. Businesses are not going to be able to be 
allowed to grow, some of the same things we heard earlier, only 
it just applies to this levee thing.
    The intake dam, for either one of you, General Van Antwerp 
or Secretary Darcy, the work has begun rebuilding intake, and 
it is a rock ramp. I do not know if you are familiar with it or 
not. If you are familiar with it, I will not mess around 
anymore. But since you were here last year, the cost estimate 
jumped more than $100 million. The thing is never going to be 
built if it is $100 million, I will just tell you. Something is 
going to have to happen.
    Can you give me your thoughts on why we had such a jump in 
cost on a project like intake?

           <greek-l>COE deg.YELLOWSTONE INTAKE DIVERSION DAM

    General Van Antwerp. Well, I guess in a few words, it is 
very complicated. I will give you a couple of those 
complications, Senator.
    First of all, the rock ramp at the depth and velocity that 
the pallid sturgeon needed was not working as we thought it 
would. We have had to make modifications. The modeling 
indicated a need for a much flatter side slope than the 
preliminary design. So that is, in a nutshell, the biggest 
piece of this.
    Senator Tester. The word I heard is they are bringing in 
rock from somewhere else.
    General Van Antwerp. Well, the contractor has to bring in 
the rock to do it. Where he purchases it from is up to the 
contractor.
    Senator Tester. And so it is an open-ended contract. I 
mean, if he wants to bring in rock from Maine, we pay for it?
    General Van Antwerp. Well, he has to meet the design 
criteria with the rock he brings in. He has to do it under the 
bid that he proposed. I do not believe this is a cost-plus 
contract.
    Senator Tester. Okay, but what I am saying is we started 
out this project was going to cost--and I cannot remember--$15 
million and now it is up more than $100 million.
    Senator Feinstein. Would you permit me?
    Senator Tester. Yes.
    Senator Feinstein. Why can you not have Montana rock?
    General Van Antwerp. You could if it meets the 
specifications. I think our contractors certainly would go out 
and get it at the best place they could get it for the right 
price. They are on the clock also.
    Senator Tester. I appreciate that, Madam Chairman, because 
that is exactly the question. And I do not know if this is 
factual or not. I am told by the locals that they are bringing 
rock from outside the area when there is rock there that will 
do the job.
    My time has run out, and I am going to check it off to 
people who have been here.
    But the fact is that there has got to be oversight and 
there also has to be some common sense put to the analysis. 
Look, I am all about paddlefish. I love them, but are we saving 
one paddlefish? Are we saving 50 percent of the paddlefish that 
go up the river? What are we getting for that $80 million or 
$90 million or more in additional spending? That is really kind 
of important.
    Before I go, thank you, General, for your service, I very 
much appreciate it. We are going to miss you. Thank you.
    Senator Feinstein. Thank you very much, Senator Tester.
    Senator Collins.
    Senator Collins. Thank you, Madam Chairman. I am very 
pleased that I am next because I feel I need to clarify that 
rock from Maine is not responsible for cost growth from $15 
million to $100 million. We do have outstanding rock in Maine.
    Senator Tester. I hear it is some of the best in the world.
    Senator Collins. It is Great granite, which we would be 
happy to share with your State. But I am positive that is not 
the cause of the problem.
    I do have two Maine-specific issues that I want to discuss 
with our witnesses today.

                    <greek-l>COE deg.KENNEBEC RIVER

    Secretary Darcy, as I am sure you recall, I wrote to you 
last month about a problem with the Kennebec River. And this is 
a very serious problem. I am hearing a lot of serious problems 
today.
    Earlier this year, COE conducted a sweep survey of the 
Kennebec River that concluded that the controlling depth is now 
an alarming 19.7 feet, significantly less than the authorized 
27 feet.
    Now, let me explain to my colleagues why this matters. Bath 
Iron Works, which builds naval destroyers, uses the Kennebec 
River as the avenue for getting the ships to sea. And in 
October, the USS Spruance naval destroyer is scheduled to 
depart Bath Iron Works for its home port in Virginia. The Navy 
is very concerned that the insufficient depth of the Kennebec 
River could cause that destroyer to run aground, and the Navy 
has said that the condition of the river constitutes an 
emergency and that it must be addressed in order to meet the 
scheduled delivery of this military asset. So this is truly a 
real challenge that is worrying to Bath Iron Works and to its 
customer, the Navy.
    I understand that the cost estimate to complete the 
dredging is $1.6 million.
    Complicating the issue, the timing of the dredging is very 
important to the lobster and clamming industries in Maine whose 
peak season is during the summer months, in the month of 
August.
    In fiscal year 2006, it is my understanding that $630,000 
was allocated for dredging activities on the Kennebec, but that 
that money, to my knowledge, has not yet been used for that 
purpose. Obviously, the ability of ships to enter and depart 
Bath Iron Works is of vital importance to our national 
security.
    So I have two questions for you. One, do you expect a 
resolution of this issue in time for the scheduled departure of 
the Navy destroyer that is slated to depart in October? And 
second, is COE working with the local lobster men and clammers 
to minimize the impact on their livelihoods?
    Ms. Darcy. Senator, yesterday I spoke with the Assistant 
Secretary of the Navy on this very issue, and we realize it is 
of vital importance not only to the Navy, but to our national 
security in order to have that ship delivered on time to 
Norfolk. I believe its schedule is September 1 of this year. We 
committed, along with the Assistant Secretary, to work together 
to find the money to get the dredging completed.
    That said, in order to meet the September 1 deadline, we 
have a couple of challenges which you mentioned which include 
the clamming and the lobstering which the peak season is 
August, and it is in August when we would have to dredge. Our 
normal dredging schedule up there is usually between November 
and March. So we are sort of in a bind here.
    We would have to get permits and work with the fishermen 
and lobstermen in order to get a schedule that works for them.
    Senator Collins. I hope that you will work very closely 
with all of the parties, BIW, the Navy, the lobstermen, the 
clammers. It is too bad this was not done this past winter when 
there would not be the impact on the fishing industry and the 
lobstermen and clammers. We also need to accommodate Bath Iron 
Works.
    I know my time has expired. Let me just very quickly say 
that COE met in Maine yesterday concerning the jetty at Camp 
Ellis in Saco, Maine. This is more than 100 years old. It was 
built by COE before there was an understanding of the erosion 
impact of having this jetty. That is another issue that has 
been going on for a long time. Each year I visit and see more 
and more danger to the homes along the shoreline, and I hope we 
can continue to work on that as well. We provided funding and 
there has been some progress, but we have got a long ways to 
go.
    Senator Feinstein. Thank you, Senator Collins.
    Senator Collins. Thank you.
    Senator Feinstein. Senator Graham, you missed your time, 
but I know you are lively and a little spirit every now and 
then would not hurt.
    Senator Collins. And I am boring.
    Senator Graham. No, you are not boring. You are just from 
Maine.
    Senator Graham. You are polite and kind.
    Senator Collins. I will leave it at that then.
    Senator Graham. Yes.
    I was over nominating a judge for the Fourth Circuit, and I 
may be the only guy in the history of the Senate to nominate a 
judge and put a hold on him all at the same time. So it has 
been a strange weekend.
    Secretary Darcy, the Panama Canal is going to be deepened 
in 2014. Is that correct?
    Ms. Darcy. That is the plan, yes, Sir.
    Senator Graham. The plan is to deepen the Panama Canal so 
that super cargo ships can pass through the canal. Is that 
correct?
    Ms. Darcy. Yes.
    Senator Graham. These are ships a lot bigger than we have 
today.
    Ms. Darcy. Many of them will be, yes, Sir.
    Senator Graham. It is going to change shipping as we know 
it.
    Ms. Darcy. I anticipate that.

               <greek-l>COE deg.FUNDING HARBOR DEEPENING

    Senator Graham. So there are certain ports that are in 
existence today that are going to have to adjust their depth to 
accept these ships. Is that correct?
    Ms. Darcy. Yes.
    Senator Graham. One of them is Charleston.
    Ms. Darcy. Yes.
    Senator Graham. I think everybody realizes that. But it is 
just not Charleston. And if shipping is going to change and we 
are going to meet President Obama's goal of doubling exports in 
5 years, which is a great goal, we better have the 
infrastructure to make that a reality.
    So, Madam Chairman, you, your staff, Senator Alexander have 
been absolutely terrific and helpful. We have got a dilemma. In 
the 2011 budget, there was no money set aside by the 
administration to conduct a study, and as I understand the way 
you deepen a port, there are three phases: the study phase, the 
design phase, and the construction phase. Is that correct?
    Ms. Darcy. Yes.
    Senator Graham. And the Congress has to authorize these 
studies for you to move forward. You just cannot do this on 
your own. Is that correct?
    Ms. Darcy. Yes.
    Senator Graham. So what we have tried to do is find a way 
to allow the study in 2011 to go forward. And it is a 3-year 
process where the study goes on for 3 years, and after the 
study is done, the design phase kicks in. That is about $25 
million to $30 million, and the construction to deepen the 
harbor to 50 feet, what we anticipate would be the depth to 
receive these ships, is several years, about $350 million. And 
there is a cost-sharing agreement between ports and the Federal 
Government. Is that correct?
    Ms. Darcy. Yes.
    Senator Graham. So my dilemma is that I have no vehicle to 
allow the study in 2011 to go forward. It is a scoping study. 
It is about $40,000 on the Federal side. The port in South 
Carolina is willing to pay the Federal Government's share, but 
we literally cannot. So everybody on this subcommittee has been 
helping me, and I am talking to the administration about a way 
forward.
    But beyond Charleston, do we have a vision as a Nation as 
to what ports should be deepened to accept these ships? And is 
there a financing plan in place?
    Ms. Darcy. No, Senator, we have not done a nationwide study 
to evaluate which ports should be deeper.
    Senator Graham. I would like to recommend to this 
subcommittee this would be a good use of our time to look as a 
Nation what does it mean for these ships to come through the 
Panama Canal, what does it mean to traffic on the Mississippi 
River, and try to make a good business decision.
    I am willing, Madam Chairman, to allow COE to decide 
whether or not to spend money on Charleston's deepening if it 
makes sense from a national perspective. But since that system 
is not in place, I have to protect Charleston. And as you 
mentioned, there is a lot of money not being utilized. So we 
need to look at that account.
    But, Secretary Darcy, could you propose to this 
subcommittee a plan, General, that would allow you to make an 
assessment of what ports need to be deepened based on the 
Panama Canal situation? Have you all done anything along those 
lines? Would you be willing to submit a plan to us if I ask 
you?
    Ms. Darcy. We would have to be directed and funded to do 
so, Senator.
    Senator Graham. That funding problem.
    I would just ask the subcommittee to look into this 
situation because as a Nation we do not have the infrastructure 
to basically accept ships that are going to be the standard for 
the future, and if President Obama's goal of doubling export is 
to be achieved, as Senator Alexander said, shipping is the key 
way to get goods throughout the world.
    In South Carolina, BMW makes cars. We call it ``Bubba Makes 
Wheels.'' But there is a BMW plant in Greenville/Spartanburg, 
South Carolina where we have shipped more than $4 billion worth 
of cars made in South Carolina throughout the world. And the 
port in Charleston is responsible for 1 in 5 jobs in South 
Carolina. I bet you that is true in places in California. I 
know it is true in Mississippi and Alabama.
    So let us look at what we should be doing as a Nation, 
General, and make a business decision. I am willing to let 
merit take over if we are all in the same boat together. So I 
will end this discussion with the idea of please, for God's 
sakes, help me find a way to do the scoping study in 2011, and 
we will look at a system-wide approach beyond that.
    General, do you have anything to say?
    General Van Antwerp. Yes, Sir, if I could just respond 
quickly.
    We have six ports that are moving to the 50-foot depth. 
That is what you will need to come fully loaded through the new 
Panama Canal. We also have seven studies of deep water ports, 
which Charleston is if we get the feasibility dollars to do it, 
that have potential. With Charleston being 45 feet now, what 
would it take to go to 50? What is the benefit-cost ratio? We 
do have a lot of knowledge of how the ports are intertwined 
because you may not have to come in full from the Panama Canal 
if you have already offloaded some to go to the next port, the 
next port. So it is a system, and we can take that on if funded 
to do so.
    Senator Feinstein. Thank you.
    Let me say this because I spoke to Senator Alexander. We 
will put report language in our bill to indicate very strongly 
our view which is that we do not believe money should be taken 
from this trust fund for other use. All anyone has to do is go 
to the Port of Hong Kong, go to any other major port to see how 
out-of-date our ports are. If we are going to compete 
internationally, we have to have a modern infrastructure, and 
the ports have to be consistently dredged.
    So I think we will have some very strong language in our 
bill, and I want to say to the administration I will do 
everything I can to prevent that trust fund from being eroded 
with other activities.
    Next is Senator Reed.
    Senator Reed. Thank you very much, Madam Chairman.
    I want to welcome all the witnesses. I particularly want to 
welcome General Van Antwerp, Bob, thank you for your 
extraordinary service--you and your family--to the Army and to 
the Nation. Although the General looks much younger than I, we 
were contemporaries at West Point. So it is good to see you. 
Clearly his talent was recognized early on at West Point. I am 
in another line of business and that speaks for itself.
    Now, let me continue. I want to thank you, both Secretary 
Darcy and General Van Antwerp, for the extraordinary response 
of COE of Engineers to the floods last year in Rhode Island. 
Your New England district personnel were incredibly active, 
hands-on, great initiative. They were particularly helpful in 
prioritizing dredging at the Patuxent Cove which would now 
allow for freer access of water from our systems into 
Narragansett Bay. And they have conducted reconnaissance 
studies. They have taken really this issue on. So can you 
accept my compliments and pass them on to those extraordinary 
public servants? Thank you.

         <greek-l>COE deg.CONTINUING AUTHORITIES PROGRAM (CAP)

    Let me focus on a series of issues, Secretary Darcy, the 
continuing authorities programs. I found them to be very 
useful, particularly the 205 CAP, one of the programs that deal 
with flood control. And I have noticed that in the President's 
budget, there is the proposed elimination of four existing 
CAP's, and then the reliance on transferring funds to fulfill 
the obligations of some other CAP's.
    Can you comment on the CAP activities, the proposed 
changes, and how would it affect flood control?
    Ms. Darcy. Senator, you are correct. We did make a proposal 
in this budget to use some of the existing funds in the 
carryover programs from one CAP program to another. I think it 
is $23 million. We are going to use that carryover money for 
other programs. And in looking at tough budget decisions and 
directions from the Office of Management and Budget, we had to 
make some choices, and we looked at the CAP programs.
    The 205 program is one that is going to continue to be 
funded with carryover funds in this budget. CAP programs are 
smaller projects that do not need individual authorization or 
Chief's Reports, and there are certain thresholds as to how 
much Federal funding can be spent on those. They have been very 
effective especially in small States like Rhode Island. We will 
continue to fund those in this President's budget, but some of 
the others, like the small harbors money, are going to be cut. 
We are going to continue to fund those programs and they are 
prioritized within the region.
    Senator Reed. Well, I appreciate that with respect to the 
205 program.
    One of the other programs is the 103 CAP which does a lot 
with respect to coastal erosion, and we just had a recent 
report that 68 percent of the beaches in New England and the 
mid-Atlantic, basically the whole northeast coast, are eroding 
on an average of 1.6 feet a year. And in towns in Rhode 
Island--and this reminds me of a great story. Senator Theodore 
Francis Green was asked the size of Rhode Island. He said it 
depends, on what, and he responded, high tide or low tide.
    So 1.6 feet a year is an important metric to us, and that 
103 program I believe is one that is scheduled for elimination. 
So it begs the question how do we deal with this multi-State 
erosion problem along our beaches.
    Ms. Darcy. I think it needs to be looked at as a system, as 
you said, with each of the beaches. We have money in the budget 
for beach renourishment projects. It is something that we are 
carefully considering when we make the budget proposals.
    Senator Reed. Thank you very much.
    Madam Chairman, thank you.
    And once again, thank you for your great assistance in our 
flooding. Thank you.
    Senator Feinstein. Thank you very much, Senator Reed.
    Senator Lautenberg.
    Senator Lautenberg. Thanks very much, Madam Chairman.
    I listened with interest to your response to questions. I 
must say you are staying up-to-date and I wish that you had 
more money to stay up-to-date more with. But the fact of the 
matter is that we in New Jersey have lots of respect, but also 
need, if I might say, from COE.

                  <greek-l>COE deg.PASSAIC RIVER BASIN

    By the way, General Van Antwerp, I spent part of my 
military career in Antwerp, Belgium during the war, and I 
always had a good feeling about that city and we have about you 
as well.
    Last month, I toured the Passaic River basin in New Jersey 
following a severe storm and saw the devastation firsthand. 
There is a dispute here between the communities. Local 
communities in that area believe that flood gates at the 
Pompton Lakes Dam have led to increased flooding in downstream 
communities. And an independent consultant has been brought in 
and is investigating the matter. I was there during the heavy 
stage of the flood, and the communities downstream were deeply 
in trouble because of the flooding.
    What has COE done to address this issue? Will it take in 
local concerns as the study moves forward?
    General Van Antwerp. Absolutely, Senator, we will take 
those local concerns into account. We want total visibility on 
this. We welcome the other review of this also.
    Senator Lautenberg. I hope so because something does not 
work, as is visible, when it is heavy weather.
    Secretary Darcy, I am encouraged by the close cooperation 
between COE and the New Jersey Department of Environmental 
Protection to try to work toward a comprehensive plan for the 
Passaic River basin. However, the re-evaluation study is 
expected to cost COE $7.5 million over the next 3 to 5 years. 
Is COE committed to requesting funding for this project in the 
future years?
    Ms. Darcy. Senator, we have not included money for it in 
the fiscal year 2012 budget.
    Senator Lautenberg. Well, we are going to need your support 
in getting this study done. The Passaic River has been a place 
with constant flooding and problems that result from that.
    I was pleased to see that your budget request included 
funding for the Port Monmouth beach project in New Jersey. In 
the past, coastal projects have typically been added as 
earmarks during the appropriations process rather than being in 
the budget request. Well, with earmarks on their way--they are 
at a moratorium now--how does COE plan to address the need for 
coastal storm damage reduction projects as it writes a work 
plan for the rest of this year and looks ahead to future 
requests? How do we get it done?
    Ms. Darcy. As far as the work plan that we will be required 
to write for the rest of this year, we will look to fund 
projects that are currently in the budget and then, with any 
remaining funds, look to prioritize other ongoing work.
    Senator Lautenberg. I have a couple of other questions that 
I want to submit for the record.
    But I want to ask you this. When I look at the budget that 
is requested for 2011, I see that there has been less money 
requested for fiscal year 2012 than we actually had with fiscal 
year 2011. I do not want to put you on the spot, but I do not 
think that is because there is less need. I do not know whether 
you are at liberty to say whether or not more is needed than we 
have presently allocated for the projects that you have 
requested or are underway.
    Ms. Darcy. Senator, we are operating within the fiscal 
climate that we are in, and this budget is what the President 
believes will allow us to sustain our missions.
    Senator Lautenberg. Thank you very much.
    Senator Feinstein. Thank you very much, Senator Lautenberg.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chair.
    And thank you to those who are appearing before us today, 
for your testimony, for your work. We appreciate it.

                   <greek-l>COE deg.FUNDING DECISIONS

    Clearly a great deal of interest in this, Madam Chairman, 
ranking member. I think it is not just because you are such 
wonderful leaders here on this subcommittee, but I think it 
speaks to the issue of what we are dealing with and the 
significance of not only ports and harbors, but our reality 
that in this new world of no earmarks, how we are able to help 
advance those projects, whether it is as Senator Graham has 
indicated, whether it is as Senator Lautenberg has indicated, 
or whether it is as it relates to the small harbors issues, as 
I will bring up. These are very critical issues for us, and I 
think we recognize the investments to our communities that are 
made when COE does the job that we ask them to do.
    Secretary Darcy, the question that I have for you--a series 
of questions here. We know that in recent years at least, we 
have seen the Congress increase the amount of funding for the 
construction of ports and harbors above the President's 
request. That was true in fiscal year 2010. In total, the 
Congress funded 350 studies and projects. The President had 
budgeted for 153. Now in fiscal year 2012, COE is budgeted for 
149 projects, and as I mentioned, we are operating under this 
earmark moratoria.
    The question that begs here is under this budget what 
happens to the 350-some-odd projects that were earmarked by the 
Congress in fiscal year 2010, and then going beyond there, what 
are the consequences for the local sponsors who have provided 
the matching funds from the municipal bonds or from the State 
funds? Where are we at this point in time with these projects 
that the Congress had said these are important, we need you to 
advance? Where are we now?
    Ms. Darcy. Senator, in making our budget priorities, we 
look at the benefits to the Nation of all of these projects, 
and that is how they compete and that is how we will budget for 
them.
    Senator Murkowski. Well, I appreciate benefits to the 
Nation. We think that in Alaska we have a lot of benefits to 
the Nation. I know that Senator Collins feels that her ports 
and harbors have a lot of benefit to the Nation as well. But 
you are going to have 26 States, including Alaska, that are 
budgeted for O&M money, operation and maintenance money, in 
fiscal year 2012, but who will receive no funding for general 
construction because of these low cost-benefit ratios. And as 
you go around the dais here and look to the States that we 
represent--Alaska, Alabama, Mississippi, Hawaii, South Dakota, 
Iowa, Montana, Kentucky, Maine, and South Carolina--would not 
receive any construction funding.
    So what do we say, that these 26 States are not significant 
or important to the national interest? We have had 
conversations about how the smaller harbors may be a lower 
priority from a national perspective, but in terms of what they 
contribute to a regional economy, they are extraordinarily 
important. So we have got a system where we have a cost-benefit 
ratio system that will never allow many of these States to ever 
get into the funding stream when it comes to general 
construction.
    So if we do not have earmarks, what can the Congress do to 
ensure that these States that are not budgeted for construction 
can somehow or other continue to get funding? Because I will 
not accept the conclusion that 26 States, including Alaska, 
will just not see general construction money. That is not 
right.
    Ms. Darcy. Senator, we do not do our budgeting on a State-
by-State basis.
    Senator Murkowski. I understand that.
    Ms. Darcy. We do it on a project-by-project basis. That is 
where the prioritization and the value come in.
    As far as what can be done in the nonearmark era, there are 
any number of ways to look at a budget, whether it is a 
systems-based budget or a line item-based budget. That is 
something that the Congress may need to look at.
    Senator Murkowski. I think the Congress needs to look at 
it. I think we need to work with COE because I think this has 
led us to a result that whether you are from Alaska and trying 
to get a small harbor going or Senator Graham from South 
Carolina that is trying to get Charleston advancing--we have 
got ourselves in a bit of a mess here. And I am looking for 
your suggestions as to how we resolve it because just going to 
old rhetoric, which we operate off of this cost-benefit ratio 
and that is the standard and that is the way it is, is not 
acceptable.
    General, do you have comment you would like to make?
    General Van Antwerp. Yes, Senator. First of all, we would 
love to work with you on the priorities. I think if there are 
no earmarks, then we go back to the priority scheme. So we 
could work together on how the priorities are set, and maybe it 
is different than we do right now. Right now it is very heavily 
weighted to the National Economic Development benefits, and so 
that is your benefit to cost ratio that you have been speaking 
of. I think there are ways to look at the priorities of the 
whole system where portions of it could be reallocated based on 
a certain set of priorities that were set.
    Senator Murkowski. Well, I appreciate that. I think that is 
something that we need to do and look forward to working with 
you as well as those of us here in the Congress.
    I do have a series of questions regarding CD-5 and the 
failure by COE to be able to proceed with the bridge over the 
Colville River. I recognize that I am over my limit, though, 
but I would like to pose a series of questions to you for a 
response.
    Thank you, Madam Chair.
    Senator Feinstein. Thank you very much, Senator Murkowski.
    Senator Harkin.
    Senator Harkin. Thank you, Madam Chair. Thank you very 
much, Ranking Member Alexander.

                  <greek-l>COE deg.LEVEE CERTIFICATION

    Secretary Darcy, across the country, a number of cities are 
facing decertification of their levees as a result of higher 
estimated water flows, one of those cities being the capital 
city of Iowa, Des Moines. In the Des Moines case, the loss from 
a 100-year flood is very likely to be well more than $1 
billion. And that does not count the considerable loss of new 
construction and economic development that will occur with 
decertification. In other words, if they decertify the levees, 
there are big areas that are now being opened up with new 
expressways and areas for economic development. That will 
probably come to a screeching, grinding halt if these levees 
are decertified.
    Now, the city of Des Moines and other cities I am aware of 
across the country cannot afford to wait over a decade for 
studies and remediation. In Des Moines' case, the possible 
solutions are complex, including possible modification of COE 
dams, the raising of bridges, the widening of streams, the 
raising of levees. Each year of delay is a significant loss in 
economic development and jobs, higher flood insurance costs and 
again also possible flood damage. We really need COE to move 
forward with these complicated studies in Des Moines which I am 
told and understand is within your existing authorities.
    COE has unique and needed capabilities. That should include 
allowing the local sponsor, for example, to contribute funding 
up front with the understanding that if a project develops, 
those advances would be appropriately counted as a match. 
Again, so we do not lose crucial time, we are trying to get up-
front money which the city of Des Moines is willing to do in 
order to collapse that timeframe, but again those monies then 
would count as part of their match so they do not lose this 
whole timeframe.
    So I hope that you will support having these studies move 
forward as efficiently and quickly as possible and, as we wait 
for regular funding, that you do all you can to approve the use 
of city-advanced funds, which I was just talking about, with 
the agreement that those local funds would count as a match 
against approved activities that would come on later on.
    Can you respond to that statement, because I have been 
meeting with the people in Des Moines. They are at a critical 
juncture right now. If we do not get something done within the 
next about 18 months, we are facing some real economic problems 
in the city of Des Moines. So, again, my question is, in your 
jurisdiction could we get the city of Des Moines to advance 
those funds, get those studies collapsed, do it in a hurry, 
while we wait for regular funding?
    Ms. Darcy. Senator, if we have a written agreement with the 
local sponsor and COE, it is my understanding that we can 
accept up-front money and provide further credit.
    Senator Harkin. You could if there is an agreed plan.
    Ms. Darcy. Yes, at the beginning.
    Senator Harkin. With the city of Des Moines.
    Ms. Darcy. Yes, with the local sponsor.
    Senator Harkin. If the city of Des Moines comes up with 
that, how long do you think it would take to get that approved? 
I mean is this something we could look at in a very short 
timeframe?
    Ms. Darcy. I believe so, Senator.

                  <greek-l>COE deg.CEDAR RAPIDS, IOWA

    Senator Harkin. Okay, that is good. That is very good.
    Well, okay, we have one other city in Iowa that is on a 
river and it gets flooded. It is called Cedar Rapids. You know 
that very well. And first of all, I commend COE for its rapid 
movement of the Chief's report on Cedar Rapids. It has been 
very good, General. But as you know, the findings propose a 
project based on traditional criteria. I know you are probably 
aware of this. It is one side of the river. General, you know 
that very well. The other side of the river, more than 3,000 
homes, and would you not know it, these are families with lower 
incomes than those that are on the side to be protected. So it 
is always those with lower incomes--they do not get any help.
    I think the philosophy of the December 2009 proposed 
national objectives, principles, and standards for related 
resources should be followed in a case like this. The Cedar 
Rapids waiver request will soon come to you to provide 
protection on both sides of the river. I urge you to grant it. 
That is the correct position on an equity and environmental 
justice basis. Cedar Rapids is a major engine for the economy 
of all of eastern Iowa, and it will be severely damaged with 
the lack of investments without a project on both sides of the 
river.
    I also hope that you will support allowing Cedar Rapids to 
count all of a sponsor's traditional costs that it incurred 
since the date of the flood.
    So that waiver request will be coming to you soon.

          <greek-l>COE deg.UPPER MISSISSIPPI RIVER NAVIGATION

    Last, Madam Secretary and General, I want to talk a little 
bit about the upper Mississippi navigation. We spent and I 
spent 20 years working to get this final plan approved for the 
upgrading of the locks and dams on the upper Mississippi. We 
finally got it done. And now I am worried about the ability to 
move ahead, both to maintain and move forward on the 
improvements in that navigation system.
    Of course, I was disappointed with the level of support in 
the fiscal year 2012 budget proposal from the White House, and 
I think it is clear that the budget agreement that we are 
probably going to agree on is going to put some real strains on 
the ability of COE to move forward. Madam Chair, I will be 
submitting some questions for the record in this regard.
    My point is this. I think that there is a need to increase 
funding available the Inland Waterways Trust Fund. I was 
pleased with the National User Board's proposal which 
recognized that need but also called for both more efficient 
processes regarding navigation construction and the reworking 
of the definitions of what is considered navigation. I can tell 
you that behind every dam--well, I cannot say ``every''. I have 
not visited them all. Behind most of them are great 
recreational areas, a lot of fishing. Even in some of the 
places down the Mississippi, you would be amazed how many 
people go out there just to bird watch and watch the bald 
eagles.
    Have you watched that Web site, the Decorah Eagles, by any 
chance? No. There is a Web site. It is called Decorah, D-e-c-o-
r-a-h. You have been there a lot of times, but it is called 
Decorah Eagles. What they did, Madam Chair, someone--not 
someone--an entity, an environmental group, set up a web camera 
in a tree focusing on an eagle's nest.
    Senator Feinstein. I saw it. It was wonderful.
    Senator Harkin. Is that not wonderful?
    Senator Feinstein. Yes, and the baby.
    Senator Harkin. And the little baby is being hatched and 
all that and everything.
    Senator Feinstein. It is great.
    Senator Harkin. Hundreds of thousands of people around the 
world watching it.
    Well, along the Mississippi River, people are doing that. 
They are going out watching birds. There is a lot of recreation 
taking place.
    It seems to me that it should not all be counted as 
navigation. It should be counted both as recreation and as 
navigation.
    And we ought to allow for an increase in the taxes that 
even the barge people say they want to do but they want to make 
sure that it is used for navigation and to make sure that the 
recreational uses behind those dams and stuff are funded as 
recreational uses and not as navigational uses.
    So I just wanted to say that. Like I said, rather than 
getting into it here, I will submit for the record a number of 
questions.
    But I just want to thank you very much, Madam Secretary, 
and General, thank you so much for all you have done. Cedar 
Rapids--you have been great in response and helping us out 
there. Believe me I know the constrictions on that other side 
of the river. I understand that. I am just trying to see what 
is equitable and what could possibly be done to help a 
situation that cries out for some kind of justice here. So 
however we can work that out, I would sure appreciate it. Thank 
you both very much.
    Thank you, Madam Chair.
    Senator Feinstein. Thank you very much, Senator Harkin.
    To our witnesses, you have had 10 percent of the Senate 
here today, 10 people. That is very unusual for a subcommittee 
meeting, and I hope you interpret it as compliment and I hope 
you interpret it as the interest with which we hold your areas 
of expertise.

                      <greek-l>COE deg.DAM SAFETY

    I have a couple more questions. One is on dam safety, 
before I turn to BOR who has been sitting there so quietly, I 
want to say a couple of things.
    There is a 90 percent chance in California that within the 
next 30 years, we have a major earthquake. It is not a chance. 
It is a probability. We are in the Ring of Fire. We have seen 
the Ring of Fire with huge earthquakes in South America, Banda 
Aceh, Christ Church, New Zealand, and all the way up. So there 
is a lot of reason to be concerned.
    We have in California three dams--I do not know, but the 
words I have been given are ``most at-risk'' category, whatever 
that means. One, Lake Isabella, has been under study for 6 
years.
    Now, the first question is what qualifies a dam for the 
``most at-risk'' category, General.
    General Van Antwerp. Senator, we look at a number of 
factors. Probably the most damaging factor would be whether 
there is material coming through the foundation of that dam. We 
call that piping in the engineer world. And most of the DSAC-1 
dams, which is the category you were mentioning, where it is 
urgent and compelling that we fix them now, have that problem. 
They are bringing material through the foundation. So we know 
there is erosion taking place. That is the most critical 
factor.
    We have a number of those under rehabilitation right now as 
we speak.
    Senator Feinstein. Well, how long do you have to study 
them, 6 years for Lake Isabella?
    General Van Antwerp. Lake Isabella--we have looked very 
closely at that. As we look at it, we think we are going to be 
fine with that if we stay on the schedule we are on.
    Senator Feinstein. Which is what?
    General Van Antwerp. The schedule right now is that we are 
going to fund that at $7 million in fiscal year 2012, which is 
the capability. We have a wedge of funding that is not totally 
visible to you all for dam safety. We are funding that project 
to continue on the schedule and we will make the repairs 
necessary when they come. We have $7 million in fiscal year 
2012 for that.
    Senator Feinstein. How about the other two most at-risk 
dams?
    General Van Antwerp. The Success Dam is budgeted with $18 
million in fiscal year 2012, so that one is also on schedule. 
What we are going to do there is acquire properties and we are 
on track with the $18 million. I think on both of those dams, 
we definitely have our eye on them and we are aware of their 
condition.
    Senator Feinstein. And the third one?
    General Van Antwerp. The third one. Which one is that?
    Senator Feinstein. I am trying to remember which one it is 
and I cannot remember.
    General Van Antwerp. Martis Creek. We have our eyes on that 
too. This is Mr. Steve Stockton who is our Director of Civil 
Works. He knows these in and out.
    Senator Feinstein. And so, on that one?
    General Van Antwerp. I am not exactly sure. I do not have 
the notes on where we are.
    Senator Feinstein. Would you let me know, please, because, 
obviously, I am vitally concerned.
    General Van Antwerp. Right.
    Senator Feinstein. Now, let me turn to BOR.
    You have proposed a new account for Indian water rights 
settlements. The question is how much mandatory funding 
accompanies the $51.5 million discretionary funding you have 
proposed for fiscal year 2012?
    Mr. Connor. The $51.5 million was basically designed to 
meet the capabilities that we have for 2012 with respect to the 
four new settlements. And what we are trying to do there, 
although there is a significant amount of mandatory funds being 
made available for those four new settlements, they also 
include a substantial amount of associated appropriations 
needs. I think to the tune of about $700 million was provided 
in mandatory funding, but with respect to BOR, we will still, 
for these four new settlements, about $250 million in 
discretionary appropriations is needed. So what we have tried 
do is to try and get the appropriations process going to cover 
that need.
    With respect to the new account, we have also incorporated 
the Navajo-Gallup pipeline project in New Mexico, the Navajo 
settlement in the San Juan River basin. There are about $25 
million in that account, I think we are going to ramp up to a 
capability in 2012 on the Navajo project to something around 
$70 million to $80 million. So there is a substantial ramp-up 
that is going on in that project itself, and so it will be a 
combination of those appropriated dollars, the $25 million, in 
the new account, plus we have been provided mandatory funds of 
$60 million in the Claims Resolution Act of 2010.
    Senator Feinstein. Do these settlement agreements require 
funding annually?
    Mr. Connor. They do not necessarily require specific 
funding annually. Some of them do. For instance, the Crow 
settlement contemplates an immediate distribution of $4 million 
I believe.
    Senator Feinstein. Are they all water systems?
    Mr. Connor. They are a combination of trust funds, which 
will come out of BIA accounts and infrastructure which are 
primarily designated for BOR. So we have municipal and 
industrial (M&I) systems, drinking water systems, but we also 
have some rehabilitation of existing irrigation systems that 
are part of the projects.
    Senator Feinstein. So you believe they can be funded 
without taking the money from anywhere else.
    Mr. Connor. Right now, through the new account, plus the 
combination of mandatory funds that we have, for the next few 
years we think we can manage that situation. But once again, 
overall, we are still looking at $250 million plus another $500 
million for Navajo. We are looking at, through appropriated 
dollars over the next decade, about $750 million worth of 
appropriated dollars that we have got to find somewhere.
    Senator Feinstein. I want to thank you for your sensitivity 
to the South-of-Delta water issues. I was very pleased to learn 
that BOR has increased the allocation for farmers from 65 
percent to 75 percent last week. I know these followed two 
previous rounds of increases. However, as you know well, there 
is still a lot of consternation in the central valley when most 
other projects are receiving 100 percent, and we have got a 
bumper crop of water and it is still the South-of-Delta that 
does not have 100 percent.
    In your judgment, how close to 100 percent can this region 
get with all the water that is now available?
    Mr. Connor. Well, there is still a chance to get up to that 
100 percent level. I would like to provide some perspective, 
though. Since 1990, we have only hit that 100 percent level 
South-of-Delta three times. The average over that 20-year 
period is 62 percent to South-of-Delta allocation for 
agriculture.
    Senator Feinstein. I actually got out the contracts and 
read them, and it is interesting because they are contracts 
with all kinds of hedges in them because generally when 
somebody signs a contract, you expect to be bound by the terms 
of the contract. In this case, the Government is not really 
bound by 100 percent water allocation under the contract. I do 
not know that people know that, and I think it is very hard. 
And I think when farmers look around and they see other water 
districts with 100 percent, it becomes even harder. And I 
understand there are special exigencies for the South-of-Delta, 
but try and sell that. It is unsalable, and I think you know 
that.
    Mr. Connor. Yes, absolutely. There are priorities. There 
are water rights conditions and the new environmental 
obligations that we have. All of those factors have affected 
that South-of-Delta allocation. But you are right. The 
expectations are there because of the contract quantities, and 
notwithstanding the fact those 20 years of experience show us 
that there is not enough water to consistently meet that 100 
percent need, there is still an expectation out there, 
particularly this year when the snowpack and precipitation is 
160 percent of average statewide.
    Senator Feinstein. Well, I know you are sensitive, and you 
have been just great and it is very much appreciated. I know 
how tough it is. Whatever we do, it is not enough, but at least 
we are trying. So thank you.
    Perhaps the biggest effort in California is the Bay-Delta 
conservation plan and what might come from it in the 10- to 15-
year build period after. Can you provide an update on BOR's 
efforts to develop a programmatic EIS for the Bay-Delta 
conservation plan?
    Mr. Connor. Yes, Senator. Over the last 4 or 5 months, 
there has been a very concerted effort by BOR, in concert with 
the other Federal regulatory agencies, Fish and Wildlife 
Service and NOAA Fisheries, working with the California Fish 
and Game and the Department of Water Resources. We are calling 
it the ``five agency process''. And we have been led in that 
effort by Deputy Secretary David Hayes. And I think we have 
made a remarkable amount of progress in dealing with six major 
issues that are key to working through so that the State of 
California, which is going to be the permittee under the Bay-
Delta Conservation Plan process, can go in and submit their 
plan with a reasonable expectation that we can work through 
those issues and get to a final permit. It is not pre-
decisional. The regulatory agencies have made that very clear. 
But we are trying to get enough in the area so that there is a 
reasonable expectation of success.
    We have resolved, I think, four of the six issues. We are 
working very hard over the next couple of months to resolve the 
last two, and hopefully beginning mid-summer, the State will be 
in a position to submit its plan which will kick off the 
Environmental Impact Statement/Environmental Impact Report 
process. A lot of the analysis is already being done waiting 
for the final plan to come in. I think there is still hope that 
within a year's time period, that there will be a draft on the 
street.
    Senator Feinstein. Another problem. Since 2007, quagga 
mussels have been inundating the Colorado River system. They 
were found within Lake Mead, and since then, everybody has been 
working to prevent them. I met with the metropolitan water 
district the other day. They were telling me how they had spent 
millions of dollars and these things are just in gobs along 
their lines. Each quagga reproduces a million mussels a year. 
You cannot kill them with cold water. They have to go in and 
scrape feet of quagga mussels piled up. And if it infiltrates 
the water system, we have really got a problem.
    How much activity within BOR is going on to really try to 
combat this mussel issue, because it is a huge one? The Met 
just e-mailed the staff. They spent $28 million total scraping 
these things off the pipes.
    Mr. Connor. Yes. It is quite a problem and unfortunately, 
it is one that is spreading. And that is where our initial 
actions are right now. Our initial actions are to work very 
closely with the State agencies in trying to educate the public 
about the potential for transferring quagga mussels between 
bodies. Right now, we used, I think, around $5 million of our 
Recovery Act money just to do a broad survey west-wide of our 
various facilities to try and get a grasp on the scope of the 
problem, trying to educate people so that the problem does not 
increase.
    With respect to actually dealing with them in the 
facilities that they are in, most of our activity has been 
related to research and development activity. We are trying to 
kill them through various means. We are trying to develop 
coatings that will maybe keep them off the infrastructure.
    Senator Feinstein. You mean by getting them high, Codeine?
    Mr. Connor. No, coating--C-O-A-T.
    Senator Feinstein. Oh, I thought you said codeine.
    Mr. Connor. It took me a second. I think that is good that 
I did not immediately react, coating.
    Senator Feinstein. Got it.
    Mr. Connor. That will hopefully inform us about how we can 
keep them off of some of the infrastructure. But they are 
already there, and as Metropolitan Water District (of Southern 
California) well knows, they are investing a lot of their 
operation and maintenance funds right now just to try and 
control the problem.
    Senator Feinstein. Well, thanks to Senator Alexander and 
our work on Interior, Lake Tahoe, which we are trying to do 
some work on and save, which is one of two last remaining clear 
water lakes, huge lakes, is beginning to be infiltrated. So 
there is a boat boycott, and every boat prior to going into 
Lake Tahoe has to be specially inspected and washed.
    So I do not know if you can come up with any of the things 
that can be done. They have to get in somewhere, and we have 
got to prevent them from getting in. I mean, with a lake that 
is relatively isolated, if these are carried like from Lake 
Mead on the bottom of a boat to Lake Tahoe, you can clean the 
boat. But we really need some help and Federal suggestions of 
what can be done because they are really going to destroy not 
only the Colorado water supply system, but also our Great 
Lakes.
    Mr. Connor. Right. I agree. I think the inspection 
stations, the education process, everything we are 
participating in with our State partners in that effort, but it 
is a growing problem that we need to pay more attention to.
    Senator Feinstein. Thank you very much.
    Senator Alexander.
    Senator Alexander. No thank you, Madam Chair.
    Senator Feinstein. No, thank you, you said, all right.
    Well, let me thank everybody. Let me particularly thank our 
witnesses. I think this was a very useful hearing. As Senator 
Alexander whispered to me, I am glad I am up here, not down 
there.
    At this time I would like to ask the subcommittee members 
to please submit any questions that they have for the record.

    <greek-l>COE deg.<greek-l>BOR deg.ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                  Question Submitted to Jo-Ellen Darcy
               Question Submitted by Senator Patty Murray

    Question. Assistant Secretary Darcy, I appreciate all you have done 
in your time with the Corps of Engineers (COE) and the good work of the 
districts that serve my home State of Washington. We are obviously 
facing very difficult budget times and unfortunately, the President's 
budget request reflects that for COE. Yet even as we face these hard 
times, COE has ongoing General Investigations that are routinely not 
included in the President's budget request, like the Elliott Bay 
Seawall GI or the Skagit River GI. Can you tell me how you plan to 
continue these important projects?
    Answer. All projects and studies are evaluated and considered for 
funding. However, only the highest-priority studies from a national 
perspective are proposed for funding. The Army has undertaken a broad 
effort to review the scope of active studies to ensure resources are 
appropriately aligned to complete those studies most likely to result 
in a high-performing project. For example, as part of this effort, the 
Skagit River study will be reviewed this year.
    The Army is working to finalize implementation guidance for section 
4096 of the Water Resources Development Act of 2007, which includes the 
determination of the feasibility of reducing future damage to the 
Elliott Bay Seawall from seismic activity. A Feasibility Scoping 
Meeting is scheduled for the project this fiscal year.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

  <GREEK-L>COE DEG.COMPLETION OF THE LEVEE SYSTEM FOR THE GREATER NEW 
                              ORLEANS AREA

    Question. On June 1, the city of New Orleans and the State of 
Louisiana will mark an historic and long-awaited milestone. The city 
that has given so much to this Nation--that is strategically located at 
the entrance to one of the world's largest river systems--will be 
protected against the ravages of a 100-year storm and flood event. The 
Corps of Engineers (COE) is to be commended for its work in completing 
this herculean task, but there are many questions left unanswered. 
Since the American people have invested nearly $15 billion in this 
effort, we have a serious responsibility to make sure this money is not 
wasted and that it will sustain a 100-year level of protection over the 
long term. I have a couple of questions on this point:
    Ms. Darcy, there is clear precedent in law and regulation for COE 
to assume operation and maintenance of navigation structures in 
federally navigable waterways. If COE does not have the legislative 
authority to operate the newly constructed structures along the Gulf 
Intracoastal Waterway, will the administration support legislation to 
give COE this authority?
    Answer. The hurricane risk reduction system in the Greater New 
Orleans area includes numerous floodgates, many of which cross roads, 
interstate highways, and navigation channels. The hurricane risk 
reduction floodgates crossing navigation channels are designed to have 
minimal interference upon navigation, unless there is a tropical event 
which requires their operation. Under current law, the Coastal 
Protection and Restoration Authority of Louisiana (LA-CPRA) is 
responsible for operating and maintaining all of the hurricane risk 
reduction system, including the floodgates. Two of the largest 
floodgates for the hurricane risk reduction system cross the Gulf 
Intracoastal Waterway (GIWW). Although these two surge gates are 
located across a Federal navigation channel, their purpose is to reduce 
the risk from storm surge and not for navigation. Requiring the State 
to be responsible for the costs of operation and maintenance is in 
keeping with requirements of Public Law 99-662, Public Law 109-234 and 
Public Law 110-252, all as amended.
    Furthermore, in keeping with the above legislative requirements, 
LA-CPRA has entered into Project Partnership Agreements and has agreed 
to be 100 percent responsible for the Operation and Maintenance of the 
hurricane risk reduction system project features. This applies to all 
features, including the pumping station and these two floodgates which 
cross the GIWW.
    Question. I understand from local levee officials that in order to 
maintain the 100-year level of protection, future ``lifts'' to increase 
the height of the levees will be needed in certain areas of the system. 
This will be caused by the settling of the material used to construct 
the levee and could be needed as early as next year. Will the 
administration budget for these critical needs and if so, why not?
    Answer. Public Law 109-234 and Public Law 110-252 authorized and 
funded COE to raise levee heights where necessary and otherwise enhance 
the existing Lake Pontchartrain and Vicinity project and the existing 
West Bank and Vicinity project to provide the level of protection 
necessary at the time of construction to achieve the certification 
required for participation in the National Flood Insurance Program 
(NFIP). Additional authority and funding would be required for the 
Federal Government to construct future levee lifts.
    Question. What do you estimate these needs to be, and how will it 
affect the certification of the overall levee system in New Orleans?
    Answer. The Greater New Orleans--Hurricane Storm Damage and Risk 
Reduction System will initially be accredited by the Federal Emergency 
Management Agency (FEMA) for a 10-year period. Current regulations 
require that FEMA to be notified if any part of the system fails to 
meet the certification requirements during the 10-year period.
    Additional authority and funding would be required to pursue 
construction of the future levee lifts and other additional measures on 
the Lake Pontchartrain and Vicinity project and the West Bank and 
Vicinity project to sustain FEMA system accreditation and participation 
in the NFIP in the future.
    The estimated cost for future levee lifts and other measures to 
sustain elevations necessary for system accreditation are not known at 
this time.
    Question. The Harbor Maintenance Trust Fund is authorized under the 
Harbor Maintenance Revenue Act of 1986 (Public Law 99-662, title XIV), 
as amended. Revenue is derived from a 0.125 percent ad valorem tax 
imposed upon commercial users of specified U.S. ports and investment 
interest. These funds are intended for the operation and maintenance of 
our ports and harbors--critical dredging that keeps these centers of 
navigation and commerce open for business. More than $1 billion is 
collected each year, and the total estimated balance in the fund this 
year is more than $7 billion. We have all of these funds, yet our ports 
and harbors are in desperate need of dredging. Why does the Harbor 
Maintenance Trust Fund carry billions in surplus when our critical 
ports and harbors are in desperate need of dredging funds?
    Answer. The balance in this trust fund, which has grown over a 
period of many years, reflects multiple factors, principally the value 
of goods subject to the harbor maintenance tax, the tax rate, the 
enacted spending levels, and the limitation in current law on the 
authorized uses of these receipts. In our view, the overall funding 
level that the Federal Government provides for maintenance dredging and 
related purposes should be determined independent of the level of the 
Harbor Maintenance Tax receipts. More specifically, the allocation of 
these funds should reflect consideration for the economic and safety 
return, as well as a comparison with other potential uses of the 
available funds.
    Our investments in coastal port maintenance are directed primarily 
at providing operational capabilities and efficiencies. To make the 
best use of these funds, COE evaluates and establishes priorities using 
objective criteria. These criteria include transportation cost-savings, 
risk reduction, and improved reliability--all relative to the cost. 
Consequently, maintenance work generally is focused more on the most 
heavily used commercial channels, which together carry about 90 percent 
of the total commercial cargo traveling through our coastal ports. 
However, many ports will experience draft limitations on vessels due to 
channel conditions, at least during parts of the year.
    While COE could spend more on harbor maintenance and related work, 
the amount proposed in the budget for this purpose, which is financed 
from this trust fund, is an appropriate level, considering the other 
responsibilities of COE for inland navigation, flood risk management, 
aquatic environmental restoration, hydropower, and the other Civil 
Works program areas. COE continues to develop analytical tools to help 
determine whether additional spending from this trust fund is warranted 
based on the economic and safety return, as well as a comparison with 
other potential uses of the available funds. Dredging costs continue to 
rise due to increases in fuel, steel, labor, and changes in methods of 
dredged material placement. We recognize that this presents challenges 
in maintaining commercial navigation projects.

        <GREEK-L>COE DEG.COASTAL RESTORATION AND PROTECTION--LCA

    Question. I am very encouraged that the President requested 
construction funding for coastal restoration in Louisiana in his fiscal 
year 2011 budget. After decades of study and planning, we will finally 
be turning dirt to restore and protect our fragile coast. I understand 
that this represents 1 of only 2 new starts recommended by the 
President, but I want to emphasis how critical it is that we use these 
funds wisely and efficiently. Ms. Darcy, I understand that this is a 
programmatic funding request.
    How does COE intend to capitalize on the fiscal year 2012 budget 
request and ensure that multiple projects have received the appropriate 
executive branch approval?
    Answer. The President's fiscal year 2012 budget includes $10.6 
million to begin construction under the Louisiana Coastal Area (LCA) 
ecosystem restoration program. The COE district office is working on 
several reports, and my staff is working with them to expedite the 
appropriate approval process.
    Question. Also, which specific LCA projects will receive funding 
this year and the coming fiscal years?
    Answer. Fiscal year 2012 funds will be used to continue 
construction of authorized restoration projects underway in fiscal year 
2011 with reports that have favorably completed executive branch 
review, to initiate one new construction phase, and to continue 
monitoring and other restoration-related activities. Potential 
construction in fiscal year 2013 could include project(s) from the LCA 
6 portfolio, Beneficial Use of Dredged Material Program (BUDMAT), and 
the Demonstration Program. The specific project(s) selected for fiscal 
year 2013 construction will be based upon funding available, approval 
of individual reports by the executive branch and execution of the 
necessary agreements with the State of Louisiana.
    In fiscal year 2014 and beyond, we foresee continuation of 
construction for projects within the LCA 6, BUDMAT, and Demonstration 
Program with the addition of projects from the LCA 4 and LCA 5 
portfolios.

           <GREEK-L>COE DEG.DREDGING NEEDS ON THE MISSISSIPPI

    Question. I have heard from a number of very concerned ports, 
businesses, and citizens about the navigability along the lower 
Mississippi River due to high water. The Mississippi is the central 
artery for navigation for nearly the entire Nation. As you know, 40 
percent of the entire continent is drained by the Mississippi River 
Delta. This drainage basin (approximately 1,234,700 square miles) 
covers about 40 percent of the United States and ranks as the fifth 
largest in the world. The inland waterways of the United States include 
more than 25,000 miles (40,000 km) of navigable waters. Much of the 
commercially important waterways of the United States consist of the 
Mississippi River system--the Mississippi River and connecting 
waterways.
    Do you have the funds you need to ensure that the Mississippi River 
remains open for business at the maximum authorized depths?
    Answer. The Army is committed to maintaining coastal navigation 
between the gulf and the ports of the New Orleans and Baton Rouge area. 
Funds to do so are included in the budget. The dredging needs on this 
part of the lower Mississippi River are difficult to predict, as they 
depend on flow conditions, sediment loads, and a variety of other 
factors, which vary each year as well as over the course of the year. 
COE continually monitors conditions on the river to ensure the most 
efficient use of available funds to minimize the need for any depth, 
speed or night-time restrictions.
    Question. How are you balancing this critical need with the needs 
that other essential waterways are facing across the State of Louisiana 
and the Nation?
    Answer. COE has a large inventory of navigation projects to 
maintain and seeks to provide levels of service that reliably and 
safely support freight movements in a way that provides the most 
overall value to the Nation from the available funds. Navigation 
projects were categorized as high, moderate, and low commercial 
navigation use based on tonnage. COE's approach involves a focus on the 
high and moderate commercial use navigation projects, which together 
move 99 percent of the Nation's waterborne commercial cargo. Generally, 
before providing more funding to a project, we consider whether we 
could achieve a greater return by applying those funds elsewhere. The 
low-use projects funded in the fiscal year 2012 budget were selected 
with the intent to optimize use of the available funding across a range 
of uses, with emphasis on harbors of refuge, subsistence harbors, 
projects with Coast Guard Search and Rescue stations, energy delivery 
projects where marine transportation is the only means to make the 
deliveries, and commercial navigation projects with less than 1 million 
tons of commercial cargo.

              <GREEK-L>COE DEG.INLAND WATERWAY TRUST FUND

    Question. The Inland Waterways Trust Fund is used to pay one-half 
of the costs associated with the construction, replacement, 
rehabilitation, and expansion of Federal inland waterways projects. 
There are dozens and dozens of critical locks and dams that are in a 
dramatic state of disrepair--including 1 in New Orleans that has been 
waiting for replacement for more than 50 years. I am strongly opposed 
to the administration's proposal of a new funding mechanism, which 
would replace the existing fuel tax.
    However, I am most interested in knowing how COE plans to address 
the massive backlog of projects on the inland waterway system. Ms. 
Darcy, how is your agency addressing this critical need?
    Answer. Neither the administration nor the inland navigation 
community is content with current funding levels. In the short-term, 
the administration has been budgeting for the capital costs of inland 
waterways projects based on the level of anticipated revenues from the 
current excise tax on inland waterways diesel fuel.
    Question. Do you believe changing the funding mechanism is the best 
way to address the problem in this economy?
    Answer. The administration is open to discussions on revisions to 
the existing funding mechanism as well as new funding mechanisms.
                                 ______
                                 
             Question Submitted by Senator Mitch McConnell

    Question. What funding levels are needed for fiscal year 2012 and 
fiscal year 2013 in order to maintain the Kentucky Lock project on its 
critical construction path?
    Answer. Two features of the Kentucky Lock and Dam project currently 
are underway: the superstructure feature (highway/railroad), which we 
expect to complete in December 2011, and the upstream lock monolith, 
for which we allocated funding under the American Recovery and 
Reinvestment Act of 2009. However, the Corps of Engineers (COE) does 
not plan to move forward with further work on Kentucky Lock and Dam 
project at this time due to the low level of the receipts to the Inland 
Waterways Trust Fund, as well as to the relative priority of these 
projects among the potential inland waterways capital investments. For 
example, the priorities of the Inland Waterways Users Board, which will 
be given due consideration in the formulation of future budgets, placed 
a higher priority for early construction on several other inland 
waterways projects and deferred completion of Kentucky Lock and Dam, as 
well as other projects. When the project is ready to resume, COE will 
develop a proposed schedule, after assessing the critical path toward 
completion at that time.
    Question. The inland waterway system has a number of lock and dam 
modernization projects whose construction completion dates have been 
significantly delayed and whose project construction costs have risen 
far beyond the levels originally authorized by the Congress for those 
projects. What do you believe the consequences will be of failing to 
adopt a workable, reasonable long-term capitalization plan to address 
this situation? Specifically, please speak to the specific long-term 
impacts to Olmsted Lock and Dam, Kentucky Lock, Wolf Creek Dam, and 
Greenup Lock and Dam projects without a capitalization plan.
    Answer. COE's program today is focused on the operation, 
maintenance, repair, rehabilitation, and replacement of major flood 
control and commercial navigation infrastructure systems, and the 
repair of aquatic ecosystems that COE projects have affected. The 
overall budget for the program is primarily devoted to maintaining 
these systems so that they can continue to provide economic, 
environmental and social benefits to the Nation.
    For example, an increasing proportion of our funding in recent 
years has been devoted to the maintenance and rehabilitation of 
existing infrastructure, primarily for flood risk management, but also 
for inland navigation projects. Similarly, the budget for the 
construction program gives priority to dam safety assurance, seepage 
control, and static instability control work (about $450-$500 million 
per year) to repair unsafe dam structures.
    The administration will be considering options for a comprehensive 
recapitalization policy for the Civil Works Program, but still is in 
the early stages of this effort, which will include an examination of 
current asset management tools and review of existing policies and 
authorities. It is anticipated that new authorities will be needed to 
ensure that the infrastructure continues to address the water resources 
priorities of the Nation.
    The projects you mention, and their costs, are not affected by the 
absence of a capitalization plan. The Olmsted Locks and Dam and the 
Wolf Creek Dam projects have received a priority for funding for many 
years. Their schedules and costs have changed principally due to a 
variety of other factors specific to those projects. For the Kentucky 
Lock and Dam project, we expect to complete the superstructure feature 
(highway/railroad) in December 2011. We also provided funding under the 
American Recovery and Reinvestment Act of 2009 for work on the upstream 
lock monolith. However, COE does not plan to move forward with further 
work on Kentucky Lock and Dam project or on the Greenup Locks and Dam 
project at this time due to the low level of the receipts to the Inland 
Waterways Trust Fund, as well as to the relative priority of these 
projects among the potential inland waterways capital investments.
    Question. Please provide an updated (to fiscal year 2011) 
``Benefits Foregone'' account of the economic cost to our Nation's 
economy due to lock and dam modernization projects that were not built 
using an efficient construction schedule (previous COE analysis 
attached).
    Answer. We no longer compile this information. It was inaccurate 
and misleading, as well as based on an unrealistic premise. However, we 
would be glad to provide it for any specific project, with appropriate 
qualifications.
    Question. What action is COE taking to be better stewards of 
taxpayer dollars?
    Answer. The budget focuses on the highest-performing projects and 
programs within the three main water resources missions of COE:
  --commercial navigation;
  --flood and storm damage reduction; and
  --aquatic ecosystem restoration.
    For example, the budget includes $51.78 million, more than a $40 
million increase, for a comprehensive levee safety initiative to help 
ensure that Federal levees are safe and to assist non-Federal parties 
to address safety issues with their levees. The budget also proposes to 
create savings and efficiencies through elimination of duplicative and 
lower-priority programs.
    Question. What is the estimated level of benefits not recoverable 
for the Olmsted project?
    Answer. The budget continues to place a high priority on the 
completion of this project. The primary benefits resulting from 
construction of the Olmsted Locks and Dam project (which also includes 
demolition of Locks and Dams 52 and 53) are vastly improved navigation 
transit at a key point on the Ohio River; coupled with significant 
decreases in current operation and maintenance costs due to the age and 
advanced deteriorated condition of Locks and Dams 52 and 53.
    COE, in its feasibility report, estimated that the construction of 
Olmsted Locks and Dam would reduce vessel transit costs and net Federal 
operation, maintenance, and repair costs by around $69 million per 
year. Operation and maintenance costs at Locks and Dams 52 and 53 
continue to increase. A failure event at either of these projects could 
close a key transit point on the river to navigation, with broad 
effects on commerce. This ongoing risk will increase until COE 
completes Olmsted Dam and the new locks are operational.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

    Question. My understanding is the Pacific Division of the Corps of 
Engineers (COE) found deficiencies on appeal with the Alaska District's 
rejection of Conoco's section 404 application to construct a bridge to 
access the National Petroleum Reserve. As you know, the Native Village 
of Nuiqsut and really all of the local stakeholders supported the 
collaborative process that led up to this modified proposal. On remand, 
is COE looking closely at the record for what the local subsistence 
community prefers?
    Answer. The district considered local support for Conoco's 
preferred alternative as part of its public interest review in the 
original decision. All relevant public interest factors were carefully 
evaluated and balanced. The decision whether to authorize a proposal, 
and under what conditions, is determined by the outcome of this general 
balancing process, subject to other legal requirements. The district 
determined that the district's record of decision did not clearly 
document their decisionmaking process with respect to the public 
interest determination. Therefore, while Pacific Ocean division did not 
remand to Alaska district for the single issue of local support, the 
remand did instruct the district to clearly document the balancing 
process.
    Further, local support for a project does not obviate the section 
404(b)(1) guidelines requirement that only the least environmentally 
damaging practicable alternative (LEDPA) may be permitted, so long as 
that alternative does not have other adverse environmental 
consequences. Based on the information provided to the district, 
Conoco's proposal was not determined to be the LEDPA.
    Question. Prior to the COE's rejection of Conoco's permit on 
February 5, 2010, the Environmental Protection Agency (EPA) had 
designated the Colville River Delta ``an aquatic resource of national 
importance.''--an aquatic resource of national importance (ARNI). Ms. 
Darcy, what is your definition of ``national importance?''
    Answer. The term ``ARNI'' is used in the process established under 
an ``inter-agency dispute resolution memorandum of agreement'' (MOA) 
developed under section 404(q) of the Clean Water Act. The current 
404(q) MOA was signed by the EPA, Department of the Interior (DOI), 
Department of Commerce (DOC), and my office in 1992. The MOA provides 
procedures and timeframes for resolving inter-agency disputes regarding 
permit applications, in an effort to make timely permit decisions. An 
ARNI is a resource-based threshold used to determine which individual 
permit cases can be elevated under the 404(q) procedures. Factors used 
in past elevations to identify an ARNI include diverse high-quality 
ecosystems, rarity and uniqueness, and economic importance for fish and 
wildlife species. In other words, the underlying concept is simply that 
impacts to particularly important aquatic resources should be carefully 
evaluated.
    Question. Has the EPA ever designated an ARNI in consultation with 
COE or any other agency, or the public? Is there any transparency to 
the designation?
    Answer. The term ARNI is only used on the context of a Clean Water 
Act (CWA) section 404(q) elevation under the 1992 MOA between EPA, DOI, 
and DOC, to identify those individual permit cases that may be elevated 
to my office for review. EPA does not ``designate'' an aquatic resource 
as an ARNI. Rather, it concludes that the aquatic resources and 
proposed impacts are significant enough to request review by my office 
as provided in the MOA.
    Question. If COE disagrees with the EPA's designation of an ARNI, 
does COE have any means of reversing or modifying the designation?
    Answer. The conclusion that the aquatic resources and proposed 
impacts are significant enough to request review by my office is not an 
official designation or decision that requires reversal or 
modification. The term ARNI refers to a criterion used by the resource 
agencies (EPA, DOC, DOI) to determine if an individual permit may be 
elevated under the CWA section 404(q) elevation procedures.
    A District Commander may not reject a resource agency's substantive 
conclusion regarding its determination that the aquatic resource 
impacted by the proposed project is an ARNI and that the impact will 
result in an unacceptable impact on ARNIs. The 404(q) MOA is intended 
to allow agencies to elevate certain applications to my office, after 
following the specified procedures and timeframes described in the MOA.
    Once my office receives the request for review of the individual 
permit application from a headquarters office of the agency (e.g., the 
EPA Assistant Administrator for Water), the permit decision is held in 
abeyance.
    My office does have the ability and authority to agree or disagree 
with the designation of an ARNI and with the determination that the 
project will result in substantial and unacceptable impacts to ARNIs 
after thorough review of the permit and the decision document, and in 
many instances after an on-site meeting.
    I understand that there are several examples where my office has in 
fact disagreed with the resource agency designation and/or the 
determination of substantial and unacceptable adverse effects to ARNIs. 
If this occurs, my office will inform the headquarters office of the 
agency that sought headquarters review of the permit application of my 
decision. The permit is not finalized during a period of 10 days 
following my decision so that EPA if it desires may initiate a review 
under its 404(c) authority.
    Question. If COE moves forward with granting section 404 clearance 
to proceed with a fill project even after EPA has designated an area an 
ARNI, would COE consider it likely that EPA would use its section 404 
authority to veto the project?
    Answer. Not necessarily. Since 1972, when the Congress enacted 
section 404, the EPA has only prohibited a proposed action, as provided 
in section 404(c), about 14 times. The decision to initiate a 404(c) 
action rests solely with the EPA, and is not tied to the concept of an 
ARNI.
    Question. With CD-5, COE had worked with Conoco, the State of 
Alaska, and the local community stakeholders since 2004 toward an 
agreement on accessing CD-5, only to ultimately deny the permit in 
2010. How can we in the Congress justify spending on such a process if 
we ultimately don't have a project?
    Answer. CWA requires the chemical, physical, and biological 
integrity of the Nation's waters be restored and maintained. In 
accordance with this statutory requirement, the regulatory program 
decisionmaking process involves an evaluation conducted pursuant to the 
CWA section 404(b)(1) guidelines and a public interest review. These 
requirements are intended to ensure that proposed discharges into 
waters of the United States are not contrary to the public interest and 
do not result in unacceptable adverse impacts to the aquatic 
environment. The regulatory process is informed by the applicant as 
well as information provided by State and Federal regulatory and 
resources agencies, the local community and other interested 
stakeholders.
    In the case of CD-5, COE worked with Conoco Phillips Alaska Inc. 
(CPAI), the State of Alaska, and the local community stakeholders since 
2004 toward identifying a proposal that could potentially be approved 
for a permit. During those years, CPAI requested the application review 
process be suspended on occasion, as they made changes to their 
proposed project; and so they could continue to work with the local 
community stakeholders to come to a local agreement about access to the 
CD-5 area without impacts to subsistence use and local jobs, and to 
provide mitigation/compensation for social impacts to those 
communities, to name a few. COE worked diligently with CPAI to find a 
way to avoid and minimize impacts to jurisdictional waters. In 
addition, COE made numerous requests for information that would allow 
them to evaluate portions of the CD-5 project. It is the applicant's 
responsibility to supply all required and necessary information and to 
clearly demonstrate that their proposal is the least environmentally 
damaging practicable alternative. CPAI did not provide the information 
required to rebut the presumption that another alternative with less 
environmental impacts on aquatic resources did not exist.
    It is the responsibility of the regulatory program to take an 
unbiased look at each and every project, weigh the detriments and 
benefits and make a decision based on the law and regulations, public 
interest factors, and the purpose and need for a project. The 
decisionmaking process ends in one of several ways:
  --permit issuance;
  --permit issuance with conditions;
  --the applicants' withdrawal of their application; or
  --permit denial.
    COE works with applicants and the agencies to protect aquatic 
resources by ensuring that project proposals avoid and minimize 
unnecessary impacts and mitigate for unavoidable impacts. This process 
enables the agency to make favorable decisions on 99 percent of the 
applications received, and works as the Congress intended.
    Question. Is it possible to build a bridge, perhaps one of higher 
elevation or with better placed supports, through an area with an ARNI 
designation?
    Answer. ARNI designation does not prohibit an activity or a 
discharge in these aquatic resources, including building a bridge 
through an area identified as an ARNI. COE recognizes that if the 
resource agencies identify an area as an ARNI, that this term implies 
that the resource may be high quality, rare, unique, or have economic 
importance for fish and wildlife species, and that proposed impacts to 
these important aquatic resources should be carefully evaluated.
    Section 404(b)(1) of the CWA requires that only the LEDPA may be 
permitted, so long as that alternative does not have other adverse 
environmental consequences. COE denied the permit because it determined 
based on information provided by the applicant, input from the public 
and Federal resource agencies that a roadless alternative with 
horizontal directional drilling (HDD) would be the LEDPA.
                                 ______
                                 
    Questions Submitted to Lieutenant General Robert L. Van Antwerp
            Questions Submitted by Senator Dianne Feinstein

             <GREEK-L>COE DEG.HARBOR MAINTENANCE TRUST FUND

    Question. It is my understanding that the Harbor Maintenance Trust 
Fund has a significant surplus. The budget request states the 
administration will be making a proposal concerning the Harbor 
Maintenance Trust Fund to the Congress. As I understand it, this 
proposal will allow other agencies that are conducting port related 
activities to charge those activities to the Trust Fund.
    Could you explain this proposal a little further?
    Answer. Several Federal programs support commercial coastal 
navigation (primarily Corps of Engineers [COE], Coast Guard, Federal 
Emergency Management Agency [FEMA], Customs, National Oceanic and 
Atmospheric Administration, and Department of Transportation), in a 
variety of ways. The fiscal year 2012 budget proposes to expand the 
authorized uses of the Harbor Maintenance Trust Fund (Trust Fund) 
receipts, so that they are available both for harbor maintenance and to 
finance the Federal share of other Federal activities that support 
commercial navigation through our ports. Spending would continue to be 
subject to annual appropriations decisions, just financed from the 
Trust Fund instead of the General Fund. The proposal would not limit 
the amount of annual spending for any specific purpose or program, such 
as harbor maintenance.
    Question. How does this proposal improve our Nation's harbors? It 
sounds like the same things will be accomplished but accounting for the 
costs will be different. Am I missing something?
    Answer. The proposal would support investments that contribute to 
the strength of the American economy. It would facilitate the 
development of a comprehensive investment strategy, improve the 
allocation of resources to and among multiple agencies, and provide 
transparency on the extent of the Federal support.
    Question. Won't this rapidly deplete the Trust Fund balance?
    Answer. The proposal is still under development. We expect the 
Trust Fund to retain a workable balance. We would work with the 
Congress to decide which other Federal coastal navigation efforts are 
covered. The extent of the long-term effect on the size of the Trust 
Fund balance would depend upon which other Federal activities are 
included.
    Question. When the trust fund is depleted by these new activities, 
how will we maintain the harbors and waterways that are currently 
funded through the Trust Fund?
    Answer. We expect the trust fund to retain a workable balance. 
However, if it were to be depleted at some future date, the Congress 
would then decide how to fund the Federal coastal navigation efforts, 
including those of COE.
    Question. Assuming these other activities will continue to be 
funded from the Trust Fund, will maintenance of these waterways be 
further restricted due to lack of funding in the Trust Fund?
    Answer. That is not our intent or expectation. In fact, there could 
be more dredging under the proposal. In our view, the overall funding 
level that the Federal Government provides to COE for maintenance 
dredging and related purposes should be determined independent of the 
level of the Harbor Maintenance Tax receipts. More specifically, the 
allocation of these funds should reflect consideration for the economic 
and safety return, as well as a comparison with other potential uses of 
the available funds.
    Question. The budget request states a number of times that you are 
addressing the highest-priority needs. It is also my understanding that 
the budget proposal does not provide for full authorized widths and 
depths to be maintained at any harbor maintained by COE. Has there been 
any calculation of the economic impacts by not fully dredging all of 
Nation's ports?
    Answer. There has been no calculation of the economic impacts of 
not fully dredging all of the Nation's ports. Maintenance of existing 
navigation channels to fully authorized dimensions would reduce the 
cost of some ship movements, but would not necessarily increase the 
total throughput capacity of the ports. The fiscal year 2012 budget for 
COE includes $758 million from the Trust Fund to support the 
maintenance of coastal harbors and their channels and related work. To 
make the best use of these funds, COE evaluates and establishes 
priorities using objective criteria. These criteria include 
transportation cost-savings, risk reduction, and improved reliability--
all relative to the cost. Our objective is to provide operational 
capabilities and efficiencies, with a focus on the most heavily used 
commercial channels (carrying more than 10 million tons of cargo/year), 
which together carry about 90 percent of the total commercial cargo 
traveling through our coastal ports.
    Question. It would seem that if the administration goal is to 
double exports, that fully dredging our ports and waterways would be an 
essential step in making this goal a reality. Am I missing something?
    Answer. Maintenance of existing navigation channels to fully 
authorized dimensions would reduce the cost of some ship movements, but 
would not necessarily increase the total throughput capacity of the 
ports. The fiscal year 2012 budget for COE gives priority to the 
maintenance of the Nation's large deep-draft harbors. The budget also 
includes $65 million for the ongoing deepening of the port of New York/
New Jersey; $42 million for construction/expansion of dredged material 
placement facilities at the ports of Norfolk, Virginia; Savannah, 
Georgia; and Jacksonville and Tampa, Florida in order to continue 
maintenance of the deep draft channels serving these ports; $600,000 
for preconstruction engineering design of Savannah Harbor expansion, 
Georgia; and $726,000 for a channel improvement study at Brazos Island 
Harbor (Brownsville), Texas.

                      <GREEK-L>COE DEG.DAM SAFETY

    Question. Dam safety is of critical importance to our Nation and 
particularly California. Currently there are three dams in California 
in the most at-risk category.
    Could you explain COE's criteria on how projects are ranked related 
to risk?
    Answer. COE uses a dam safety portfolio management process that 
continually monitors and assesses the condition and risk associated 
with all COE dams and assigns a Dam Safety Action Classification 
(DSAC). The priority for funding is focused on addressing the highest-
risk dams with the most cost-effective risk reduction alternatives for 
all DSAC I, II, and III projects. DSAC I dams have been determined to 
have a confirmed urgent and compelling issue that requires taking 
immediate and expedited actions to reduce and manage the risk. 
Therefore, DSAC I dams with life safety consequences are given first 
priority. For prioritization within DSAC II and III projects, 
significant weight is given to the quantitative tolerable risk 
guidelines, but other nonquantitative considerations, including As Low 
as Reasonably Practical (ALARP), are also used for a more complete 
basis. The greater the estimated annual probability of failure and the 
further the estimated life risk is above the tolerable risk limit, then 
the greater the urgency to act. Further detail on ranking criteria is 
available in Draft ER1110-2-1156, Chapter 6.3. Draft version of ER 
1110-2-1156 has been released as interim guidance to the field. The 
regulation is available for download at http://www.usace.army.mil/CECW/
Documents/cecwe/er1100_2_1156_1nov10.pdf.
    Question. Can you explain what risks these dams and the people 
below them are facing and what actions are taken to reduce risks while 
studies are undertaken and corrective plans formulated?
    Answer. COE executes its project purposes guided by its commitment 
and responsibility to public safety. It is after public safety 
tolerable risk guidelines are met that other purposes and objectives 
are considered. COE dams are geographically widely spread across the 
Nation and exhibit varying degrees of deficiency and life-safety risk. 
Interim Risk Reduction Measure Plans (IRRMP) are the key documents that 
frame operational decisionmaking for high-risk dams (DSAC I, II, and 
III). Structural and nonstructural alternatives for the interim risk 
reduction measures are evaluated for effectiveness to reduce the 
probability of failure and/or consequences associated with the failure 
modes. Reservoir pool restrictions, modification of reservoir 
regulation plan, and updating of Emergency Action Plans (EAPs) are 
always evaluated as options. The IRRMPs establish the specific 
threshold events, decision points, and actions required. COE discusses 
issues consistently and openly with affected stakeholders upstream and 
downstream of our structures.
    Question. These studies seem to take an inordinately long time, 
particularly for high-risk dams. For instance, Lake Isabella in my home 
State has been under study for the last 6 years. Isn't there a way to 
accelerate these studies so the remediation work can get started?
    Answer. The risk-informed approach that COE is implementing will 
allow focus on our most critical deficiencies. This focus will provide 
a more expedited repair to our worst issues. Given the multiple 
purposes of most COE dams and the long-term benefits provided, the 
projects will still require thorough analysis of any modification to 
assure public safety by modification to the dam. Dam analysis and 
designs are complex technical efforts. Risk assessments must be 
performed to understand the extent of a problem and to evaluate options 
to fix the dams. In many cases, COE dams have multiple deficiencies 
which increase the complexity of repair.
    Question. Your budget proposes $436.7 million for repairs to 10 
projects and an additional $37.2 million to continues studies on other 
dams that have various risk ratings. Repairs on some of these projects 
are multi-year and, in many cases, extremely expensive--with the 
repairs often costing more than the original dams. Does COE have 
additional capability for dam safety work in fiscal year 2012?
    Answer. All DSAC I projects that are ready for construction, and 
some DSAC II projects, are funded at the maximum rate that COE can 
efficiently and effectively use funds. Decisions on the funding for 
other dam safety projects (other DSAC II projects and all DSAC III 
projects) include consideration of budgetary and technical resources as 
well as other factors.
    Question. Your budget proposes $27.6 million for evaluation studies 
and lists 100 different dams where these studies would be conducted. 
That works out to about $275,000 per study. That seems very low. Can 
you explain this better?
    Answer. The fiscal year 2012 budget will progress study efforts at 
73 projects with levels of effort ranging from $50,000 to $800,000. The 
prioritization and funding amount is re-evaluated quarterly to adjust 
to incidents, study progress, successful performance during flood 
events, and other relevant information.
    Question. Is this a list of potential studies that will be 
undertaken or will all 100 be underway in fiscal year 2012?
    Is it also fair to assume that when these projects were formulated 
prior to authorization and construction, that the 50-year maintenance 
costs were factored into the benefit cost ratio that led to their 
authorization and construction?
    Answer. An estimate of the 50-year maintenance costs has been 
factored into the benefit-cost ratios for projects proposed by COE 
under the 1983 Principles and Guidelines and prior planning guidance.
    Question. Further, the budget request proposed $9.5 million to 
undertake post-evaluation work. However, there is no description of 
what this post evaluation work is or which projects it would be 
undertaken on. Can you provide some more information?
    Answer. Dam Safety Modification reports for Addicks and Barker Dams 
(DSAC Is) are scheduled to be approved in fiscal year 2012 and Pre-
Construction Engineering & Design (PED) for these dams will be 
initiated in fiscal year 2012. COE is initiating PED and some limited 
site preparation construction on Bolivar and East Branch Dams (DSAC 
IIs) that have approved Dam Safety Modification reports, but that will 
not be funded for construction until fiscal year 2013.
    Question. With the number of dams that are considered high risk and 
the decline of your budget request over the last 3 years, how are your 
future budgets going to be able to accommodate these increasing costs?
    Answer. The Army manages risks across a broad portfolio of 
structures, with the objective of reducing the overall portfolio risk. 
The decision on priorities in project queues is risk informed and 
performed from a national perspective. Over much a longer period than 
just the past 3 years, the budget has consistently funded all DSAC I 
projects and some DSAC II projects at the maximum rate that COE can 
efficiently and effectively use funds.
    There are 10 continuing DSAC I and II dam safety projects funded in 
the fiscal year 2012 budget for a total of $436.7 million. This funding 
is allocated within the construction appropriation. As additional high-
risk dams are identified we will work to address them as well. We 
expect to continue funding all DSAC I projects that are ready for 
construction, and some DSAC II projects, at the maximum rate that COE 
can efficiently and effectively use funds.

                      <GREEK-L>COE DEG.SMALL PORTS

    Question. Your budget request cuts funding to many small ports and 
harbors across the country. Can you tell us a little about the criteria 
used to determine those cuts?
    Answer. Navigation projects were categorized as high, moderate, and 
low commercial navigation use based on commercial tonnage. Funding is 
focused on high and moderate navigation projects (coastal projects 
carrying at least 1 million tons of cargo and inland waterways with at 
least 1 billion ton-miles of traffic), which move 99 percent of the 
Nation's waterborne commercial cargo. The low-use projects funded in 
the fiscal year 2012 budget were selected with the intent to optimize 
use of the available funds for such projects across a range of uses 
including critical harbors of refuge, subsistence harbors, projects 
with Coast Guard Search and Rescue stations, energy-delivery projects 
such as home heating oil where marine transportation is the only means 
to make the deliveries and navigation projects with significant, albeit 
less than 1 million tons of commercial cargo.
    Question. Was the criteria that you used for determining your 
budgetary priorities for fiscal year 2012 contemplated when these 
projects were originally formulated, authorized and constructed?
    Answer. No. The prioritization criteria for the Operation and 
Maintenance program consider the current use of a project and a variety 
of other factors, in order to assess how the return on a further 
investment to the Nation in maintenance compares with other potential 
uses of those funds.
    Question. Was it safe to assume that if the project was 
economically justified, that the administration would budget for 
maintenance of the project as appropriate?
    Answer. No. However, if the construction of the project was found 
by the executive branch to be economically justified at that time, the 
administration generally will consider the project for funding.
    Question. Can we, for argument's sake, assume that nearly all the 
projects that were not budgeted in fiscal year 2012 were economically 
justified, when construction was completed?
    Answer. No. Many projects were authorized without an approved COE 
report. Others are not being funded due to policy concerns that arose 
prior to their construction.
    Question. This would mean that all of these unbudgeted projects 
were determined to accrue benefits to the national, as well as, the 
regional and local economies, am I correct?
    Answer. Many, but not all, of the projects would have a COE report 
that estimates that the project would accrue net benefits. However, key 
assumptions in these reports may be open to question. For example, 
benefit estimates for a proposed navigation project generally rely on a 
speculative projection of future traffic levels.
    Question. Was there any analysis to determine if the ports were 
moving the tonnage projected in the documents that led to authorization 
and construction of the projects?
    Answer. COE has not conducted such an analysis as this would be a 
large undertaking for an inventory of more than 1,000 navigation 
projects.
    Question. It would seem to me that if a port was meeting its 
tonnage projections, that it would most likely be meeting the economic 
projections from the original analysis conducted prior to 
authorization. Is it safe to assume that some of these small ports 
would have had small tonnage amounts projected, but yet were still 
considered economically justified?
    Answer. Some of these ports would have been justified based on 
tonnage projections. However, even where the tonnage is on track with 
projections, dredging costs have increased dramatically since many 
projects were authorized. Also, the economic analysis in these reports 
generally does not account for the effects of funding limitations.
    Question. Then how can you not budget for a port that is meeting 
tonnage projections?
    Answer. The fiscal year 2012 budget seeks to allocate the available 
Federal funds to the activities that will have the highest return on 
investment to the Nation.
    Question. Was there any analysis of the impacts to the national, 
regional, and local economies of not funding these ports and harbors in 
your budget?
    Answer. No, this would be a large undertaking with an inventory of 
more than 1,000 projects.
    Question. It appears that your criteria being based solely on 
tonnage would put many ports at a disadvantage to even be considered 
for funding. How do you justify this criteria?
    Answer. While most economists agree tonnage is not a direct measure 
of the economic benefit, it is a good first-order approximation and 
there is little agreement on an alternative.
    Question. Wouldn't some type of economic analysis be in order to 
determine the value of these ports to the national, State, and local 
economies rather than basing your decision solely on tonnage?
    Answer. We are working to allocate the funds as best as possible. 
There is also a cost associated with more analysis. However, COE 
continues to develop analytical tools to help determine whether 
additional spending for harbor maintenance and related activities is 
warranted based on the economic and safety return, as well as a 
comparison with other potential uses of the available funds.
    Question. Wouldn't the economic value of these ports be a better 
indicator of where maintenance funding should be concentrated?
    Answer. We are open to considering other factors. However, in 
allocating maintenance funds, we are mostly trying to find the best use 
of an incremental investment above or below the amounts that we are, or 
are not, already providing.

                      <GREEK-L>COE DEG.NEW STARTS

    Question. For fiscal year 2011 you proposed two new construction 
starts for a total of $29 million. These two starts, if they are 
started, require outyear funding in excess of nearly $2 billion. For 
fiscal year 2012, you have proposed two more new construction starts 
that will require outyear funding in excess of $120 million. With the 
declines in your budget requests that have been recommended in the last 
3 years, how do you expect these projects to be funded in future years?
    Answer. In the out-years, they would continue to compete for 
funding, as they did successfully in the development of the fiscal year 
2011 and fiscal year 2012 budgets. Also, the $2 billion total for the 
two fiscal year 2011 new construction starts mostly reflects the cost 
of authorized work under the Louisiana Coastal Area ecosystem 
restoration program to address the effects of large and continuing 
wetland losses on the ecosystem. Each year of delay could complicate 
the long-term restoration effort.
    Question. How were the two ``new starts'' in the President's budget 
selected? What criteria were used?
    Answer. Raritan to Sandy Hook (Port Monmouth), New Jersey, 
qualifies as a ``Risk to Life'' new start. This project addresses a 
significant risk to human safety and damage to property resulting from 
increased flood exposure, shoreline erosion, and increased exposure of 
the shore and inland areas to tidal inundation and wave attack damages. 
This increased exposure, combined with runoff from coastal creeks, 
results in increased danger of high flood depths and water velocities 
with little warning time.
    Hamilton City, California qualifies as an ecosystem restoration new 
start predominantly because it connects four other restored 
environmental areas, thereby providing a larger continual habitat 
corridor. This project will also provide ancillary flood risk 
management benefits to Hamilton City and nearby agricultural lands.
    Question. The new study starts that you have proposed are all 
ecosystem restoration studies. Are there no new flood control or 
navigation studies that warrant the administration's support?
    Answer. While there are many potential flood control and navigation 
new study starts, the four new study starts proposed for the budget 
were considered to be a higher priority.
    Question. What did the administration hope to demonstrate through 
selection of these particular projects?
    Answer. The four new studies (in addition to those proposed in 
fiscal year 2011) include:
  --Englebright and Daguerre Point Dams (Yuba River) Fish Passage, 
        California;
  --Cano Martin Pena, Puerto Rico;
  --the Chesapeake Bay Comprehensive Plan; and
  --the Louisiana Coastal Area Comprehensive Study.
    Three of these studies were proposed as new starts because they 
will examine ways to contribute to restoration and increased 
sustainability of ecosystems that were part of last year's interagency 
collaborative planning initiative. The study of Cano Martin Pena, 
Puerto Rico will examine ways to provide critical estuarine habitat 
restoration and move people out of a floodway.
    Question. It is my understanding that more than half of the Chief 
of Engineers reports expected to be submitted to the Congress this year 
are ecosystem restoration studies. Doesn't this indicate an unbalanced 
program if the majority of studies being produced are for ecosystem 
restoration rather than the more traditional COE's missions of flood 
control and navigation?
    Answer. The distribution of Chief's reports among mission areas 
will vary year to year. The number of reports in any one year is not an 
appropriate indicator of the makeup of the construction program. Also, 
the budget funds studies and preconstruction engineering and design 
work for many proposed flood control and navigation projects.

                   <GREEK-L>COE DEG.LEVEE VEGETATION

    Question. COE is developing new national policies for the allowance 
and/or removal of trees and other vegetation from levee projects. 
Meanwhile, COE has participated in a collaborative effort with the 
State of California to develop vegetation-removal guidelines for the 
Central Valley. This collaborative effort holds promise for reaching a 
reasonable and balanced program for assuring levee integrity and, at 
the same time, taking into consideration unique circumstances and 
resources found in many areas in the Central Valley, and COE's past 
involvement with the region's levees. What is the proposed timing on a 
revised draft vegetation variance process and when does COE plan to 
have a final policy?
    Answer. COE's goal is to work with resource agencies, such as the 
National Marine Fisheries Service, U.S. Fish and Wildlife Service, and 
the Environmental Protection Agency, and levee owners to transition 
noncompliant levees to COE standards, including vegetation standards. 
Achieving this goal will allow us to jointly maintain public safety, 
ensure eligibility under Public Law 84-99 for assistance in making 
repairs after a flood, and comply with Federal environmental laws.
    Noncompliant levee vegetation may affect the safety, structural 
integrity and function of the levees, could obstruct visibility for 
inspections, impede access for maintenance, and could block emergency 
flood fighting operations. Clear vegetation policies, standards, and 
practices are critical to an effective life-cycle flood risk management 
program.
    The vegetation variance policy referenced in the question was 
originally issued in 1997 to implement section 202(g) of the Water 
Resources Development Act of 1996. The policy recognizes that there may 
be some instances where vegetation may preserve, protect or enhance 
natural resources and/or protect the rights of Native Americans. This 
variance process is designed to accommodate those special cases when it 
is possible to do so while still maintaining the safety, structural 
integrity and function of the levees, and allowing access for 
inspection and flood fighting. In August 2009, COE began revising this 
vegetation variance request process to reflect current organizational 
changes and levee safety program principles such as utilizing agency 
technical reviews, applying a systems approach, and ensuring COE levee 
safety technical leads are part of the process.
    Due to strong interest from sponsors in how changes to this 
vegetation variance request process may impact them, COE solicited 
comments on the proposed revisions through the Federal Register, with a 
notice and comment period from February 9, 2010 to April 26, 2010. COE 
received more than 500 comments from more than 100 separate 
organizations and individuals. As a next step, COE is considering 
whether to post, for the second time, a revised draft vegetation 
variance request policy for public comment.
    Question. Out of the hundreds or thousands of levee failures over 
the years, how many (and what percent) were caused by vegetation on a 
levee?
    Answer. It is very difficult to determine after the fact whether 
one factor, such as vegetation, can be attributed to the cause of a 
levee breach, unless it was observed, documented, and studied during 
the actual failure. Because direct impacts of vegetation on levees 
cannot be quantified, potential impacts are based on field 
observations. COE is aware of instances in which vegetation has been a 
hindrance to inspections, monitoring, and flood fighting during a flood 
event. Moreover, vegetation can obstruct the ability to detect 
indicators for a potential levee breach, such as seepage.
    Question. As part of the vegetation variance process, is COE 
willing to consider regional variances which address vegetation 
management within the context of unique geographic settings such as 
exist in California?
    Answer. COE recognizes that just as no two regions are the same 
ecologically, no two levee systems are the same from an engineering 
perspective. The current draft policies allow for the consideration of 
the unique engineering and environmental context of particular levee 
systems to develop vegetation management solutions that address both 
levee safety and natural resource requirements. The ultimate goal is to 
work with resource agencies and levee owners to transition noncompliant 
levees to COE's standards, which may include obtaining vegetation 
variances or identification of other solutions to fit the specific 
regional conditions. For example, since 2008, COE and California have 
been engaged in the California Levee Roundtable, a collaborative 
partnership of Federal, State, and local organizations that facilitates 
the consideration of the local environmental and engineering context to 
develop systemwide levee solutions throughout the region. COE hopes to 
be able to continue this collaborative process with willing State 
participants.
    Question. Is COE willing to consider regional variances which 
prioritize vegetation management with respect to all risk factors, 
without inhibiting or delaying the remediation of higher-priority risk 
factors?
    Answer. COE supports prioritizing how and when levee deficiencies 
are addressed based on risk. This approach has been integrated into the 
COE systemwide improvement framework policy. This policy provides an 
opportunity for local levee authorities to use an interagency approach 
to identify solutions that optimize resources, and to sequence 
improvements and corrective actions based on risk. This approach is 
available to the Central Valley levees through the California Levee 
Roundtable.
    Question. Is COE willing to consider regional variances which 
provide clear guidance on the level of detail needed for a variance, 
how that detail will be evaluated, and an appeal procedure should COE 
and the local sponsor disagree on the outcome of the process?
    Answer. The most recent revisions to the draft vegetation variance 
process are designed as a collaborative approach through which there 
will be early determination on the most viable approach to meeting COE 
policies and standards while complying with applicable laws, 
regulations, and treaties. The intent is that any conflicts or issues 
should be raised and resolved during the collaborative process as 
opposed to having a formal appeal process. As such, it is likely that a 
decision to pursue a vegetation variance could be identified early in 
the process, diminishing the need for extensive environmental and 
engineering analysis. For situations in which the levee sponsor would 
like to pursue a vegetation variance request, more detail has been 
added to the technical requirements in the draft policy so the levee 
sponsor can better estimate the cost requirements. Though the review 
and approval process remains the same, COE believes these steps are 
necessary to make a well-informed decision about a levee system that is 
providing economic and safety benefits to the public living behind the 
levee.
    Question. How does COE intend to evaluate, disclose, and address 
the impacts of this process on the environment and endangered species 
impacts?
    Answer. COE recognizes that in carrying out its responsibility to 
promote safety and reduce the risk of damage to property through 
structurally sound levees, the agency must address environmental and 
natural resource needs through compliance with all applicable laws, 
regulations, and treaties. COE will comply with all applicable 
environmental requirements in implementing the policy for requesting a 
variance from COE vegetation management standards for levees and 
floodwalls.
    COE believes that the best approach is to review the environmental 
impacts of the application of specific standards as they are applied to 
site-specific circumstances. With this approach, COE recognizes that 
each levee is a unique flood risk reduction system that operates within 
the broader and equally unique local ecosystem. This approach also 
recognizes that the analysis of potential environmental impacts is 
dependent upon future, undetermined actions and decisions of the levee 
sponsors who operate and maintain the levee systems.
    When environmental requirements are triggered as COE makes 
decisions on the inspection standards applied to specific levee 
systems, the COE will work closely with the levee sponsors, appropriate 
resource agencies and tribes, as well as other interested parties to 
complete the required environmental compliance.
    Question. Many encroachments that do not comply to new policies, 
including but not limited to trees, in California's levee systems were 
either installed, permitted, or required by COE. In other cases the 
encroachments existed at the time the completed Federal project was 
turned over to non-Federal sponsors for operation and maintenance. 
Under COE's new policies (or new implementation of old policies) how 
will the COE's share responsibility for addressing the construction and 
environmental costs of compliance?
    Answer. ``Encroachments'' are features such as fences and utility 
lines requested by the non-Federal sponsor to be added within the levee 
system project real-estate easement after project completion. 
Encroachments and vegetation are handled differently under COE 
policies. COE has a well-defined encroachment permit process. 
Unpermitted encroachments will be the responsibility of the non-Federal 
sponsor to correct, including construction costs and environmental 
compliance. For vegetation, related policies are still under review and 
not yet final. However, in the final policy COE intends to clearly 
identify responsibilities of the non-Federal sponsor and COE, including 
situations when COE will be responsible for addressing the cost of the 
vegetation (both corrective actions and environmental compliance).
    Question. California's Department of Water Resources (DWR) 
developed a rough cost estimate that compliance with COE's vegetation 
guidance would cost about $7 billion for 1,600 miles of Federal levees 
in the Central Valley. If that is correct, would you think that 
compliance is a good investment?
    Answer. The California DWR also has said that given the overall 
condition of the levees in the Central Valley, higher-risk deficiencies 
such as underseepage, structural instability, and erosion should be 
addressed first. In general, COE agrees with this assessment. COE 
supports DWR's goal to leverage resources by prioritizing levee 
remediation in order to maximize improving safety. COE is currently 
working with DWR to incorporate such prioritization as part of the 
State's long-term strategy for levee improvements that will be outlined 
in the California Central Valley Flood Protection Plan.
    Question. Does COE have its own cost estimates for compliance with 
its vegetation guidance?
    Answer. No, meeting COE vegetation management standards is an 
operation and maintenance responsibility typically implemented by a 
local levee sponsor.
    Question. Will section 104 credit and section 408 approval be 
available for projects that do not meet the Levee Vegetation ETL, as 
long as non-Federal partners are addressing higher-risk factors. How 
will this be manifested in COE processes?
    Answer. COE supports modifications that will improve the levee 
system and recognizes it may not be possible for a local levee sponsor 
to address all deficiencies at one time. The determination for credit 
(now considered under section 2003 of WRDA 2007, not section 104) or 
section 408 approval for levees that do not meet COE standards for 
vegetation will be evaluated on a case-by-case basis. Further, the 
vegetation variance request process and the section 408 approval 
process can be combined where appropriate.

                  <GREEK-L>COE DEG.LEVEE CERTIFICATION

    Question. It is my understanding that you have or are planning to 
implement an engineering circular entitled ``USACE Process for the 
National Flood Insurance Program Levee System Evaluation''. This EC for 
the first time establishes a 10-year time limit for levee 
certification.
    Can you tell us how you arrived at this 10-year limit, whether 
stakeholders were involved in that process?
    Answer. Currently there is no FEMA requirement for periodic review 
of levee certifications. Until FEMA policy is established, it is 
recommended that, for every certification issued by COE after 10 years, 
the certification should be reviewed or verified. Flood risk and levee 
conditions can change over time and it is important to ensure that a 
levee still meets expected requirements. The 10 years is to serve as a 
maximum timeframe between certification determinations. A certification 
can be reviewed any time before the 10 years, if it is of professional 
opinion there are indications that the project may no longer meet levee 
certification requirements. Throughout development of this EC, 
stakeholders were provided opportunities to provide input.
    Question. What do you see as the process going forward for those 
levees whose certification is older than 10 years, and can you give us 
a sense of how this decertification effort will impact COE's civil 
works budget?
    Answer. It is a local community's responsibility to provide FEMA 
documentation that a levee meets NFIP criteria for flood mapping 
purposes. COE does not anticipate any impacts from this effort on the 
Civil Works budget because we do not budget for levee certification.
             <greek-l>coe deg.california-specific questions
    Question. The U.S. Geological Survey (USGS) has told my office that 
there is a high probability that a moderate to severe earthquake could 
lead to the failure of more than one-half of the levees in the 
Sacramento Delta. According to the 2009 Delta Risk Management Strategy 
developed by the California DWR using USGS data: ``an earthquake of 
magnitude 6.7 or greater has a 62 percent probability of occurring in 
the San Francisco Bay Area between 2003 and 2032. Such an earthquake is 
capable of causing multiple levee failures in the Delta region which 
could result in fatalities, extensive property damage and the 
interruption of water exports from the Delta for an extended period of 
time.''
    What actions has COE taken to reduce the risk of major, multiple 
levee failures in the Sacramento Delta?
    Answer. COE is partnering with the State of California and the 
Bureau of Reclamation (BOR) as described below on the following 
initiatives related to improving the levee system in the Sacramento-San 
Joaquin Bay-Delta:
      Geographic Information System (GIS) Contingency Mapping and 
        Emergency Response Planning.--A Memorandum of Agreement (MOA) 
        was signed between COE and the California Department of Water 
        Resources (DWR), allowing COE and DWR to initiate phase 1 of 
        GIS Flood Contingency Mapping and Emergency Response Planning 
        for the Delta region. The team met with Delta counties in 
        August 2010 to gather input on concepts for the GIS products, 
        response report, and related data. The second round of meetings 
        were held in November 2010 to present the 35 percent complete 
        product, validate data collected thus far, and gather 
        additional information from county and RD representatives. 
        During July 2011, the PDT met with State and local 
        representatives to review the 65 percent product. The 100 
        percent product is expected in fall 2011. This will constitute 
        the end of our phase I of GIS Flood Contingency Mapping and 
        Emergency Response Planning for the Delta region. The products 
        will be immediately useful for emergency response planning and 
        will include:
    --Standardized GIS database of Emergency Management data;
    --Flood Contingency Map Books and large-scale wall maps of the 
            Delta region; and
    --An accompanying report documenting the existing framework, 
            existing data, and any potential data gaps.
      In May 2011, COE, along with other State, Federal, and local 
        agencies, participated in the California Emergency Management 
        Agency-led 2011 Golden Guardian Exercise. This year included a 
        3-day Full Scale Exercise based on a major flood in 
        California's Inland Region (Delta).
      Delta Islands and Levees Feasibility Study.--The Delta Islands 
        and Levees Feasibility Study (Delta Study) is a cost-shared 
        study to explore potential solutions to address ecosystem 
        restoration needs, flood risk management problems, and related 
        water resources issues in the Delta and Suisun Marsh area. The 
        President's fiscal year 2012 budget includes $1.015 million for 
        this feasibility study. A Feasibility Cost Share Agreement 
        (FCSA) was executed in May 2006 with the California DWR, the 
        non-Federal sponsor. The COE-DWR study team meets regularly to 
        move the study forward and holds periodic Agency Coordination 
        Meetings with associated Federal, State and local agencies, 
        including BOR.
      On August 11, 2011, COE will participate in an interagency 
        meeting to discuss preliminary Sacramento--San Joaquin Delta 
        Modeling. The objective of this modeling is ``to develop 
        representative hydrodynamic, sediment transport, water quality, 
        and ecosystem models that enable COE's Sacramento District to, 
        with solid scientific support, understand the system-wide 
        impact of natural and purposeful changes to the Delta and allow 
        it to proactively manage these vital water resources.'' We 
        expect the basic model to be completed by December 2011. This 
        will be a useful tool to aid project planning and emergency 
        response planning in the Delta.
      The feasibility study will culminate in a feasibility report that 
        will make recommendations on possible solutions and next steps.
      Interagency Federal Action Plan.--On a broader level, COE 
        supports the Interagency Interim Federal Action Plan for the 
        Bay-Delta (December 2009) and its Update (November 2010). The 
        Action Plan consists of studies, programs, and actions that 
        address essential Bay-Delta issues including helping to ensure 
        integrated flood risk management. The Bay Delta Conservation 
        Plan (BDCP) has been identified as a priority effort by the 
        State and in the Interim Federal Action Plan. COE's Regulatory, 
        Operations, and Planning Programs regularly participate in 
        coordination related to the BDCP. Regulatory and operations 
        have proactively engaged the State, BOR, and others to ensure 
        that they understand Clean Water Act section 404 and section 10 
        and section 14 of the River and Harbors Act permitting 
        requirements and processes that may be required for the BDCP. 
        COE also participates in interagency (State-Federal) groups 
        focused on advancing science to inform management decisions, 
        including those related to levees, in the Bay-Delta.
    Question. How does COE prioritize which levees it repairs?
    Answer. In coordination with local and State partners, mainly the 
California DWR, COE prioritized levee improvements in the 2006 ``Report 
to Congress'' based on risk associated with levee failure (protection 
of life, property, infrastructure, etc.). Ongoing project 
prioritization is based on how well each project met environmental, 
economic, and other implementation criteria including availability of a 
local cost-share partner. The Delta Islands and Levees Feasibility 
Study will make recommendations to address flood risk management for 
the Delta as a system.
    Question. When prioritizing levee repairs, has COE taken into 
account which levees are most likely to allow salt water to enter the 
fresh water supply for 20 million Californians should the delta levees 
fail?
    Answer. System-wide assessments and recommendations, including 
impact of delta levee failure on the freshwater supply, will be 
evaluated under the Delta Islands and Levees Feasibility Study. The 
2006 ``Report to Congress'' considered risk to water supply.
    Question. Does COE have an estimate of the overall damage, 
including loss of the fresh water supply, and cost to repair the levees 
should a serious earthquake strike northern California?
    Answer. COE does not have a current estimate of the overall damage, 
including loss of the fresh water supply, and cost to repair the 
levees. This will be evaluated under the Delta Islands and Levees 
Feasibility Study. The California DWR published a report that does 
provide an estimate. This effort is the State's in-kind cost-share for 
the Delta Islands and Levees Feasibility Study.
    Question. Does COE have an estimate of how much it would cost to 
reduce the risk of massive levee failure from ``high'' to ``moderate'' 
or ``low''?
    Answer. No. This will be evaluated under the Delta Islands and 
Levees Feasibility Study.
    Question. The maritime industry in California carries more than 40 
percent of the Nation's waterborne international cargo. Recent studies 
by COE show that there is more than $400 million worth of cargo 
disrupted for every foot of reduced depth of channel. However, while 
dredging costs on a per-yard basis have increased 160 percent 
nationally over the past decade, ports across California and the Nation 
have not been provided adequate funding to maintain their 
congressionally authorized dredge depths. Why is it that numerous 
Federal channels in California are not at their congressionally 
authorized depth and width?
    Answer. Navigation channels rarely have full depth and width 
available. At present, only 2 of the top 10 navigation projects in COE 
inventory have full depth and width available. These two projects (both 
are in the State of California) are, in large part, naturally deep and 
do not require significant maintenance dredging.
    Question. How does the President's budget request for fiscal year 
2012 achieve the goals of maintaining the channels in California to 
their authorized depth and width as well as meeting the President's 
National Export Initiative?
    Answer. The President's fiscal year 2012 budget includes $8.75 
million in the operation and maintenance account for the Oakland 
Harbor, and $8.15 million for the Richmond Harbor; as well as $350,000 
in the construction account to continue work associated with the 
construction of the Oakland Harbor 50 feet deepening. These efforts 
support commercial use of deep draft navigation projects (1million tons 
of commercial cargo or more per year) as follows: the Oakland Harbor 
has 17 million tons of commercial cargo per year and the Richmond 
Harbor has 25 million tons of cargo per year.
    In addition, the President's fiscal year 2012 budget includes $65 
million for the ongoing deepening of the port of New York/New Jersey; 
$42 million for construction/expansion of dredged material placement 
facilities at the ports of Norfolk, Virginia; Savannah, Georgia; and 
Jacksonville and Tampa, Florida in order to continue maintenance of the 
deep draft channels serving these ports; $600,000 for preconstruction 
engineering design of Savannah Harbor expansion, Georgia; and $726,000 
for a channel improvement study at Brazos Island Harbor (Brownsville), 
Texas. The budget also includes $580 million in the Operation and 
Maintenance appropriation to maintain our high and moderate commercial 
use deep draft navigation projects that support 1 million tons of 
commercial cargo or more per year.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson

    Question. The Cheyenne River Sioux Reservation in my State faces 
acute water needs. For years, the only intake for a land mass the size 
of Connecticut was in the Cheyenne River. That location had many 
problems, including the intake coming precariously close to taking in 
air when the Corps of Engineers (COE) would draw down the Oahe 
Reservoir. There were also silt problems exacerbated by drawn down and 
heavy metals in the river. To its credit, COE took the lead in building 
a new intake in the main stem of the Missouri in deeper water without 
silt. A number of agencies also contributed to that project. 
Unfortunately, the reservation still faces an extremely undersized 
water treatment plant and pipelines. The present day needs on this 
large reservation are about 8 million gallons a day and future needs 
are estimated at 12 million gallons a day. Their present water 
treatment plant and pipelines can only handle 1.2 million gallons a 
day. As a result, there is a moratorium on the construction of any new 
homes. This is a reservation where there are often two or three 
families living under one roof. When they have a fire on the 
reservation the water system is depleted immediately. In the short 
term, we must rebuild the core of the system--an untreated water line, 
a water treatment plant, and a treated water line. This is an important 
issue for public health, safety, and the economic needs of the 
reservation. There was an authorization in the last Water Resources 
Development Act bill of $65 million under the COE's Environmental 
Infrastructure program, but it has not been funded. Recently, USDA 
Rural Development awarded a large grant/loan package to the tribe to 
start this project, but Rural Development doesn't have enough money to 
complete the entire project. In the same way that we had a multi-agency 
approach with the intake, I want to ask if you will consider 
participating on a multi-agency approach in the future. Rural 
Development has taken the lead but I wish to see COE and other agencies 
also play a role. Will you do so?
    Answer. At my request, the Omaha District Tribal Liaison will 
contact you to ensure that we remain current on the status of your 
efforts to address these concerns. However, COE has three main 
missions:
  --flood and storm damage reduction;
  --commercial navigation; and
  --aquatic ecosystem restoration.
    Because environmental infrastructure projects fall outside of these 
missions, they do not compete well for COE funding given the many other 
needs across the country that are within the COE's primary mission 
areas.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                  <GREEK-L>COE DEG.LEVEE CERTIFICATION

    Question. There is no question that my State understands the 
critical need for sound levees that are reliable and provide the best 
protection possible for our community. In many ways, what we 
experienced in Katrina and Rita was a preview for the rest of the 
Nation of just how vulnerable we are. Approximately 700 counties across 
the country are home to thousands of miles of levees. Most of these 
levees were built a generation ago and were designed and engineered at 
a time when the satellites and GPS were just a dream. After decades of 
relying on older technology, U.S. Army Corps of Engineers (COE) and 
Federal Emergency Management Agency (FEMA) have arrived in 
communities--large and small--with new a standard for levee 
certification. These communities are very concerned with the 
significant consequences of having to meet the standards. For some 
communities it presents a stark choice: find the money to repair and 
update these levees or drive up the insurance rates to unsustainable 
levels.
    General Van Antwerp, what information and technology is COE using 
to certify these levees?
    Answer. Participation in the National Flood Insurance (NFIP) is a 
decision of the local community. It is a local community's 
responsibility to provide FEMA documentation that a levee meets NFIP 
criteria for flood mapping purposes. There are three cases in which COE 
may perform a NFIP levee system evaluation:
  --If the levee is operated and maintained by COE;
  --If it is part of an ongoing COE project; or
  --If funding was provided by another Federal agency or by a local 
        sponsor and it has been demonstrated that COE is uniquely 
        equipped to perform the work and that such services are not 
        reasonably and quickly available through ordinary business 
        channels.
    For situations in which COE is performing a NFIP levee system 
evaluation, it will follow procedures in Engineer Circular (EC) 1110-2-
6067, ``USACE Process for NFIP Levee System Evaluation''. The processes 
in this EC only apply to COE when performing levee evaluations for NFIP 
purposes. Other entities may still follow the requirements in title 44 
of the Code of Federal Regulations, section 65.10 (44 CFR 65.10), 
Mapping Areas Protected by Levee Systems; however, the EC is consistent 
with and founded on the principles of 44 CFR 65.10 while updating 
methods and references to current COE practices and criteria.
    Question. Does this take into account the assessments and 
evaluation made by the local sponsors?
    Answer. Yes, all best-available information will be considered 
during the analysis.
    Question. What resources, if any, are available to assist local 
communities in meeting these standards?
    Answer. COE and FEMA work closely together with the local 
communities to ensure the most accurate and current levee information 
is available to them and to identify how this information informs the 
NFIP mapping process.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                     <GREEK-L>COE DEG.PANAMA CANAL

    Question. As you know, the expansion of the Panama Canal expansion 
is due to be completed in 2014. Several east coast ports are vying for 
Federal funding to deepen their channels or make other improvements in 
order to handle larger Post-Panamax vessels, which require 48 feet of 
depth and higher air drafts.
    What are the economic opportunities that will come from the 
expansion of the Panama Canal?
    Answer. It is difficult to say what overall effect this 2014 lock 
opening will have on the U.S. economy, or what opportunities it may 
provide.
    Question. Do these opportunities warrant the deepening of all east 
coast ports that currently serve Panamax vessels so that they can 
accommodate Post-Panamax ships?
    Answer. Probably not, at least not at this time. The ports make the 
initial business decision to pursue large capital investments necessary 
to take advantage of the post-Panamax shipping opportunities. The Corps 
of Engineers (COE) evaluates requests to deepen, widen, or lengthen 
channels to estimate the costs and benefits to the Nation of the 
proposal.
    Question. How is COE choosing to make its investments in port 
projects related to the Panama Canal expansion?
    Answer. Most of the funding in COE coastal navigation program is 
not related to the opening of the Panama Canal lock. However, on the 
Atlantic and gulf coasts, several ports are working with COE on 
proposals to deepen and widen their channels to accommodate the largest 
of the post-Panamax vessels, which will be able to reach them more 
directly after the new locks on the Panama Canal open in 2014. On the 
Atlantic coast, the United States now has two ports with channels deep 
enough to receive these ships when they are fully loaded (Norfolk and 
Baltimore) and will have a third (New York/New Jersey) by 2014 based on 
the current COE construction schedule. The United States also has 
several other ports with depths of 45 feet on the Atlantic and gulf 
coasts, which these vessels can use when less than fully loaded.
    The President's fiscal year 2012 budget includes $65 million for 
the ongoing deepening of the port of New York/New Jersey; $42 million 
for construction/expansion of dredged material placement facilities at 
the ports of Norfolk, Virginia; Savannah, Georgia; and both 
Jacksonville and Tampa, Florida, in order to continue maintenance of 
the deep draft channels serving these ports; $600,000 for 
preconstruction engineering and design of Savannah's harbor expansion, 
Georgia; and $726,000 for a channel improvement study at Brazos Island 
Harbor (Brownsville), Texas.
    Question. Is there any coordination with the Department of 
Transportation (DOT), the Department of Commerce, and other Federal 
agencies in selecting the ports that should be deepened or in making 
related infrastructure investments (highways, rail, etc.) that support 
deepening projects?
    Answer. Yes. For example, COE is working with the DOT to improve 
decisionmaking on Federal investment in coastal navigation 
infrastructure through better coordination. DOT is providing 
information on previous years' selected TIGER Grant recipients to COE, 
which we will be considering as part of the Civil Works budget 
preparation. Similarly, the DOT has invited COE technical experts to 
advise it during the upcoming review process for next year's TIGER 
Grant selections. Our staffs are also working on common metrics for 
comparing potential investments that support coastal navigation, and 
for evaluating the performance of those investments.
    Question. If it is found that significant new private sector 
revenue will be generated from the taxpayer investment in port 
deepening projects related to the Panama Canal's expansion, would it 
make sense, in these tight fiscal times, to finance these projects 
through a Federal loan or loan guarantee program (perhaps through an 
infrastructure bank)?
    Answer. There may be advantages to such an approach, as an option 
in lieu of the traditional cost-sharing. Many ports can borrow or raise 
funds on their own. A Federal program like an infrastructure bank, in 
which proposed investments, at ports and elsewhere, compete with each 
other for support based on their return to the Nation, could be used 
where needed to catalyze public and private sector investment.
                                 ______
                                 
                Questions Submitted to Michael L. Connor
            Questions Submitted by Senator Dianne Feinstein

            <GREEK-L>BOR DEG.INDIAN WATER RIGHTS SETTLEMENT

    Question. You have proposed a new account for these Indian Water 
Rights Settlements. How much mandatory funding accompanies the $51.5 
million in discretionary funding you have proposed for fiscal year 
2012?
    Answer. Title VII of the Claims Resolution Act of 2010 (Public Law 
111-291) (CRA) provides $60 million in mandatory funding for each of 
fiscal years 2012-2014 for the Reclamation Water Settlements Fund, 
which was established in the Public Land Management Act of 2009 (Public 
Law 111-11). Mandatory funding for the Navajo-Gallup Water Supply 
Project in the amount of $60 million described above is included in the 
Indian Water Rights Settlement Account in the President's fiscal year 
2012 budget.
    CRA also provided mandatory funding in fiscal year 2011 for four 
other Indian water settlements. The Bureau of Reclamation (BOR) is in 
discussions with the tribes in the four new settlements to develop 
contract and engineering plans for the use of the mandatory funds. Once 
the contracts have been agreed to and engineering plans have been 
developed, BOR will be able to develop a construction timetable and 
thereby develop proposals for the use of the funds.
    Question. Where is the funding coming from within your program for 
the Indian Water Rights Settlements?
    Answer. CRA provides $444.9 million in mandatory funding and 
authorizes $244.4 million in discretionary funding to BOR in the four 
Indian water rights settlements within CRA. As well, for each of the 
fiscal years from 2012-2014 CRA also provides $180 million in mandatory 
funding, or $60 million each year, for the Navajo-Gallup Water Supply 
Project to accompany the authorization of appropriations of $870 
million in title X of Public Law 111-11.
    Specifically, for BOR, title III--the White Mountain Apache Tribe 
Water Rights Quantification appropriates $152.7 million in mandatory 
funding and authorizes $11 million in discretionary funding; title IV--
Crow Tribe Water Rights Settlement appropriates $219.8 million in 
mandatory funding and authorizes $158.4 million in discretionary 
funding; title V--Taos Pueblo Indian Water Rights appropriates $16 
million in mandatory funding and authorizes $20 million in 
discretionary funding; and title VI--Aamodt Litigation Settlement 
appropriates $56.4 million in mandatory funding and authorizes $55 
million in discretionary funding.
    Question. Do the Water Rights Settlements require specific funding 
amounts annually?
    Answer. There are no specific dollar amounts that are required for 
each year in the legislation but there are timeframes which are 
specified for settlement implementation. The amounts requested are 
based on capability as determined by the scope of the work that is 
expected to be performed within CRA.
    Question. What is the nature of the projects that these funds will 
be used for? Aren't they rural water systems?
    Answer. Each of the four settlements in CRA authorizes the 
construction of various projects, principally water construction 
projects. CRA requires BOR to:
  --Construct a Rural Water System for the White Mountain Apache Tribe;
  --Rehabilitate the Crow Irrigation Project and to construct a 
        Municipal, Rural and Industrial Water System for the Crow Tribe 
        Water Rights Settlement;
  --Provide financial assistance in the form of grants on a 
        nonreimbursable basis to eligible non-Pueblo entities for the 
        construction of Mutual Benefit projects, primarily groundwater 
        projects for the Taos Pueblo Indian Water Rights Settlement; 
        and
  --Construct a Regional Water System for the Aamodt Litigation 
        Settlement.
    Question. How do these projects differ from the seven on-going 
rural water projects funded in the water and related resources account?
    Answer. CRA authorized the Secretary to enter into Settlement 
Agreements with specific tribes and to undertake the specific actions 
included in those Settlements. One key difference is that the projects 
authorized under CRA settle claims against the United States through 
negotiated settlements. If project and financial timelines are not met, 
the negotiated settlements may be terminated. Not only are the 
significant investments of time and funding associated with negotiating 
the settlements at risk, but underlying these settlements is the 
quantification of tribal water rights. If the settlements fail, the 
tribal water rights are not quantified and the communities affected 
would revert to the prior state of uncertainty with respect to the 
quantification and the effect of Federal tribal rights on State-based 
rights. The rural water projects also address water supply needs and 
provide regional drinking water systems. However, the United States 
does not face the same legal burden in meeting those future needs as it 
does with respect to meeting the obligations associated with the 
settlements authorized under CRA.
    Question. Can these new projects proposed for funding in fiscal 
year 2012 utilize all of the discretionary funding recommended in 
fiscal year 2012?
    Answer. BOR expects to use all of the discretionary funds that are 
being requested as well as some of the mandatory funding that is made 
available within the CRA. In fiscal year 2012, BOR is requesting $51.5 
million in discretionary funding in the Indian Water Rights Settlement 
account, of which $24.8 million is directed to the Navajo-Gallup Water 
Supply Project. The balance of the discretionary request, or $26.7 
million, is for the remaining four new settlements.
    Question. Why did the seven ongoing projects compete so poorly in 
the fiscal year 2012 budget compared to these four new projects?
    Answer. The seven ongoing rural water projects did not compete for 
funding with the tribal settlements that are funded within the CRA. 
These projects have separate authorizations and are at widely varying 
points in their completion schedules. BOR prioritizes funding for its 
ongoing (authorized) rural water projects based on established 
criteria. The first priority for funding rural water projects is the 
required operation and maintenance (O&M) component. For the 
construction component, BOR gives priority to projects nearing 
completion and projects that serve on-reservation needs. For BOR, CRA 
authorized and appropriated $444.9 million in mandatory funding for 
five specific tribal water settlements. The Congress also authorized 
$249.3 million in discretionary funding within the CRA.
    CRA settlements require numerous conditions that have to be 
fulfilled by the Secretary within specified dates in order to satisfy 
the terms of the agreements. If the conditions are not met, the 
settlements may fail and the parties to the settlements will likely 
return to the courts for the resolution of their grievances. The 
funding BOR requested for CRA projects is required to fulfill the terms 
of the CRA.

                      <GREEK-L>BOR DEG.RURAL WATER

    Question. Four of these ongoing rural water projects received 
roughly $500,000 each. Can anything constructive be done with $500,000 
for these ongoing projects? What do you anticipate to be accomplished 
with this small amount of funding?
    Answer. Funding amounts for the four rural water projects only 
reflect Federal funding and does take into account the contributed non-
Federal funding. Funds requested by BOR for fiscal year 2012 and the 
planned use of the funds are shown below:
      Fort Peck Reservation/Dry Prairie Rural Water System (Montana).--
        Funding in fiscal year 2012 will enable the tribes and the non-
        Federal sponsor, Dry Prairie, to perform a minimal level of 
        administrative business for the project; no design or 
        construction would be performed.
      Lewis & Clark Rural Water System (South Dakota, Minnesota, 
        Iowa).--Funding in fiscal year 2012 will enable the project 
        sponsor to perform a minimal level of administrative business 
        for the project; no design or construction would be performed.
      Rocky Boys/North Central Montana Rural Water System (Montana).--
        Funding in fiscal year 2012 will enable the tribe and the non-
        Federal sponsor, North Central Authority, to perform a minimal 
        level of administrative business for the project; no design or 
        construction would be performed.
      Jicarilla Apache Rural Water System (New Mexico).--Funding in 
        fiscal year 2012 continues design and construction of existing 
        water and wastewater facilities.
    Non-Federal funding for Fort Peck and Rocky Boy's has not been 
totally contributed. Non-Federal funding for Lewis & Clark will be 
fully contributed in fiscal year 2011 and non-Federal funding for 
Jicarilla has been totally contributed and exceeded.

                      <GREEK-L>BOR DEG.MNI WICONI

    Question. The authorization for Mni Wiconi, one of the rural water 
projects, sunsets in 2013. Will this project be completed by that date 
based on the budget request, or will the project require an 
authorization change?
    Answer. It is anticipated that the Mni Wiconi Project will be 
completed by the sunset date of 2013 if funding is provided at the 
current budget request level.

                   <GREEK-L>BOR DEG.NEEDS ASSESSMENT

    Question. Has BOR undertaken a needs assessment for the next 25 
years?
    Answer. BOR has multiple activities within the WaterSMART Basin 
Studies Program that are in the process of assessing future needs for 
water in the Western United States. The Basin Studies are 50/50 cost 
shared activities with non-Federal entities to assess future water 
supply and demand imbalances including the impacts of climate change. 
As part of these activities future water demand will reflect changes to 
water needs from population changes, irrigation, and changes to 
evapotranspiration from climate change as well as any other stresses on 
the system. If current or future imbalances between supply and demand 
are identified, the Basin Studies will develop adaptation and 
mitigation strategies including structural and non-structural 
opportunities within the basin.
    Through the Basin Studies Program beginning in fiscal year 2012, 
BOR will offer the opportunity to conduct feasibility studies as 
authorized by the Omnibus Public Lands Management Act (Public Law 111-
11) of 2009 with respect to adaptation and mitigation strategies 
identified through the Basin Studies or other similar appraisal level 
studies including the impacts of climate change. Also within the Basin 
Studies Program, BOR began the West Wide Climate Risk Assessments 
(WWCRAs) in fiscal year 2010. Beginning in fiscal year 2011, BOR is 
identifying changes to agricultural demands in a changing climate as 
part of the WWCRAs. In future years, the WWCRAs will explore other 
changes to water demands and needs by working with stakeholders within 
the eight major BOR river basins identified within Public Law 111-11.
    With respect to the needs of BOR's infrastructure, although a small 
number of BOR offices assess and project their individual needs 10 or 
more years into the future, there has been no comprehensive BOR-wide 
assessment covering the next 25 years. Most of BOR's assets are not 
considered ``replaceable units of property'' and, therefore, do not 
have well-defined service lives, nor are there good predictive 
estimates for such future needs. However, in September 2009, BOR 
updated its Major Rehabilitation and Replacement (MR&R) needs for a 
defined 5-year timeframe related to aging infrastructure. These needs 
have been broadly characterized as potential costs associated with 
BOR's ``aging infrastructure''.
    BOR also has planning activities underway with its rural 
communities who are pursuing rural water projects at specific locations 
throughout the West. These activities are undertaken pursuant to 
competitive criteria developed under Public Law 109-451.
    Finally, in the area of dam safety, BOR maintains an active program 
to monitor existing dams and initiate corrective actions where 
appropriate. This program helps ensure the safety and reliability of 
BOR dams to protect the downstream public and property.

                          <GREEK-L>BOR DEG.O&M

    Question. How do you propose to address BOR's aging infrastructure 
given the decreasing O&M budget?
    Answer. To address the requirements of aging infrastructure on 
projects where BOR is directly responsible for daily O&M, BOR continues 
to assess the condition of its assets and prioritizes funding to 
address requirements of greatest importance, given the current budget 
environment. The prioritization of requirements is based largely on a 
risk-based approach, evaluating not only the significance of the 
deficiency involved, but also the potential consequences should the 
activity not be undertaken.
    Through BOR's continued support of a past and current philosophy 
and emphasis on preventive maintenance and regular condition 
assessments (field inspections and reviews), many of the service lives 
on BOR assets and facilities have been extended, thereby delaying the 
need for significant replacements and rehabilitation efforts (including 
the related funding needs). Although BOR and its beneficiaries have 
benefited greatly from this preventive maintenance philosophy, BOR 
recognizes that as assets and facilities age, they require an increased 
amount of maintenance. Sometimes this requires more frequent preventive 
maintenance, and, in other situations, significant extraordinary 
maintenance, rehabilitation, or replacement may be required.
    BOR's fiscal year 2012 proposed budget is $40.8 million for various 
projects for Replacements, Additions, and Extraordinary Maintenance 
(RAX) activities across BOR. This compares to the fiscal year 2011 
enacted budget of $45.8 million. This request is central to mission 
objectives for operating and maintaining projects ensuring delivery of 
water and power benefits. BOR's RAX request is part of its overall 
Asset Management Strategy that relies on condition assessments, 
condition/performance metrics, technological research and deployment, 
and strategic collaboration to continue to improve the management of 
its assets and deal with its aging infrastructure challenges. This 
amount represents only the fiscal year 2012 request for discretionary 
appropriations. Additional RAX items are directly funded by revenues, 
customers, or other Federal agencies.

                 <GREEK-L>BOR DEG.AGING INFRASTRUCTURE

    Question. Public Law 111-11 provided you with authority to address 
aging infrastructure. Do you plan to budget for these projects?
    Answer. BOR is currently developing its policy to implement the 
authority provided under Public Law 111-11 to allow extended repayment 
of extraordinary (nonroutine) and emergency extraordinary maintenance 
costs on project facilities. Water users are currently required by 
Federal law to pay these costs, often substantial, in advance.
    It is important to note that much of the operation and maintenance 
(O&M) funding responsibilities for BOR's assets is the responsibility 
of our project beneficiaries and those operating entities that operate 
and maintain our transferred works facilities. For some operating 
entities and project beneficiaries, rehabilitation and replacement 
funding needs may exceed their available resources and ability to 
provide the funds in advance. In particular, many smaller irrigation or 
water conservancy districts are unable to fund these needs in the year 
incurred absent financing assistance. BOR expects to consider funding 
such projects in the future based on the policy and funding priorities 
and water user financial capability, as appropriate.

               <GREEK-L>BOR DEG.PRINCIPLES AND GUIDELINES

    Question. Please explain how the revised Principles and Guidelines, 
to be called the Principles and Requirements, will impact BOR's 
construction and other programs.
    Answer. The Principles and Requirements are not yet finalized and 
it is anticipated that agencies will have some level of flexibility in 
developing agency-specific guidance to allow for the achievement of 
their specific missions and authorities. Two essential differences 
between the proposed Principles and Requirements and the 1983 
Principles and Guidelines will affect BOR's planning and evaluation 
process.
    First, under the 1983 Principles and Guidelines, agencies relied 
solely on economic benefit-cost analysis to recommend a particular 
alternative for implementation. When evaluating, comparing, and 
recommending a specific alternative for implementation under the 
proposed Principles and Requirements, agencies are to fully consider 
the social, economic, and environmental effects of proposed 
alternatives before selecting the one to be recommended for 
implementation.
    Second, the proposed Principles and Requirements may apply to a 
broader scope of Federal water resource activities than the 1983 
Principles and Guidelines. This means that certain BOR programs and 
activities not previously subject to the 1983 Principles and Guidelines 
may be subject to the Principles and Requirements.

                    <GREEK-L>BOR DEG.CLIMATE CHANGE

    Question. What is BOR doing to address Climate Change in the West?
    Answer. BOR is addressing the stressors of climate change through a 
comprehensive set of activities, including participating in Landscape 
Conservation Cooperatives (LCCs) and Climate Science Centers (CSCs), 
providing West-Wide Climate Risk Assessments, and conducting research 
and development of climate analysis tools through the WaterSMART Grant 
and Science and Technology Programs. BOR is also supporting the 
Department of the Interior's Priority Goal for Climate through these 
activities to support the LCCs, conduct vulnerability assessments, and 
implement adaptation actions. LCCs and CSCs are an important part of 
the framework established by Secretary Salazar in Secretarial Order 
3289 to address climate change by bringing science capability to 
resource managers. BOR is conducting research through the Science and 
Technology program, which includes collaboration with the Department of 
the Interior (Department) Climate Science Centers. BOR's Science and 
Technology program also established the Climate Change and Water 
Working Group (C-CAWWG) in 2008 to partner with other Federal agencies 
to address the needs of water managers as they manage the Nation's 
water and hydropower resources under a changing climate.
    Through the Basin Study Program, which includes the Basin Studies, 
West-Wide Climate Risk Assessments, and the LCCs, BOR is conducting 
vulnerability assessments to identify the impacts of climate change to 
water resources in each of the major river basins in the West, as 
authorized under section 9503 of the SECURE Water Act (subtitle F of 
title IX of the Omnibus Public Land Management Act of 2009, Public Law 
111-11, 42 U.S.C. 10364). In April 2011, BOR submitted its first report 
under section 9503 of the SECURE Water Act regarding risks to future 
water supplies from climate change. The report, entitled ``SECURE Water 
Act Section 9503(c)--Reclamation Climate Change and Water 2011'', is 
available at http://www.usbr.gov/climate/ and identifies current 
uncertainties regarding projections of climate change risks and 
impacts, while highlighting likely significant impacts associated with 
the projected rise in temperature, changes to precipitation, reduced 
April 1 snowpack levels, and changes to both the timing and quantity of 
streamflow throughout the Western United States. The vulnerability 
assessments conducted under the Basin Study Program will contribute to 
the Department's Priority Goal for Climate Change. Additionally, in 
fiscal year 2011, BOR identified a number of adaptation actions (e.g., 
WaterSMART Water and Energy Efficiency Grants, Bay Delta Conservation 
Plan, retrofitting of Hoover Dam to wide-head turbines, and Pilot Run 
of the Yuma Desalting Plant) being conducted to adapt to stressors 
within the Western United States, including those from climate change. 
These adaptation actions will also contribute to the priority goal and 
span a wide array of BOR's mission responsibilities from water supply 
planning efforts, retrofitting of hydropower turbines, to the 
restoration of rivers and ecosystems.

                     <GREEK-L>BOR DEG.SECURE WATER

    Question. What guidance documents exist for implementing the 
Cooperative Watershed Program and the SECURE Water Act?
    Answer. The Cooperative Watershed Management Act, subtitle A of 
title VI of the Omnibus Public Land Management Act (Act) of 2009 
(Public Law 111-11), authorized the Department of the Interior 
(Department) to provide financial assistance to establish and expand 
collaborative watershed groups. The act authorizes direct financial 
support for the operations of a collaborative watershed group, as well 
as watershed project funding, including restoration projects. The act 
calls for the Department to establish an application process for the 
program and prioritization and eligibility criteria for considering 
applications, in consultation with the States.
    In the summer of 2010, the Department received input from the 
States regarding the program processes and criteria in response to a 
questionnaire. The fiscal year 2012 President's budget requests 
$250,000 to implement the CWMP through a funding opportunity. The 
funding opportunity announcement will describe the proposal selection 
process and criteria, taking into consideration the early feedback 
received from the States. BOR expects to post the draft funding 
opportunity announcement in the Federal Register later this year in 
order to solicit additional public comments on the proposed selection 
process and criteria. The funding opportunity announcement will then be 
revised, as needed, based on comments received and will be posted on 
www.grants.gov before the end of 2012. The funding opportunity 
announcement will be the first document describing program processes 
and procedures. Additional guidance will be developed as program 
implementation begins.
    Section 9503 of the SECURE Water Act (subtitle F of title IX of the 
Omnibus Public Land Management Act of 2009), authorizes BOR to assess 
the risks and impacts of climate change to water resources, identify 
adaptation strategies, and provide financial assistance for feasibility 
studies. BOR implements section 9503 through complementary activities 
within the WaterSMART Basin Study Program and Science and Technology 
program. This comprehensive approach allows BOR to incorporate the 
best-available science--through coordination with science agencies--
into climate change adaptation planning with stakeholders. The Basin 
Study Program activities include the West-Wide Climate Risk 
Assessments, the Basin Studies, and the Landscape Conservation 
Cooperatives. Guidance related to each of these activities is available 
through program specific links on BOR's Basin Study Program Web site at 
www.usbr.gov/WaterSMART/basinprogram. A document entitled ``Basin Study 
Program Framework'', available at the aforementioned Web site, provides 
an overview of the Basin Study Program and specifically describes the 
process for conducting a Basin Study. Additionally, in April 2011, BOR 
submitted its first report to the Congress under section 9503 of the 
SECURE Water Act, identifying the risks to future water supplies as 
well as potential changes in demands and impacts on BOR's mission 
responsibilities from climate change. The report, entitled ``SECURE 
Water Act Section 9503(c)--Reclamation Climate Change and Water 2011,'' 
is available at http://www.usbr.gov/climate/and provides a 
comprehensive explanation of BOR's activities (including primarily the 
West-Wide Climate Risk Assessments) that contributed to the report.

              <GREEK-L>BOR DEG.BAY-DELTA INTERAGENCY PLAN

    Question. Are there remaining interim Federal Bay-Delta Interagency 
action plan items that are unfunded and if so, how will they be funded?
    Answer. Implementation of the four elements of the Interim Federal 
Action Plan (IFAP) is a multi-year process. Multiple Federal agencies 
are strategically aligning resources to implement the IFAP. To date, 
BOR has funded programs and projects to support those elements of the 
IFAP that are within BOR's purview. Funding in the future is subject to 
appropriations. Budget requests will be submitted as appropriate and 
will continue to be a priority for BOR in the future. Potential funding 
sources include, but may not be limited to Water and Related Resources, 
California Bay-Delta Restoration, and Central Valley Project 
Restoration Fund.

                   <GREEK-L>BOR DEG.TITLE XVI PROGRAM

    Question. These projects are critical to providing additional water 
sources to many western communities, including many communities in 
California. Is there more that BOR can do to assist in these programs?
    Answer. Water reuse projects are a critical aspect of water supply 
sustainability in the West. By improving efficiency through reuse, 
title XVI projects provide flexibility during water shortages and help 
to diversify the water supply. On May 23, 2011, BOR selected eight 
congressionally authorized projects to receive approximately $11.3 
million in fiscal year 2011 title XVI construction funding. In 
addition, recently BOR invited sponsors of potential new water 
recycling projects to apply for cost-shared funding to develop new 
title XVI feasibility studies. On May 9, 2011, after applying program 
criteria to funding applications submitted by non-Federal sponsors, BOR 
selected eight entities who will leverage $1.1 million in Federal 
funding to complete $4.9 million in studies of new water reuse 
projects.
    Question. What is the backlog of unfunded projects?
    Answer. For previously authorized title XVI projects, the remaining 
authorized Federal cost-share totals approximately $595 million once 
fiscal year 2011 funding has been applied. BOR is currently working to 
gather information from project sponsors to determine whether any 
projects have smaller costs than expected, in which case Federal cost-
share may require adjustment, and to refine estimates of each project 
sponsor's construction plans over the next few years. Once additional 
communications with sponsors have been completed, BOR will have an 
updated estimate of the remaining Federal cost-share for authorized 
projects.
    Question. How many separate projects are authorized, and of these 
does BOR have an opinion on the viability of the individual projects?
    Answer. There are currently 53 authorized title XVI projects. We 
are developing a list of authorized projects that sponsors are not 
planning to pursue with new or additional construction at this time.
    Question. Why don't these projects compete well within the 
administration budget?
    Answer. Water reuse through the title XVI program is a key aspect 
of the Department's WaterSMART program. The President's fiscal year 
2012 budget, which includes $29 million for such projects, points to 
the crucial role of water reuse in efforts to address water supply 
sustainability and represents a significant increase over funding 
levels for the program in recent years.
    Question. Has placing these projects under the WaterSMART Program 
given them more or less visibility within the BOR budget?
    Answer. By incorporating the title XVI program into WaterSMART, the 
Department has been able to articulate the role of water reuse in 
efforts to stretch the limited water supplies in the West. The fiscal 
year 2012 budget request builds on lessons learned in other programs 
such as WaterSMART Grants, including the use of funding opportunities 
that incorporate prioritization criteria to identify projects that most 
closely match program goals. Through the use of such funding 
opportunities, project sponsors have a chance to communicate to BOR the 
expected benefits of each project--how each project can be expected to 
contribute to water supply sustainability, benefits to the environment 
and water quality, and any contributions to increased energy efficiency 
in the delivery of water, among others.
    The Department's coordinated approach to addressing water supply 
sustainability issues in ways that maximize the benefits of Federal 
funding extends beyond title XVI and existing WaterSMART Grants. This 
year as part of WaterSMART, for example, BOR and USDA's Natural 
Resources Conservation Service (NRCS) worked together on an innovative 
funding opportunity to leverage funding for water delivery agencies and 
agricultural producers in California's Central Valley. BOR announced 
its selection of five Bay-Delta Agricultural Water Conservation and 
Efficiency Projects for funding, totaling $4.2 million, on May 18, 
2011. The selected projects will increase district-level efficiencies 
through BOR funding and also facilitate water conservation and/or water 
use efficiency on farms. NRCS will provide up to an additional $5 
million in funding and technical assistance to growers in the selected 
districts for eligible on-farm conservation practices.
    Title XVI projects, along with WaterSMART Grant projects, are also 
included as part of the Department's Priority Goal for Water 
Conservation, which provides additional visibility.

           <GREEK-L>BOR DEG.SOUTH OF DELTA WATER ALLOCATIONS

    Question. As you know, I and many others have been closely 
following the BOR's water allocation for south-of-Delta water users in 
California's Central Valley. I was pleased to learn of BOR's decision 
last week to increase the allocation for farmers from 65 percent to 75 
percent of their service contract. This followed two previous rounds of 
increases in recent weeks. However, there remains a great deal of 
frustration and consternation in California as to why BOR is unable to 
provide 100 percent of the allocation given the historic level of snow 
and rainfall we have experienced this year. Do you expect to increase 
the allocation of water supplies to south-of-Delta users again this 
year? If so, do you believe that you will ultimately be able to 
announce a 100 percent allocation?
    Answer. On April 8, 2011, BOR increased the allocations for the 
south-of-Delta agricultural project water users from 65 percent to 75 
percent, and on April 25, from 75 percent to 80 percent.
    The most probable runoff forecast for this water year shows that we 
will be in the upper quartile of the historical annual volumes. We are 
currently analyzing the runoff forecast and are preparing our forecast 
of CVP operations. Our studies should be completed later this summer 
and a determination will be made about further increases to the 
allocation. With the current operational constraints, it may not be 
possible to achieve 100 percent allocation this contract year. Factors 
affecting BOR's ability to declare a 100 percent allocation for the 
south of Delta agricultural water users include the actions required by 
the biological opinions to avoid jeopardizing listed species and 
project operations.
    BOR has been able to utilize flood flows that have reached Mendota 
Pool to supplement the water supply to the extent that the flood flows 
can be forecasted. We have also been able to augment the allocated 
water supply with water that the districts rescheduled from contract 
year 2010 and supplemental water exported from the Delta between March 
1 and May 8. With these additional water supplies, the total delivery 
to the south-of-Delta agricultural water users will exceed the volume 
of an 80 percent allocation.

                 <GREEK-L>BOR DEG.CVP RESTORATION FUND

    Question. After nearly 20 years what is the status of the CVP 
Restoration Fund in addressing the goals of the Central Valley Project 
Improvement Act?
    Answer. The Central Valley Project Improvement Act (CVPIA) Activity 
Report (CPAR), dated August 25, 2009, and made public in December 2009, 
provides a detailed report on the status of restoration activities. In 
general the report identifies a number of activities that have been 
completed under the CVPIA and remaining activities which are yet to be 
completed. The fiscal year 2010 ``Annual Accomplishment Report to 
Congress'' will provide an update on the status of all CVPIA program 
activities and will be available to the Congress and the public before 
the end of 2011.
    Question. How much funding has been expended to date for these 
purposes?
    Answer. From fiscal year 1993 through fiscal year 2009 the Program 
has expended just more than $972 million for program implementation:
  --$599.5 million--Restoration funds;
  --$290.9 million--Water and related resources;
  --$76.2 million--State of California cost share;
  --$5.3 million--California Bay Delta Restoration; and
  --$29,000--American Recovery and Reinvestment Act.
    Question. Do you have an estimate as to when this program would be 
complete?
    Answer. The CVPIA fish and wildlife restoration program is 
comprised of two broad types of activities: those with endpoints (e.g., 
structural fish restoration actions and fish screens); and those that 
are annual ongoing (e.g., instream flow management, gravel 
replenishment, scientific monitoring and wildlife refuge incremental 
level 4 water acquisition and conveyance. The annual ongoing activities 
are expected to occur in perpetuity and thus completion dates do not 
apply. The activities with endpoints will attain completion however 
those dates have not been established since their implementation is in 
some cases beyond the long-range planning timeframe of the next 10 
years. Therefore, no date has been set for the reduction in Restoration 
Fund collections from water and power contractors since the reduction 
is contingent upon completion of activities with endpoints. See the 
CVPIA Program Activity Review Report (CPAR, 2009) for more information 
on program performance measures and completion criteria.
    Question. Is there a better way to allocate the collection of fees 
among the users?
    Answer. BOR is required per CVPIA section 3407(c)(2) to collect $50 
million per year for the Restoration Fund (indexed to about $76 million 
in current dollars). Because other CVPIA revenues have not been as high 
as anticipated, BOR has been required to assess the maximum mitigation 
assessment required by CVPIA. This assessment is paid by water and 
power contractors and is capped at $30 million annually (indexed to 
about $46 million in current dollars).
    Although BOR cannot require its water contractors to pay additional 
annual payments in excess of the CVPIA designated amounts of $6 and 
$12, respectively, per acre-foot (October 1992 dollars) for agriculture 
and municipal and industrial water users, respectively, there is no 
comparable limitation on the amount paid by power contractors. 
Consequently, when BOR must collect $30 million (October 1992 dollars) 
in charges, it has no discretion but to collect the balance from its 
CVP power contractors.
    CVPIA did not authorize BOR to collect less than $50 million per 
year (unless activities are completed) or to collect more from water 
contractors. Through fiscal year 2009 (based on a 10-year rolling 
average), power contractors have paid about 32.7 percent of all 
collections into the Restoration Fund with the balance paid by water 
users.
    Question. Are there other ways to improve fee collections into the 
fund?
    Answer. These financial obligations, issues, and impacts are being 
examined in detail in an ongoing comprehensive evaluation that BOR is 
preparing in collaboration with Western Area Power Administration that 
is addressing the following areas:
  --Identification of the activities and projects that have met 
        prerequisites for completing the remaining requirements, and 
        the impact on future water and power contractor collections. 
        (CVPIA allows reducing collections from contractors once 
        activities are complete.)
  --An evaluation of BOR's discretion and flexibility regarding 
        financial obligations and funding under the law.
  --An evaluation of the CVPIA reimbursability requirements and BOR's 
        discretion related to repayment requirements.
  --An assessment of the extent to which CVPIA's financial collection 
        mechanisms have resulted in anticipated Restoration Fund 
        revenues, along with any problematic consequences.
  --An assessment of options for assessing and collecting funds for 
        reimbursable activities if and when the costs exceed 
        contractors' credits.
    BOR recognizes that the financial viability of the CVP hinges on 
the availability and marketability of a reliable and competitive source 
of power plans to complete the above-mentioned evaluation by December 
2011. BOR staff has met with representatives of the Northern California 
Power Association and the Central Valley Project Water Association to 
ensure their concerns are addressed as part of the evaluation. BOR is 
committed to working with our stakeholders to address concerns about 
CVPIA.

                        <GREEK-L>BOR DEG.CALFED

    Question. As you know, the Bay Delta Conservation Plan is a joint 
effort of Federal and State water agencies, environmental organizations 
and other water users to plan and implement an environmental permitting 
process that will restore habitat for Delta fisheries and insure 
reliable water deliveries to 25 million Californians. The goal of the 
Bay Delta Conservation Plan is to devise a 50-year plan of water system 
and ecosystem improvements, and environmental law compliance through 
adaptive management. It will still likely take 10 to 15 years to 
complete the projects necessary to increase water deliveries south of 
the Delta. Until the plan is fully implemented, I fear that farmers 
will continue to struggle to receive enough water.
    Can you please provide me with an update on BOR's efforts to help 
develop a Programmatic Environmental Impact Statement for the Bay Delta 
Conservation Plan?
    Answer. Federal agencies are fully engaged in developing the Bay 
Delta Conservation Plan (BDCP). The three lead agencies, Department of 
the Interior, through BOR and the U.S. Fish and Wildlife Service (FWS) 
and the Department of Commerce, through the National Oceanic and 
Atmospheric Administration's National Marine Fisheries Service (NMFS) 
together with COE and the U.S. Geological Survey have significantly 
enhanced Federal engagement on the BDCP. BOR has and will continue to 
provide expertise throughout the BDCP process to ensure Central Valley 
Project (CVP) operations and water deliveries are considered, 
evaluated, and addressed. BOR will evaluate the BDCP in consideration 
of CVP statutory and contractual obligations. BOR expects to pursue 
section 7 consultation with NMFS and FWS for CVP operations as part of 
the BDCP process.
    BOR serves as a Federal co-lead agency in preparation of the BDCP 
Environmental Impact Report/Environmental Impact Statement (EIR/EIS). 
The BDCP EIR/EIS will include both programmatic and project-specific 
analyses in compliance with National Environmental Policy Act (NEPA) 
and California Environmental Quality Act (CEQA) requirements. 
Preparation of the EIR/EIS has slowed since the beginning of 2011 to 
allow further formulation and development of the BDCP including 
identification of the BDCP proposed Project. Federal lead agencies are 
coordinating with the new State administration and a revised schedule 
for completion of both the BDCP and the associated EIR/EIS is currently 
under development. The BDCP EIR/EIS will identify and analyze potential 
environmental impacts of permitting and implementing the BDCP Proposed 
Project as well as alternatives to the Proposed Project. Therefore, the 
EIR/EIS schedule must track with identification of the BDCP Proposed 
Project.
    Question. What are the greatest challenges you (anticipate) in 
completing the Programmatic Environmental Impact Statement and 
implementing the Plan?
    Answer. Challenges to complete the EIR/EIS for the BDCP include 
finalizing the identification of a proposed Project for the BDCP; 
gaining multi-agency support for the effects analysis methodology; 
gaining agreement on an array of alternatives to be analyzed in the 
EIR/EIS; determining future governance strategies; determining short-
term construction and long-term financing strategies.
    Question. Are there small projects, statutory changes or 
administrative actions that can be taken in the 10- to 15-year interim 
period before the Plan is fully implemented that will allow for 
increased water deliveries to south-of-Delta users?
    Answer. Actions that could be implemented in the next 10-15 years 
will be addressed in a near-term plan, which is being discussed as part 
of the development of the BDCP.

             <GREEK-L>BOR DEG.SAN JOAQUIN RIVER RESTORATION

    Question. As the author of the San Joaquin River Restoration 
Settlement Act, I have a keen interest in BOR's implementation of 
various programs the legislation authorized. I know that the Settlement 
is also an important priority for BOR, but the administration has never 
requested the level of new appropriations in the early years needed to 
ensure full implementation. Full funding benefits all parties:
  --the Friant Water Users;
  --the third-party landowners; and numerous interests seeking full 
        restoration of the river.
    When do you expect to release the San Joaquin River Restoration 
Programmatic Environmental Impact Statement?
    Answer. BOR released the Draft Program Environmental Impact 
Statement/Report (Draft PEIS/R) for the San Joaquin River Restoration 
Program (Restoration Program) for public review on April 22, 2011. The 
60-day public comment period ended on June 21, 2011. The Draft PEIS/R 
analyzes and discloses the direct, indirect, and cumulative impacts of 
implementing the Stipulation of Settlement in NRDC, et al., v. Rodgers, 
et al., (Settlement) consistent with the requirements of NEPA and the 
State equivalent to NEPA-CEQA. BOR is the NEPA lead agency and the 
California DWR is the CEQA lead agency for the document. BOR 
anticipates completing the Final PEIS/R in early fiscal year 2012 and 
signing a Record of Decision shortly thereafter.
    Question. What is your plan to ensure sufficient funding to meet 
the timeline for completing San Joaquin River restoration projects that 
are called for in the settlement and the Programmatic EIS?
    Answer. We recognize that some actions required by the Settlement 
are unavoidably behind schedule. This includes certain channel and 
structural improvement projects that may be beneficial for successful 
reintroduction of salmon. We are initiating consultation with the 
parties to the Settlement to develop a new schedule based upon the 
recently released Draft PEIS/R. This new schedule will assure 
implementation of the Restoration Program in a manner that addresses 
the requirements of the Settlement for expeditious action while meeting 
the requirements of the legislation to minimize impacts on third-party 
interests. A revised funding schedule will be formulated once a new 
settlement schedule has been developed. Funding for the Restoration 
Program will remain a priority as we proceed with the program's 
implementation. The fiscal year 2012 budget requested $9 million for 
this program.
    Question. The Settlement Act required BOR to establish a 
``Recovered Water Account'' to allow Friant contractors to obtain 
additional water for storage during wet years. I understand that BOR 
has recently made a decision regarding the ``Recovered Water Account'' 
that may help provide some additional supplies to Central Valley 
farmers this year. Can you please explain?
    Answer. On October 23, 2006, the U.S. Eastern District Court of 
California approved the Stipulation of Settlement in NRDC et al. v. 
Kirk Rogers, et al. Under paragraph 16(b), the Settlement requires BOR 
to develop a Recovered Water Account to monitor and record reductions 
in water deliveries occurring as a result of the Settlement and make 
water available at a total cost of $10 per acre-foot to contractors who 
experience a reduction in water deliveries as reflected in their 
Recovered Water Account. Recovered Water Account water is to be made 
available during wet hydrologic conditions, when water is not otherwise 
required to meet other obligations of the Secretary of the Interior.
    In 2010, the Friant Division long-term contractors did not 
experience substantial reductions in water deliveries as a result of 
the Settlement and thus, had relatively low balances in their Recovered 
Water Accounts. Since early 2011, the San Joaquin Basin has been 
experiencing wet hydrologic conditions and water is available in 
Millerton Lake that is not otherwise needed to meet other obligations 
of the Secretary of the Interior. In response to this condition, in 
early April, BOR credited an additional 460,000 acre-feet to the Friant 
Division long-term contractors Recovered Water Accounts. The 460,000 
acre-feet of credits were based on a projected average water supply 
impact for 2012 to 2015. The credits were allocated to Class 1 and 
Class 2 contractors in proportion to anticipated impacts and contract 
amounts. With the allocation of 460,000 acre-feet of credits, BOR also 
made Recovered Water Account water available to each contractor 
accordingly.
    Consistent with the Settlement, the Recovered Water Account water 
is made available at a total cost of $10 per acre-foot. This relatively 
low-cost water provides a source of water for groundwater banking and 
other activities that will assist the Friant Division long-term 
contractors in avoiding future impacts of the Settlement. With the 
allocation of 460,000 acre-feet of credits and making this Recovered 
Water Account water available, BOR has worked to avoid some of the 
future water supply impacts that may occur with the implementation of 
the Settlement.

                 <GREEK-L>BOR DEG.LAKE POWELL/LAKE MEAD

    Question. I understand that yesterday, BOR announced that it will 
release an additional 3.33 million acre-feet of water from Lake Powell 
to Lake Mead based on significant snowpack in the Upper Basin of the 
Colorado River. Combined with previous releases totaling 8.23 million 
acre-feet, that will bring the total to 11.56 million acre-feet this 
year. Unfortunately though, because of the prolonged drought we have 
experienced, I suspect we have a long way to go before we refill Lake 
Mead. Can you tell me about how much water we will now have in Lake 
Mead and how far does this get us in terms of recovering from the many 
years of drought?
    Answer. Glen Canyon Dam is projected to release approximately 12.46 
million acre-feet (MAF) from Lake Powell to Lake Mead, which represents 
an additional 4.23 MAF of water this water year (October 1-September 
30) for Lake Mead. At the end of the water year BOR projects that Lake 
Mead will have approximately 12.87 MAF of water in storage 
(approximately 50 percent full). Projected releases from Glen Canyon 
Dam are updated monthly throughout the year to reflect changing 
hydrology.
    In terms of drought recovery, it is challenging to quantify because 
it is largely dependent on future hydrology; it is not uncommon to have 
short periods of high annual runoff from the Rocky Mountains during 
extended drought periods.
    Due to this year's higher inflow, BOR projects the first occurrence 
of shortage in the lower Colorado River Basin could be in 2015, at a 5-
percent probability. At this time last year, BOR had projected an 8-
percent chance of shortage as early as 2012.
    Question. How much storage capacity remains in Lake Mead?
    Answer. Discounting exclusive flood control space (approximately 
1.5 MAF), Lake Mead has an available capacity of 25.877 MAF. By 
December 31, 2011, BOR projects that Lake Mead will have 13.973 MAF of 
water in storage, which will take up 54 percent of its available 
storage capacity. At this level the remaining unused storage capacity 
at Lake Mead will be 11.904 MAF (46 percent of Lake Mead's total 
available capacity).

      <GREEK-L>BOR DEG.IMPERIAL, COACHELLA, AND METROPOLITAN WATER

    Question. What do these additional waters mean in terms of 
deliveries to lower Colorado River users, particularly those in 
California:
  --the Palo Verde Irrigation District;
  --Imperial Irrigation District;
  --Coachella Valley Water District; and
  --the Metropolitan Water District of Southern California.
    Answer. The amount of water available to be delivered to water 
contractors in the Lower Basin, including California contractors, is 
dependent on the condition determined for the operation of Lake Mead 
under the 2007 Record of Decision for Colorado River Interim Guidelines 
for Lower Basin Shortages and the Coordinated Operations for Lake 
Powell and Lake Mead (Interim Guidelines). The operating condition is 
determined based on reservoir elevations projected for January 1 of the 
upcoming year. In 2011, the Secretary has determined that the operating 
condition is Intentionally Created Surplus (ICS). This determination 
will not change due to the increased flow into Lake Mead. Current 
projections for 2012 and 2013 indicate that the most probable operating 
condition will once again be in the Normal--ICS Surplus range, with up 
to a 30 percent chance of a Surplus Condition in 2013.
    The Secretary has the discretion to declare either a Normal or 
Surplus Condition when Lake Mead elevations are between 1,075 feet mean 
sea level (MSL) and 1,145 feet MSL. During a Normal Condition, water 
contractors are allowed to take delivery of their full entitlement. In 
an ICS Surplus Condition, water contractors may take delivery of their 
full entitlement plus delivery of Intentionally Created Surplus water, 
up to the limits allowed under the Interim Guidelines. If over the next 
few years the elevation of Lake Mead were to increase above 1,145 feet 
MSL, this would trigger a Surplus Condition. Those contractors with a 
surplus entitlement would be allowed to take delivery of their surplus 
entitlement up to limits established in the Interim Guidelines in 
addition to a full entitlement.

                     <GREEK-L>BOR DEG.QUAGGA MUSSEL

    Question. In January 2007, quagga mussels were detected in Lakes 
Mead and Mohave within the Lake Mead National Recreation Area. Since 
then, Federal, State, and local agencies have been working to prevent 
the spread of this environmentally and economically damaging non-native 
aquatic invasive species. Despite their best efforts, quagga mussels 
continue to impact water users along the Colorado River system--
clogging filters, pipes, and pumps. Most traditional methods of control 
are not compatible with drinking water and environmental regulations. 
Given that 25 million people down river rely on the Colorado River as a 
key element of their water supply, resolving, or at least managing the 
quagga problem may be a priority for BOR. Can you please explain what 
BOR has done to address the problem and what does it propose to do in 
the future?
    Answer. As a high-priority component of BOR's Science & Technology 
(S&T) Program since 2008, BOR has focused invasive mussel research 
activities on improving early detection methods; identifying, 
developing, demonstrating, and implementing facilities protection 
technologies and strategies; and assessing ecological impacts. 
Researchers are engaged in a number of mussel-related activities 
including monitoring of more than 350 water bodies throughout the 
Western United States for the presence of mussels, coatings testing to 
prevent or reduce settlement on critical infrastructure, development of 
a promising treatment product called Zequanox<SUP>TM</SUP> (based on 
the common bacteria Psuedomonas florescens), and field evaluation of 
filtration and UV treatment technologies to exclude mussels from raw 
water systems. The potential of several other technologies is also 
being explored for removal or settlement prevention on intake 
structures and within pipelines including elevated pH control 
strategies; pulsed pressure devices; turbulence generating devices; 
carbon dioxide injection; dissolved oxygen reduction; potential for the 
use of certain registered herbicides; retrofit of trashrack raking 
systems; fish predation; and alternative fish screening technologies. 
Many of these activities involve collaboration with other Federal and 
State agencies, BOR's managing partners, and private industry and are 
expected to evolve as future research needs and new technologies are 
identified. BOR is also continuing to assess the long-term ecological 
impacts related to mussel infestations in western water bodies.
    BOR has also developed an Equipment Inspection and Cleaning Manual 
in cooperation with COE. This manual provides recommendations for 
inspection and cleaning of vehicles and equipment as a prevention tool 
to limit the spread of mussels and other invasive species carried to 
new sites by contaminated equipment. Since release of this manual, many 
other agencies and organizations have adopted its mussel prevention 
protocols. BOR also hosted the 17th International Conference on Aquatic 
Invasive Species in San Diego last year to help attract attention of 
the global scientific community to the importance of these mussels in 
the western watersheds of the United States.
    Question. How much has BOR spent to address the quagga mussel 
problem?
    Answer. It is estimated that BOR will have spent more than $12.5 
million through fiscal year 2010 and includes appropriations, power 
revenues and other funding from customers.
    Question. What are those funds being used for?
    Answer. Since 2008, BOR funding has supported mussel-related 
activities including prevention, early detection and rapid response, 
control and management, research and development, and education and 
outreach.
    Question. How has the quagga mussel impacted water quality and 
habitat in the Colorado River both above and below Lake Mead?
    Answer. Quagga mussels appear to be impacting water quality and 
habitat in the Colorado River above and below Lake Mead. Water clarity 
is increasing and, as a result, the production of aquatic weeds is 
increasing and becoming a problem at pumping plants intakes. The extent 
to which this change is caused by mussels versus other factors has not 
been quantified. Quagga mussels are also expected to affect nutrient 
dynamics and therefore have a detrimental impact on fisheries. BOR is 
continuing to assess the long-term ecological impacts related to mussel 
infestations including changes in water quality, interactions with 
other benthic organisms, and the potential for cyanobacteria-producing 
toxins in western water bodies.
    Question. What else could we do to address the problem, to protect 
habitat and wildlife, and to preserve water and irrigation district 
infrastructure?
    Answer. BOR continues to address evolving issues through 
monitoring, research, outreach, and education activities. Further 
knowledge is continually being gained through research that improves 
our understanding of mussel-related ecological and infrastructure 
impacts in the West and supports our strategies to mitigate impacts to 
water and hydropower facilities. Prevention of mussel movement to new 
water bodies is a very important activity, but it falls primarily to 
agencies that manage recreation at lakes and reservoirs and have 
authority to control the movement of watercraft and invasive species.
    As a high-priority component of BOR's S&T program since 2008, BOR 
has focused invasive mussel research activities on improving early 
detection methods; identifying, developing, demonstrating, and 
implementing facilities protection technologies and strategies; and 
assessing ecological impacts. Researchers are engaged in a number of 
mussel-related activities including monitoring of more than 350 water 
bodies throughout the Western United States for the presence of 
mussels, coatings testing to prevent or reduce settlement on critical 
infrastructure, development of a promising treatment product called 
Zequanox<SUP>TM</SUP> (based on the common bacteria Psuedomonas 
florescens), and field evaluation of filtration and UV treatment 
technologies to exclude mussels from raw water systems. The potential 
of several other technologies is also being explored for removal or 
settlement prevention on intake structures and within pipelines 
including elevated pH control strategies; pulsed pressure devices; 
turbulence generating devices; carbon dioxide injection; dissolved 
oxygen reduction; potential for the use of certain registered 
herbicides; retrofit of trashrack raking systems; fish predation; and 
alternative fish screening technologies. Many of these activities 
involve collaboration with other Federal and State agencies, BOR's 
managing partners, and private industry and are expected to evolve as 
future research needs and new technologies are identified. BOR is also 
continuing to assess the long-term ecological impacts related to mussel 
infestations in western water bodies.
    BOR has also developed an Equipment Inspection and Cleaning Manual 
in cooperation with COE. This manual provides recommendations for 
inspection and cleaning of vehicles and equipment as a prevention tool 
to limit the spread of mussels and other invasive species carried to 
new sites by contaminated equipment. Since release of this manual, many 
other agencies and organizations have adopted its mussel prevention 
protocols. BOR also hosted the 17th International Conference on Aquatic 
Invasive Species in San Diego last year to help attract attention of 
the global scientific community to the importance of these mussels in 
the western watersheds of the United States.
                                 ______
                                 
               Question Submitted by Senator Patty Murray

             <GREEK-L>BOR DEG.ODESSA SUBAREA SPECIAL STUDY

    Question. Commissioner Connor, as you know I have worked closely 
with the Bureau of Reclamation (BOR) over several years on the Odessa 
Subarea Special Study to look at surface options for irrigation to 
reduce the impact to the aquifer. Clearly, agriculture is vital to 
Washington State's economy and the Central Washington area is a huge 
part of the industry. We are so close to finishing the Study to 
determine the best path forward, but I am hearing that the BOR doesn't 
plan to fund the remainder. Can you please tell me your plan to ensure 
the completion of the study?
    Answer. BOR recognizes the importance and understands the 
significance of the Columbia Basin water issues, and specifically the 
Odessa Subarea Special Study (Study). In this regard, BOR has partnered 
with the State of Washington (State) to investigate the possibility of 
continued development of the Columbia Basin Project to deliver project 
surface water to replace the current ground water use in the Odessa 
Subarea. The Study is near completion; however, faced with considerable 
competing demands for aging infrastructure, satisfying Endangered 
Species Act regulatory requirements on operating projects, and other 
high-priority water issues throughout the 17 Western States, it was not 
possible for BOR to provide funding for the study in the fiscal year 
2012 President's budget. BOR will continue to work with the State to 
bring the Study to completion as soon as possible. BOR and State of 
Washington Department of Ecology have jointly prepared a draft 
environmental impact statement (EIS) to meet the National Environmental 
Policy Act and State Environmental Policy Act requirements. The draft 
EIS was released to the public from October 26, 2010 through January 
31, 2011, with more than 210 comment letters received. The final EIS is 
anticipated to be completed by late 2011.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson

                      <GREEK-L>BOR DEG.RURAL WATER

    Question. Given increases in prices over time and the necessary 
noncontract and overhead costs associated with construction projects, 
it follows that the longer a project takes to complete, the more 
expensive it will be. Has the extension of the completion of Bureau of 
Reclamation's (BOR) Rural Water Supply Projects increased overhead 
costs at the expense of construction?
    Answer. Yes. As annual appropriations are less than what is 
necessary to support full project construction, we believe some Rural 
Water Supply Projects are incurring increased overhead costs at the 
expense of construction.
    Question. If so, by how much?
    Answer. BOR does not have any way of quantifying such an increase 
and does not have specific data to determine the actual extent to which 
increased overhead may impact the total cost of completing projects.
    Question. How does BOR propose to restore the funds which had to be 
used to cover overhead costs so that construction can be completed?
    Answer. Historically, cost indexing authorized for each of the 
current rural water projects has kept pace with inflation, and coupled 
with a favorable construction climate, projects appear to be 
progressing within original cost estimates. The funds requested by BOR 
for rural water construction are formulated to account for projected 
construction capabilities and other mission critical work.
                                 ______
                                 

                          SUBCOMMITTEE RECESS

    Senator Feinstein. So thank you for taking it all with good 
humor. Thank you very much.
    And the hearing is recessed.
    [Whereupon, at 4:12 p.m., Wednesday, April 13, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
